<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:12 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Leahy, Feinstein, Pryor, Cochran, 
Murkowski, and Graham.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY


             opening statement of senator richard j. durbin


    Senator Durbin. The subcommittee meets this morning to 
receive testimony on the fiscal year 2015 budget request for 
the United States Air Force. Our apologies for being a little 
bit late, but we had a scheduled vote and rushed right over.
    I am pleased to welcome the Secretary of the Air Force, the 
Honorable Deborah Lee James; thank you for coming. The Air 
Force Chief of Staff, General Mark Welsh, III; thank you, 
General, for being here. The Chief of the National Guard 
Bureau, General Frank Grass; it is good to see you again. The 
director of the Air National Guard, Lieutenant General Stanley 
Clarke, III; General Clarke. And the Chief of Air Force 
Reserve, Lieutenant General James Jackson; thank you so much. 
We appreciate you being here.
    The fiscal year 2015 President's budget request includes 
$108 billion for the Air Force that falls under our 
jurisdiction. The budget does not include funding for overseas 
contingency operations, and that is a concern.
    Until we receive the President's plan for support in 
Afghanistan post-2014, it is extremely difficult, if not 
impossible, to appropriate proper levels of funding to support 
our warfighters.


                           prepared statement


    This budget establishes obvious priorities and the purpose 
of this hearing is to investigate the rationale behind those 
priorities. The budget submission clearly prioritizes training 
as part of a long-term plan to restore readiness after 
sequestration.
    The Air Force is also canceling some planned upgrades to 
legacy equipment in order to fund new capability priorities. In 
the interest of time, I will ask that the remainder of my 
opening statement be placed in the record.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    The subcommittee meets this morning to receive testimony on the 
fiscal year 2015 budget request for the United States Air Force.
    I am pleased to welcome:
  --the Secretary of the Air Force, the Honorable Deborah Lee James;
  --the Air Force Chief of Staff, General Mark Welsh, III;
  --the Chief of the National Guard Bureau, General Frank Grass;
  --the Director of the Air National Guard, Lieutenant General Stanley 
        Clarke, III; and
  --the Chief of the Air Force Reserve, Lieutenant General James 
        Jackson.
    Thank you for being here with us today and providing your 
testimony.
    The fiscal year 2015 President's budget request includes $108 
billion for the Air Force that falls under the Defense Subcommittee's 
jurisdiction. The budget request does not include funding for Overseas 
Contingency Operations, which is a major concern for the committee. 
Until we receive the President's plans for support in Afghanistan post-
2014, it is impossible to appropriate proper levels of funding to 
support our warfighters serving in war zones.
    This budget establishes obvious priorities. The purpose of this 
hearing is to investigate the rationale behind those decisions and 
determine whether they are the right ones.
    The budget submission clearly prioritizes training, as part of a 
long-term plan to restore the readiness lost from sequestration.
    The Air Force is also cancelling some of its planned upgrades to 
legacy equipment in order to fund its new capability priorities: the 
Joint Strike Fighter, the K-46A refueling tanker, and the Long Range 
Strike Bomber. However, the Air Force has also made some 
recommendations that cause concern, such as retiring the entire A-10 
and U-2 fleets, as well as retiring a portion of the critical support 
aircraft fleet that have proven invaluable over the last 12 years of 
war.
    In addition, we are concerned as we look across the next 5 years of 
budgets. The Department of Defense wants to add $115 billion over the 
Budget Control Act caps written into law. What happens if these funds 
don't materialize? Similarly, if funding for education, healthcare, and 
other domestic programs remains at sequester levels, will the Air Force 
have more challenges in finding well-educated, fit, and capable young 
men and women to recruit for the future force?
    Throughout this conversation, we cannot waver in protecting our 
most precious asset--our people. General Welsh, you and I recently had 
the opportunity to visit Scott Air Force Base in Illinois to discuss 
its value to the nation and review the tremendous contributions 
provided by the dedicated men and women who work there. Scott has all 
Active Duty, Guard and Reserve personnel working side by side, and the 
Air Force is stronger for it. It was a great visit, I learned a lot, 
and I come away believing more strongly that we cannot allow budget 
pressures to squander their skills.
    I look forward to working with you, our distinguished panel, 
throughout the year; so that our fiscal year 2015 appropriations bill 
can enable the United States Air Force to successfully defend our 
national interests around the world.
    We sincerely appreciate your service to our Nation and the 
dedication and sacrifices made daily by the men and women in our Air 
Force.

    Senator Durbin. I turn the floor over to my friend and 
colleague, Senator Cochran, before recognizing the panel.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am very pleased to join 
you in welcoming Secretary James, General Welsh, General Grass, 
and the leaders of the Air Guard and Reserve, to our 
committee's hearing to review the Air Force budget request for 
fiscal year 2015.

                           PREPARED STATEMENT

    I have a statement, which I will ask to be printed in the 
record, Mr. Chairman, and will look forward to our discussion 
of the recommendation and the request from this panel. And we 
thank you for your cooperation.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I am pleased to join you in welcoming Secretary James 
and General Welsh, General Grass and the leaders of the Air Guard and 
Reserve to our committee's hearing to review the Air Force budget 
request for fiscal year 2015.
    Secretary James, let me take the opportunity to welcome you to your 
first appearance before this committee as Secretary of the Air Force. 
We thank you for your service as the Air Force continues its vital role 
in the defense of our Nation both on the ground and in the air and 
space.
    Madam Secretary, based on the information I have received from the 
Air Force, I question the analysis behind the recommendation to 
deactivate Keesler's 815th Tactical Airlift Squadron, which we know as 
the ``Flying Jennies'', and move the 10 C-130J transport aircraft. I 
look forward to receiving more information related to the associated 
costs of the transfer. I hope we can count on you to consult with the 
members of the Mississippi delegation as we work to understand this 
proposal.
    Keesler Air Force Base was selected as the Air Force's 2013 
Installation Excellence award winner which recognizes excellence in 
services, facilities, and quality-of-life among other things. Keesler 
and the community banded together after the Gulf Coast were ravaged by 
Hurricane Katrina. They volunteered and worked tirelessly for months to 
help rebuild the community and the base. This is something we will 
never forget.
    We are proud to host bases from which Active Duty, Reserve and Air 
Guard airmen operate and train for a wide range of jobs from pilots to 
supporting cyber warfare requirements.
    We are very proud of the training mission at Keesler Air Force Base 
which has expanded to support Air Force cyber warfare requirements. 
Columbus Air Force Base is home to the premier pilot training wing, and 
the 172nd Air Wing in Jackson, which is home to the Air National 
Guard's C-17 cargo aircraft unit.
    The training and work that takes place in Mississippi contributes 
to our Nation's air and space superiority, and our state stands ready 
to expand its role in helping the United States Air Force accomplish 
its missions.
    We look forward to your testimony.

    Senator Durbin. Thank you, Senator Cochran.
    And now we will open with Secretary James. Your written 
statement will be placed in the record. If you would like to 
summarize it or add to it, this is your opportunity.

              SUMMARY STATEMENT OF HON. DEBORAH LEE JAMES

    Ms. James. Thank you so much, Mr. Chairman and Vice 
Chairman Cochran. It is, certainly, a pleasure for me and my 
colleagues to come before you this morning. And even more so, 
it is a huge honor and privilege for me to serve as the 23rd 
Secretary of the Air Force on behalf of our 690,000 Active 
Duty, Guard, Reserve, civilian airmen, and their families.
    I am now all of 3-months-old on the job, and what a busy 
time it has been. I have been to 18 different bases in 13 
States as well as having just returned from my first overseas 
trip, where I visited with airmen in Germany, Qatar, Kuwait, 
U.A.E., and Afghanistan, to include Kabul, Bagram, Kandahar, 
and Shindand. And what I wanted you to know is that at each and 
every location that I have visited, I have seen really three 
key things. I have seen terrific leaders who are tackling 
issues, tough issues. They are tackling them head-on and 
directly. I have seen superb total force teamwork everywhere I 
have been, which is extremely encouraging. And most 
importantly, I have seen just amazing and very, very innovative 
airmen who are extremely dedicated to the service of our 
country; so very inspiring.
    With that said, Mr. Chairman, we are living in very 
challenging times, both in terms of our security environment as 
well as the budget environment that we are facing. And in our 
submission that you now have before you, we have attempted to 
take these challenges on again directly and deliberately and 
thoughtfully, and we have done so as a team, very inclusively.
    To make these choices, we first began with the strategy, 
and that begins with the strategy of today, which includes 
defending the homeland against all threats; building security 
globally by projecting U.S. influence and deterring aggression; 
and number three, remaining prepared to win decisively against 
any adversary should deterrence fail.
    That is the story of today for our strategy, but there is 
also the story for tomorrow. The story for tomorrow is we need 
to invest now in the technologies and platforms. We need to 
also turn ourselves and direct ourselves to new centers of 
power and be prepared to operate in a more volatile and 
unpredictable world, a world in which we can no longer take for 
granted American dominance of the skies and space.
    Now, your Air Force is crucial in this strategy throughout, 
both the part for today and the part for tomorrow. But the 
trouble is the likely budget scenarios that we are facing will 
probably leave us with certain gaps. In fact, I am certain that 
that will be the case.
    Now, having been an observer on the scene of defense for 
more than 30 years, I know and you know, there are always some 
degree of gaps that we face between strategy and budgets. They 
never match exactly. And when those mismatches occur, what we 
have to do is we have to make decisions. We have to ultimately 
come down to judgment calls based on our best military judgment 
about what risks are most prudent; what risks can we assume.
    Now, I will grant you this has been a more complex year 
than most, a more difficult year than most, because there is no 
low-hanging fruit to capture as part of these budgetary 
actions. We are grateful for the greater stability and the 
additional bump-ups that we got in fiscal year 2014 and 2015 
through the Bipartisan Budget Act (BBA) and the fiscal year 
2014 consolidated appropriations act. It didn't solve all of 
the issues before us, but it was a great help and we thank you 
for that.
    Our fiscal year 2015 budget hits the target under the BBA, 
but it also contains what we call the Opportunity, Growth and 
Security Initiative. That is $26 billion additional across DOD, 
$7 billion of which will come to the Air Force, and we would 
put that money toward readiness and investment priorities that 
would help us get closer to where we think we need to be.
    So the bottom line here is that the budget and the 5-year 
plan is one in which we are rebalancing. We are coming out of 
13 years of a persistent war in the Middle East, and now we 
need to rebalance. We need to recapture our complete readiness 
and our future capability.
    It is really not an either/or situation because we very 
much need to have both in that rebalancing action.
    Let me quickly give you some of our major decisions, and I 
would like to lay them out in terms of the priorities that I 
have laid out for our Air Force.
    And those priorities are number one, taking care of people; 
two, balancing today's readiness with tomorrow's readiness; and 
three, ensuring that we have the best Air Force in the world, 
the most capable Air Force but at the best value for our 
taxpayers.
    So beginning with priority one, as far as I am concerned, 
100 percent of the time, it always comes down to people. So 
taking care of people, to me, means we need to recruit the 
right people; we need to retain the very best people. Once we 
have them, we need to develop them. We need to shape the force 
as we go forward as well and get the right balance between our 
Active Duty, our National Guard, and our Reserve components. 
And by the way, our plan going forward does rely more heavily 
on the National Guard and Reserves, not less reliance, but more 
reliance.
    It also means that we have to communicate well the various 
force management techniques that we are now utilizing within 
the force, and, certainly, we are trying to do our best at 
this.
    It also means having diversity of thought and background at 
the table as we make decisions. We will get better decisions if 
we achieve that.
    We have to protect our most important family programs. We 
have to ensure that the climate is one of dignity and respect 
for all.
    We have to continue to combat sexual assault and make sure 
that everybody is living and leading our core values in the Air 
Force, which are integrity, service, and excellence.
    And we need to do fair compensation going forward as well, 
though we do feel that we have to slow the growth in that 
compensation; and that is one of those hard decisions that no 
one is fully happy with, but we feel it is necessary in order 
to free up money to put back into readiness and modernization 
for the future.
    And that leads me to my second priority, and that is 
balancing today's readiness with tomorrow's readiness. The 
readiness of today, of course, is training; it is equipment; it 
is what we need today to do our job; it has taken a hit over 
time, particularly last year during sequestration.
    So our fiscal year 2015 request fully funds flying hours 
and other high-priority readiness issues. And we will see, if 
this is approved, gradual improvements in our readiness. We 
won't get it all done in 1 year. It is going to take time. But 
it will set us on the right path.
    In terms of our investments for tomorrow, we did protect 
our F-35 program, the KC-46 tanker, and the long-range strike 
bomber, which are the three top priorities in terms of new 
investment programs.
    We also, of course, continue to support the nuclear triad, 
two-thirds of which are ICBMs (intercontinental ballistic 
missiles), and our bombers are in the Air Force.
    We also have begun to replace, or we have made decisions to 
replace, our aging platforms like the Combat Rescue Helicopters 
and invest in a new jet engine technology that promises reduced 
fuel consumption, lower maintenance, and will help our 
industrial base.
    Now to pay for all of this, given our budget realities, we 
had to make some very tough choices. So we are proposing to 
retire some entire fleets. That way we will get billions of 
dollars of saving versus millions of dollars. This will include 
the A-10 and the U-2, two terrific platforms that have served 
us well for years. But again, tough choices were in order.
    We will also have to limit the growth of combat air 
patrols. We will retire our fleet of Predators over time, the 
MQ-1, in favor of a fully capable MQ-9 Reaper fleet in the 
future.
    So these are just a few of the trade-offs. But by doing so, 
we can ensure that we will maximize our combat capability in 
the future and maximum combat power at the best cost to the 
taxpayer, which leads me to priority number three, and that is 
make every dollar count.
    So in these tough budgetary times, in particular, we need 
to make sure that every dollar counts. So to me this means we 
are going to be focusing on keeping our acquisition programs on 
budget and on schedule. We are going to continue to move 
forward and get to a point where we are auditable as the 
Department of Defense (DOD) and as the Air Force.
    We are going to trim overhead, including that 20-percent 
reduction you have heard the Secretary of Defense talk about. 
By the way, I do want to join with the Secretary and ask you to 
please approve another round of BRAC (base realignment and 
closure) in 2017.
    Now, while sequestration level funding will have us spend 
less in the short term, the ramifications of returning to lower 
levels and sequestration levels in fiscal year 2016, we feel, 
will compromise our national security simply too much. And so 
we would ask, please, do whatever you can, so that we will not 
return to the sequestration levels in 2016.
    But if we must, we have thought through how we would manage 
that as well. So if we were to return to fiscal year 2016 
sequestration levels, we would have to retire up to 80 more 
aircraft, including the KC-10 tanker fleet. We would have to 
defer some sensor upgrades that we want to do to the Global 
Hawk, that would bring it up to parity with the U-2.
    We would have to slow the purchases of F-35s. We would have 
to have fewer combat air patrols, fewer Predator and Reaper 
patrols. We couldn't do that next generation jet engine program 
I told you about. We would probably need to re-evaluate the 
Combat Rescue Helicopter and some of our other important 
programs.
    So that return to sequestration would have very serious 
ramifications in 2016 for us if we have to do so. And again, we 
ask you to please support the higher levels going forward in 
the 5-year plan.

                           PREPARED STATEMENT

    I will conclude, Mr. Chairman, by giving you my vision for 
the Air Force, where I hope the Air Force will be 10 years from 
now.
    I am certain our Air Force will be smaller, but it will be 
highly capable and it will be innovative and it will be ready. 
We will be a good value for the taxpayers, and we will be 
recognized as such. We will be able to respond to problems when 
our country asks us to step up overseas to whatever mission 
comes our way, unparalleled airpower, as well as here at home 
when disaster strikes us. We will be more reliant on our 
National Guard and Reserve because it makes good mission sense 
and it is a good value for the taxpayer, and it will be powered 
by the best airmen on the planet.
    I thank you so much for what you do for our Nation and look 
forward to your questions.
    [The statement follows:]
            Prepared Statement of Hon. Deborah Lee James and
                       General Mark A. Welsh, III
                              introduction
    America's Airmen and Air Force capabilities play a foundational 
role in how our military fights and wins wars. The Air Force's agile 
response to national missions--in the time, place, and means of our 
choosing--gives our Nation an indispensable and unique advantage that 
we must retain as we plan for an uncertain future. Whether responding 
to a national security threat or a humanitarian crisis, your Air Force 
provides the responsive global capabilities necessary for the joint 
force to operate successfully.
    It takes the combined efforts of all of our military Services and 
the whole of government to deny, deter, and defeat an enemy, and over 
the last decade this integration has tightened. Just as we depend on 
our joint partners, every other Service depends on the Air Force to do 
its job. Whether it is Global Positioning System (GPS) information to 
navigate waterways, airlift to get troops to and from the fight, 
manning intercontinental ballistic missile (ICBM) silos to deter 
aggression, or reconnaissance and satellite communication to tell 
forces where enemy combatants gather or hide, the Air Force provides 
these capabilities, as well as many others. Here at home, our Airmen 
patrol the skies ready to protect the homeland and are integral to the 
movement of people and lifesaving supplies when disasters, like 
Hurricane Sandy or the California wildfires, strike. This capability to 
see what is happening and project power anywhere in the world at any 
time is what Global Vigilance, Global Reach, and Global Power are all 
about.
    The current fiscal environment requires the Air Force to make some 
very tough choices. When making decisions about the best way for the 
Air Force to support our Nation's defense, the abrupt and arbitrary 
nature of sequestration created a dilemma between having a ready force 
today or a modern force tomorrow. To best support national defense 
requirements, comply with the Defense Department's fiscal guidance, and 
meet defense strategy priorities, as updated by the 2014 Quadrennial 
Defense Review (QDR), we attempted to preserve capabilities to protect 
the homeland, build security globally, and project power and win 
decisively. To do this the Air Force emphasized capability over 
capacity. We worked hard to make every dollar count so we could protect 
the minimum capabilities for today's warfighting efforts, while also 
investing in capabilities needed to defeat potential high-end threats 
of the future. Moving forward, we seek to maintain a force ready for 
the full range of military operations while building an Air Force 
capable of executing our five core missions: (1) air and space 
superiority; (2) intelligence, surveillance, and reconnaissance (ISR); 
(3) rapid global mobility; (4) global strike; and (5) command and 
control, all against a well-armed and well-trained adversary in 2023 
and beyond.
                         strategic environment
    The United States Air Force has long enjoyed technological 
superiority over any potential adversary. However, the spread of 
advanced technology has eroded this advantage faster than anticipated. 
The proliferation of nuclear weapons, cyber capabilities, cruise 
missiles, ballistic missiles, remotely piloted vehicles, air defense 
systems, anti-satellite development efforts, and technologically 
advanced aircraft, including 5th generation fighters, are particularly 
concerning. Increased access to such capabilities heightens the 
potential for the emergence of additional near-peer competitors--
adversaries capable of producing, acquiring, and integrating high-end 
capabilities that rival or equal our own and can possibly deny our 
freedom of action. This means we may not be able to go where we need to 
in order to protect our national security interests. This dynamic 
security environment creates both opportunities and challenges for the 
United States. As we address known threats, we must also have the 
vision to understand the changing strategic landscape, and keep an open 
mind with regard to which of these changes represent true threats, and 
which may present strategic opportunities.
                           fiscal environment
Historical Perspective
    The Air Force has always had to balance what we can do 
(capability), how much we have to do it with (capacity), and how well 
trained and responsive we need to be (readiness). However, over time 
our trade space has been shrinking. As an Air Force, with respect to 
aircraft and personnel, we are on course to be the smallest since our 
inception in 1947. After peaking at 983,000 active component Airmen in 
1952, we have consistently gotten smaller. While the military as a 
whole has grown since 9/11, the Air Force has further reduced our 
active component end strength from 354,000 to just over 327,600 today. 
Also, the Air Force post-war budget drawdowns in the 1950s and 1970s 
were followed by major acquisition programs that fielded most of our 
current missile, bomber, tanker, fighter, and cargo inventory, yet post 
9/11 investments have replaced less than 5 percent of the currently 
active combat aircraft. Since 1990, our aircraft inventory has 
decreased from 9,000 to 5,400 aircraft, and the average aircraft age 
has increased from 17 to 27 years. Additionally, since 1962, our annual 
budget's non-Blue Total Obligation Authority (TOA) (funding that the 
Air Force does not control and cannot use to balance other 
requirements) has risen to more than 20 percent of our total Air Force 
TOA.
    This narrow trade space and constrained funding leave no room for 
error. Past drawdown strategies suggest that the Air Force should 
prioritize high-end combat capabilities; near-term procurement of 
highly capable and cost-effective weapons and munitions as force 
multipliers; and long-term research and development for the next-
generation weapon delivery platforms. Simultaneously, we must gain and 
maintain readiness across the full range of operations.
Fiscal Realities
    In fiscal year 2015, the Air Force must be able to execute national 
defense requirements while also recovering from the impacts of fiscal 
year 2013 sequestration, and adjusting to the fiscal year 2014 
Bipartisan Budget Act (BBA) funding levels and the uncertainty in the 
future years planned budget top line for fiscal year 2016 and beyond. 
We are working hard to make the right choices that maximize each 
taxpayer dollar and ensure we can meet national security needs today 
and in the future.
Effects of Fiscal Year 2013 Budget and Sequestration
    The magnitude of the cuts generated in fiscal year 2013 by 
sequestration was difficult to absorb in the short term. We stood down 
31 active component squadrons for more than 3 months. We initiated 
civilian furloughs, putting extreme stress on the workload and personal 
finances of our civilian workforce. We cut maintenance of our 
facilities, in many cases by 50 percent, and delayed major maintenance 
actions, including depot aircraft overhauls.
    With support from Congress, the Air Force was able to realign $1.7 
billion into operations accounts. This allowed us to cover our overseas 
contingency operations requirements and enabled us to resume flying 
operations, but these budget adjustments came at a sacrifice to future 
weapon system modernization. Of the units affected by the fiscal year 
2013 sequestration, only about 50 percent have returned to their 
already degraded pre-sequestration combat ready proficiency levels, and 
it will take years to recover from the weapon system sustainment 
backlog.
Fiscal Year 2014 Game Plan
    Though the BBA and the fiscal year 2014 Appropriations Act provided 
partial sequestration relief in fiscal year 2014, and some help for 
fiscal year 2015, they do not solve all of our problems. The additional 
funds help us reverse our immediate near-term readiness shortfalls and 
enable the Air Force to build a plan that mostly shields our highest 
priorities, including: flying hours; weapon system sustainment; top 
three investment programs; and key readiness requirements such as 
radars, ranges, and airfields. However, the tightening fiscal caps 
combined with the abrupt and arbitrary nature of sequestration clearly 
drove the Air Force into a ``ready force today'' versus a ``modern 
force tomorrow'' dilemma, forcing us to sacrifice future modernization 
for current readiness.
    This dilemma is dangerous and avoidable and will continue to be a 
threat in 2015 and beyond. If given the flexibility to make prudent 
cuts over time and avoid sequestration, we can achieve significant 
savings and still maintain our ability to provide Global Vigilance, 
Global Reach, and Global Power for the Nation.
Fiscal Year 2015 and Beyond--Long Range Vision
    The fiscal year 2015 President's budget (PB) is our effort to 
develop and retain the capabilities our Nation expects of its Air Force 
within the constraints placed upon us. The least disruptive and least 
risky way to manage a post-war drawdown is to wait until the end of the 
conflict to reduce spending and to provide a ramp to the cuts. 
Sequestration provides no such ramp. However, the fiscal year 2015 PB 
in conjunction with the BBA does allow for a more manageable ramp, as 
seen in Chart I, Air Force Budget Projections. This funding profile 
allows us to move toward balance between capability, capacity, and 
readiness.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Chart I: Air Force Budget Projections

    Maintaining the fiscal year 2015 PB top line level of funding will 
provide the time and flexibility to make strategic resourcing choices 
to maximize combat capability from each taxpayer dollar. If we continue 
to be funded at the fiscal year 2015 PB top line level we can continue 
a gradual path of recovery to full-spectrum combat readiness, preserve 
munitions inventories, and protect investments such as the new training 
aircraft system and the next generation of space-based systems. 
Additionally, the President has proposed an additional Opportunity, 
Growth, and Security Initiative (OGSI) to accompany the fiscal year 
2015 budget request. For the Air Force, this $7 billion additional 
investment would enhance our readiness posture, enable us to fund 
critical modernization programs, accelerate recapitalization efforts, 
and improve our installations and bases.
    A sequestration-level budget would result in a very different Air 
Force. We are aggressively seeking innovative cost savings and more 
efficient and effective ways of accomplishing our missions; however, 
these initiatives will not be sufficient to reach sequestration funding 
levels. To pay the sequestration-level bill we will have to sacrifice 
current tanker and ISR capacity by divesting KC-10 and RQ-4 Block 40 
fleets, all of our major investment programs will be at risk, and our 
readiness recovery will be significantly slowed due to required cuts in 
weapon system sustainment and ranges.
              fiscal year 2015 budget decision methodology
    During the development of the fiscal year 2015 budget submission, 
the Air Force took a bold but realistic approach to support the Air 
Force 2023 framework and the 2012 Defense Strategic Guidance, as 
updated during deliberations on the 2014 QDR. To do this within fiscal 
guidance, including the Strategic Choices and Management Review, we had 
to make difficult trades between force structure (capacity), readiness, 
and modernization (capability). As a result, the Air Force established 
four guiding principles to steer our strategy and budget process.
  --We must remain ready for the full-spectrum of military operations;
  --When forced to cut capabilities (tooth), we must also cut the 
        associated support structure and overhead (tail);
  --We will maximize the contribution of the Total Force; and
  --Our approach will focus on the unique capabilities the Air Force 
        provides the joint force, especially against a full-spectrum, 
        high-end threat.
    When building the budget, there were no easy choices. We divested 
fleets and cut manpower that we would have preferred to retain. We 
focused on global, long-range, and multirole capabilities, especially 
those that can operate in contested environments, which meant keeping 
key recapitalization programs on track. We made these choices because 
losing a future fight to a high-end adversary would be catastrophic.
Full-Spectrum Readiness
    Because of our global reach, speed of response, and lethal 
precision, the Air Force is the force that the Nation relies on to be 
first in for the high-end fight. This is our highest priority. To do 
this we must be ready across the entire force. This means we need to 
have the right number of Airmen, with the right equipment, trained to 
the right level, in the right skills, with the right amount of support 
and supplies to successfully accomplish what the President tasks us to 
do in the right amount of time . . . and survive.
    Over the past 13 years, the Air Force has performed exceptionally 
well during combat operations in Iraq and Afghanistan. However, these 
operations have focused on missions conducted in a permissive air 
environment and with large footprints for counterinsurgency. This left 
insufficient time or resources to train across the full range of Air 
Force missions, especially missions conducted in contested and highly 
contested environments. To ensure success in future conflicts, we must 
get back to full-spectrum readiness. We can only get there by funding 
critical readiness programs such as flying hours, weapon system 
sustainment, and training ranges, while also balancing deployments and 
home-station training--in short, reducing operational tempo. This will 
not be a quick fix; it will take years to recover. If we do not train 
for scenarios across a range of military operations, including a future 
high-end fight, we accept unnecessary risk. Risk for the Air Force 
means we may not get there in time, it may take the joint team longer 
to win, and our military service members will be placed in greater 
danger.
Fleet Divestment
    Given the current funding constraints, the Air Force focused on 
ways to maximize savings while minimizing risk to our joint forces and 
our ability to support national defense requirements. Every aircraft 
fleet has substantial fixed costs such as depot maintenance, training 
programs, software development, weapons integration, spare parts, and 
logistics support. Large savings are much more feasible to achieve by 
divesting entire fleets rather than making a partial reduction to a 
larger fleet. This allows us to achieve savings measured in the 
billions rather than ``just'' millions of dollars.
    Upon first glance, divesting an entire fleet is undesirable because 
it removes all of a fleet's capabilities from our range of military 
options. For example, divesting the A-10 causes a loss of combat-tested 
aircraft optimized to conduct the close air support mission. However, 
the A-10 cannot conduct other critical missions, such as air 
superiority or interdiction, and cannot survive in a highly contested 
environment. Air superiority, which gives ground and maritime forces 
freedom from attack and the freedom to attack, is foundational to the 
way our joint force fights. It cannot be assumed, must be earned and is 
difficult to maintain. One of the dramatic advantages of airpower in a 
major campaign is its ability to eliminate second echelon forces and 
paralyze the enemy's ability to maneuver. As the Air Force becomes 
smaller, we must retain multirole aircraft that provide greater 
flexibility and more options for the joint force commander.
    Another example is the Air Force's U-2 and RQ-4 Global Hawk Block 
30, high-altitude ISR aircraft. The U-2 has been the combatant 
commanders' high-altitude ISR platform of choice due to its exceptional 
reliability, flexibility, survivability, and sensor capabilities. In 
the current fiscal environment, the Air Force cannot afford to maintain 
both platforms. While both have performed marvelously in Afghanistan 
and other theaters worldwide, the Global Hawk RQ-4 Block 30 provides 
unmatched range and endurance and, after multiple years of focused 
effort, now comes at a lower cost per flying hour. With responsible 
investment in sensor enhancements, the Global Hawk RQ-4 Block 30 can 
meet high-altitude, long endurance ISR requirements. Therefore, long-
term affordability after near-term investments provides a stronger case 
for the RQ-4 Global Hawk Block 30 in a constrained funding environment.
    To support combatant commanders and act as good stewards for the 
taxpayer, we need to divest entire fleets of aircraft to achieve large 
savings while preserving the capabilities the Air Force uniquely 
provides to the joint force.
Active Component/Reserve Component (AC/RC) Mix
    American Airmen from each component--Regular Air Force, Air 
National Guard, and Air Force Reserve--provide seamless airpower on a 
global scale every day. The uniformed members of today's Total Force 
consist of approximately 327,600 Regular Air Force Airmen, 105,400 Air 
National Guardsmen, and 70,400 Air Force Reserve Airmen actively 
serving in the Selected Reserve, as authorized by the fiscal year 2014 
National Defense Authorization Act (NDAA). Over the past two decades, 
to meet combatant commander requirements and the demands of recurring 
deployments, the Air Force has increasingly called upon its Total 
Force. This elevated use of the Air National Guard and Air Force 
Reserve has transformed a traditionally strategic reserve force into a 
force that provides operational capability, strategic depth, and surge 
capacity. As the Air Force becomes smaller, each component will 
increase reliance on one another for the success of the overall 
mission.
    To meet Department of Defense (DOD) strategic guidance for a leaner 
force that remains ready at any size, the Air Force plans to remove 
approximately 500 aircraft across the inventories of all three 
components, saving over $9 billion. Additionally, the Air Force has 
instituted an analytical process of determining the proper mix of 
personnel and capabilities across the components to meet current and 
future requirements within available resources. Air Force leadership 
representing the active and reserve components, including adjutants 
general, teamed to develop the Air Force fiscal year 2015 Total Force 
Proposal (TFP-15) that preserves combat capability and stability for 
our Total Force. Taking into account recent lessons learned and 
existing fiscal realities, this compilation of actions maximizes every 
dollar and leverages opportunities to move personnel and force 
structure into the reserve component, while still preserving capability 
and capacity across all three components. To do this, the Air Force 
plans to transfer aircraft from the active component to the Air 
National Guard and the Air Force Reserve, including the transfer of 
flying missions to locations that would otherwise have no mission due 
to fleet divestments. This effort helps the Air Force maintain combat 
capability within mandated budgetary constraints by using the strength 
and unique capabilities of the Guard and Reserve components to make up 
for capabilities lost as active duty end strength declines, a concept 
known as compensating leverage. Leaders from all three components 
developed the TFP-15 plan which accomplishes these objectives using the 
following principles as guidelines:
  --Where possible, replacing divested force structure with like force 
        structure (e.g., A-10 with F-16);
  --Adding similar force structure without driving new military 
        construction;
  --Adding same-type force structure to units where possible and 
        returning mission sets to locations where they were previously 
        located;
  --Considering opportunities to realign force structure to the reserve 
        component prior to any decision to completely divest aircraft; 
        and
  --Considering new aircraft deliveries as options for mission 
        transition at uncovered locations.
    In January 2013, as part of the Air Force's effort to optimize the 
capabilities of the active and reserve components, the Secretary of the 
Air Force (SecAF) and the Chief of Staff of the Air Force (CSAF) 
established the Total Force Task Force (TF2) to explore and leverage 
the unique strengths and characteristics of each component. This task 
force conducted a comprehensive review of Total Force requirements, 
offered ideas for improving collaboration between the three components, 
and gave us a starting point for future Total Force analysis and 
assessment efforts. To continue the body of work initiated by the TF2, 
and facilitate a transition to a permanent staff structure, the CSAF 
directed the stand-up of a transitional organization, the Total Force 
Continuum (TF-C), on October 1, 2013. The TF-C is continuing to develop 
and refine decision support tools that will help shape and inform the 
fiscal year 2016 budget deliberations.
    The Air Force has made great strides in understanding how a three-
component structure can operate as a powerful, efficient, and cost-
effective Service that maximizes the integrated power of our air, 
space, and cyberspace forces. This needs to be the way we do business, 
without even thinking about it. We will continue to seek ways to 
strengthen and institutionalize the collaboration and cooperation 
between the components, including reviewing the National Commission on 
the Structure of the Air Force's findings. Our initial examination of 
the Commission's report suggests a great deal of symmetry between many 
of their recommendations and current Air Force proposals for the way 
ahead. The Air Force is committed to ensuring that our Total Force is 
fully synchronized to deliver an unparalleled array of airpower 
anywhere in the world.
Recapitalization vs. Modernization
    One of the most critical judgments in building the Air Force plan 
for 2015 and beyond was how to balance investment in our current aging 
fleet against the need to buy equipment that will be viable against 
future adversaries. Forced to make tough decisions, we favored funding 
new capabilities (recapitalization) over upgrading legacy equipment 
(modernization). We cannot afford to bandage old airplanes as potential 
adversaries roll new ones off the assembly line. For example, the 
backbone of our bomber and tanker fleets, the B-52 and KC-135, are from 
the Eisenhower era, and our 4th generation fighters average 25 years of 
age. That is why our top three acquisition priorities remain the KC-46A 
aerial tanker, the F-35A Joint Strike Fighter, and the Long Range 
Strike Bomber (LRS-B).
    The KC-46A will begin to replace our aging tanker fleet in 2016, 
but even when the program is complete in 2028 we will have replaced 
less than half of the current tanker fleet and will still be flying 
over 200 KC-135s. Similarly, our average bomber is 32 years old. We 
need the range, speed, survivability, and punch that the LRS-B will 
provide. Tankers are the lifeblood of our joint force's ability to 
respond to crisis and contingencies, and bombers are essential to 
keeping our Air Force viable as a global force. In our fiscal year 2015 
budget submission, we have fully funded these programs.
    The F-35A is also essential to any future conflict with a high-end 
adversary. The very clear bottom line is that a 4th generation fighter 
cannot successfully compete with a 5th generation fighter in combat, 
nor can it survive and operate inside the advanced, integrated air 
defenses that some countries have today, and many more will have in the 
future. To defeat those networks, we need the capabilities the F-35A 
will bring. In response to tightening fiscal constraints, the Air Force 
has deferred four F-35As in the Future Years Defense Program (FYDP). If 
the President's projected top-line enhancements are not realized, and 
future appropriations are set at sequestration-levels, the Air Force 
may lose up to 19 total F-35As within the FYDP.
    Moving forward, we cannot afford to mortgage the future of our Air 
Force and the defense of our Nation. Recapitalization is not optional--
it is required to execute our core missions against a high-end threat 
for decades to come.
                       making every dollar count
Program Stewardship
    The Air Force and our Airmen are committed to being good stewards 
of every taxpayer dollar. One way we are doing this is by making sound 
and innovative choices to maximize combat capability within available 
resources. Recently, the Air Force announced its intent to proceed with 
the program to ensure the continued availability of the Combat Rescue 
Helicopter (CRH). The CRH contract award protects a good competitive 
price and effectively uses the $334 million Congress appropriated to 
protect the program.
    Another example of maximizing the bang out of each taxpayer buck is 
the KC-46A tanker contract. The recapitalization of the Air Force's 
tanker fleet is one of our top three priorities, and the fixed-price 
contract for 179 aircraft represents an outstanding return on 
investment for the Air Force and the American people. The program is 
currently on track in cost, schedule, and technical performance, and in 
the fiscal year 2015 PB we were able to save $0.9 billion in KC-46A 
Aircrew Training System and other KC-46A program risk adjustments based 
on successes to date. Keeping this program on a stable funding path is 
imperative to meeting our contractual obligations and ultimately to our 
Air Force's ability to meet national defense requirements.
    The Air Force remains committed to delivering space capabilities at 
a better value to the taxpayer. In cooperation with Congress and the 
office of the Secretary of Defense, we have used the Efficient Space 
Procurement strategy to drive down costs of two key satellites, Space-
Based Infrared System (SBIRS) and Advanced Extremely High Frequency 
(AEHF). Through stable research and development funding, block buys, 
and fiscal authority to smooth our spending profile combined with 
strong contracting and negotiation approaches using fixed price 
contracts and ``should cost'' reviews, the Air Force has been able to 
achieve significant savings. For satellites 5 and 6 of the AEHF 
program, these practices reduced Air Force budget requirements $1.6 
billion \1\ from the original independent cost estimate of the Cost 
Assessment and Program Evaluation office (CAPE). For SBIRS 5 and 6 
these practices have already reduced the budget $883 million \2\ from 
the original CAPE estimate and negotiations are still ongoing. Since 
our policy is to fund to the CAPE independent cost estimates, these 
savings are real dollars that are now available to reduce the pressure 
on our budget.
---------------------------------------------------------------------------
    \1\ Fiscal year 2012-fiscal year 2017 savings.
    \2\ Fiscal year 2013-fiscal year 2018 savings.
---------------------------------------------------------------------------
    Perhaps the best results are on the Evolved Expendable Launch 
Vehicle (EELV) program where we have used competition, long-term 
contracts (where there is only one provider), and good understanding of 
costs to get better deals for the government. This year's budget 
reduces the program by $1.2 billion. Combined with prior year Air Force 
reductions and savings for the National Reconnaissance Office, we have 
reduced the total program by $4.4 billion since its ``high water mark'' 
in the fiscal year 2012 budget. The Air Force remains committed to 
driving competition into the launch business and we are actively 
supporting new entrants in their bids for certification. At the same 
time we must maintain our commitment to mission assurance that has 
resulted in unprecedented success. We have had 68 successful EELV 
launches and 30 additional successful National Security Space launches 
in a row, but we know that the only launch that matters is the next 
one.
    These are just a few examples of how the Air Force is optimizing 
our allocated resources. Good stewardship of the taxpayer's dollars 
demands we look for more efficient ways to accomplish the mission as an 
inherent part of our program and budget decisionmaking process every 
year.
Energy
    To enhance mission capability and readiness, the Air Force is 
diligently managing our resources including our demand for energy and 
water. By improving the efficiency of our processes, operations, 
facilities, and equipment, the Air Force can generate cost savings and 
decrease our reliance on foreign energy sources. The Air Force has 
reduced its facility energy consumption by 20 percent since 2003 and 
has instituted a number of fuel saving initiatives, reducing the amount 
of fuel our aircraft have consumed by over 647 million gallons since 
2006. Additionally, we are investing $1.4 billion across the FYDP for 
next generation jet engine technology that promises reduced fuel 
consumption, lower maintenance costs, and helps ensure a robust 
industrial base. By instituting aircraft and installation efficiencies 
over the past 5 years, we avoided an energy bill $2.2 billion higher in 
2013 than it would have been otherwise.
Base Realignment and Closure (BRAC)
    As we make efforts to become more efficient by improving and 
sustaining our installations, we also recognize we carry infrastructure 
that is excess to our needs. The Air Force is fully involved in the 
office of the Secretary of Defense led European Infrastructure 
Consolidation efforts. Since 1990, the Air Force has decreased European 
main operating bases from 25 to 6, returning more than 480 sites to 
their respective host nations and reduced Air Force personnel in Europe 
by almost 70 percent. While we have made large reductions in base 
infrastructure overseas, and previous BRAC rounds made some progress in 
reducing U.S. infrastructure, we still spend more than $7 billion 
operating, sustaining, recapitalizing, and modernizing our physical 
plants across the Air Force each year. While our best efforts to use 
innovative programs have paid dividends, such as recapitalizing our 
housing through privatization and pursuing public-public and public-
private partnerships, we continue to spend money maintaining excess 
infrastructure that would be better spent recapitalizing and sustaining 
weapons systems, training for readiness, and investing in our Airmen's 
quality of life needs. The Air Force has limited authority under 
current public law to effectively consolidate military units or 
functions and then divest real property when no longer needed. To save 
considerable resources, we request BRAC authority in 2017.
Military Compensation
    Military compensation has risen over the last decade and has helped 
the Air Force to recruit and retain a world class force in the midst of 
an extended period of high operations tempo. To sustain the recruitment 
and retention of Airmen committed to serve the Nation, military 
compensation must remain highly competitive. However, in light of 
projected constraints on future defense spending DOD needs to slow the 
rate of growth in military compensation in order to avoid deeper 
reductions to force structure, readiness, and modernization efforts 
critical to support the warfighter and the national defense. The Air 
Force supports the military compensation recommendations and will 
reinvest the savings back into readiness to provide our Airmen with the 
necessary resources to remain the best equipped and best trained Air 
Force in the world.
                                 airmen
Innovative Force
    We are the best Air Force in the world because of our Airmen. We 
continue to attract, recruit, develop, and train Airmen with strong 
character who are honor bound, on and off-duty, by the Air Force's core 
values of Integrity First, Service Before Self, and Excellence in All 
We Do. We depend on a workforce that leads cutting-edge research, 
explores emerging technology areas, and promotes innovation across 
government, industry, and academia.
    The budgetary constraints in fiscal year 2014 and beyond force the 
Air Force to become smaller. However, as we shrink, we must continue to 
recruit and retain men and women with the right balance of skills to 
meet Air Force mission requirements, and maintain a ready force across 
the full-spectrum of operations. Attracting science, technology, 
engineering, and mathematics (STEM) talent to our civilian workforce 
has been hampered by furloughs, hiring and pay freezes, and lack of 
professional development opportunities. Despite fiscal constraints, the 
Air Force needs to continue to attract and nurture our Nation's best 
and brightest into both our military and our civilian workforces, 
because it is our innovative Airmen who continue to make our Air Force 
the best in the world.
Airmen and Family Support
    Airmen and their families are our most important resource. We are 
committed to fostering a culture of dignity and respect, and to 
ensuring an environment where all Airmen have the opportunity to excel. 
As a result, the Air Force will preserve our core services programs 
(fitness, childcare, and food services) and warfighter and family 
support programs. Unfortunately, the budget environment necessitates 
consequential reductions to morale, welfare, and recreation programs at 
U.S.-based installations to affect cost savings. We will do so in a 
manner that provides commanders as much flexibility as possible to 
respond to their individual military community needs and unique 
geographic situations.
Air Force Sexual Assault Prevention and Response
    The Air Force's mission depends on Airmen having complete trust and 
confidence in one another. Our core values of Integrity, Service and 
Excellence, define the standard. Sexual assault is absolutely 
inconsistent and incompatible with our core values, our mission, and 
our heritage. As such, our SAPR program is a priority both for ensuring 
readiness and taking care of our Airmen.
    During the last year, the Air Force has worked hard to combat 
sexual assault. We have invested in programmatic, educational, and 
resourcing efforts aimed at reinforcing a zero tolerance environment. 
Our SAPR office now reports directly to the Vice Chief of Staff of the 
Air Force. We revamped our wing and group commanders' and senior non-
commissioned officers' sexual assault response training courses, 
established full-time victim advocates with comprehensive training and 
accreditation requirements, and implemented the Defense Sexual Assault 
Incident Database to streamline data collection and reporting efforts.
    The Air Force has been DOD's leader in special victim capabilities, 
particularly with the success of the Air Force's Special Victim's 
Counsel (SVC) program. The SVC program provides victims with a 
dedicated legal advocate whose sole job is to help the victim through 
the often traumatizing legal process following an assault. So far the 
results have been exceptional. Since the program's implementation, more 
than 565 Airmen have benefited from SVC services, and in fiscal year 
2013, 92 percent of the victims reported that they were ``extremely 
satisfied'' with SVC support. Due to its success, the Secretary of 
Defense has directed all Services to stand up similar SVC programs. The 
Air Force has also established a team of 10 Special Victims' Unit 
senior trial counsels and 24 Air Force Office of Special Investigations 
agents who have received advanced education and training to work sexual 
assault cases.
    Providing a safe, respectful, and productive work environment free 
from sexual innuendo, harassment, and assault is the responsibility of 
every Airman, and the Air Force is committed to realizing this vision.
Diversity
    The Nation's demographics are rapidly changing, and the makeup of 
our Air Force must reflect and relate to the population it serves. To 
leverage the strengths of diversity throughout our Air Force, our 
leaders must develop and retain talented individuals with diverse 
backgrounds and experiences, and create inclusive environments where 
all Airmen feel valued and able to contribute to the mission. Air Force 
decisionmaking and operational capabilities are enhanced by enabling 
varied perspectives and potentially creative solutions to complex 
problems. Moreover, diversity is critical for successful international 
operations, as cross-culturally competent Airmen build partnerships and 
conduct the full range of military operations globally.
    The competition for exceptional diverse talent will remain fierce. 
To compete with other government agencies and the business sector to 
attract and recruit the Nation's finest talent, the Air Force must 
develop an accessions strategy that taps new markets of diverse, high 
performing youth. In a similar sense, the Air Force must continue 
targeted development of existing talent, and continue to promote a 
comprehensive mentorship program that trains all Airmen to view 
operational problems and opportunities through a diversity lens.
Force Management
    In fiscal year 2014 and fiscal year 2015, we will implement a 
number of force management programs designed to reduce the overall size 
of the force while maintaining our combat capability. The goal of these 
programs is to make reductions through voluntary separations and 
retirements, maximizing voluntary incentives to ensure a smooth 
transition for our Airmen. To meet current funding constraints, 
significant reductions in total end strength over the FYDP are 
required, and may impact up to 25,000 Airmen. These reductions are 
driven largely by the divestiture of associated force structure and 
weapons systems, headquarters realignment, and a rebalancing of 
aircrew-to-cockpit ratios in a post-Afghanistan environment. 
Realignment efforts will also reduce Headquarters Air Force funding by 
20 percent immediately and combatant command headquarters funding 
through a 4-percent annual reduction reaching 20 percent by fiscal year 
2019. We have developed a plan to retain high performing Airmen so that 
we can accomplish the mission our Nation expects.
                          america's air force
A Global, Ready Force
    Over the past 35 years, the Air Force has been called upon more 
than 150 times to conduct combat or humanitarian operations in more 
than 50 countries around the world. It is impossible to predict when 
America will call on its Air Force next. It is our job to be ready.
    The evolving complexity and potentially quick onset of warfare 
means that future conflicts will be a ``come as you are'' fight. There 
will be precious little time to ``spin up'' units that are unready to 
carry out their designated missions. Currently, the combatant 
commanders' requirement for fighter squadrons essentially equals the 
number of squadrons in the Air Force, and the requirement for bomber 
aircraft and ISR platforms is much greater than the number currently in 
the inventory. In simple economic terms, our supply across Air Force 
capabilities is less than or equal to the demand. Tiered readiness is 
not an option; your Air Force is either ready or it is not.
Air Force Core Missions
    Airmen bring five interdependent and integrated core missions to 
the Nation's military portfolio. These core missions have endured since 
President Truman originally assigned airpower roles and missions to the 
Air Force in 1947. While our sister Services operate efficiently within 
the air, space, and cyber domains, the Air Force is the only Service 
that provides an integrated capability on a worldwide scale. Although 
the way we operate will constantly evolve, the Air Force will continue 
to perform these missions so that our military can respond quickly and 
appropriately to unpredictable threats and challenges.
            Air and Space Superiority . . . Freedom From Attack and the 
                    Freedom to Attack
    Air and space superiority has long provided our Nation an 
asymmetric advantage. The Air Force's fiscal year 2015 budget request 
focuses on the capabilities necessary to ensure we can provide the 
theater-wide air and space superiority our combatant commanders 
require.
    Since April 1953, roughly 7 million American servicemembers have 
deployed to combat and contingency operations all over the world. 
Thousands of them have died in combat. Not a single one was killed by 
bombs from an enemy aircraft. Air superiority is a fundamental pillar 
of airpower and a prerequisite to the American way of modern, joint 
warfare--we cannot fail. In calendar year 2013 (CY13), the Air Force 
flew over 27,000 air superiority sorties, accounting for over 37,000 
flight hours. These sorties directly supported critical missions, such 
as homeland air sovereignty with Operation Noble Eagle and the 
protection of the President of the United States. Additionally, the Air 
Force flew numerous Theater Security Posture missions in the Central 
Command and Pacific Command areas of responsibility.
    To ensure we can provide unmatched air superiority capability and 
manage the risk associated with combat force reductions and emerging 
advanced technologies, the Air Force is modernizing munitions and 
platforms. In fiscal year 2015, the Air Force continues to invest in 
the AIM-120D and AIM-9X air-to-air missiles and develop new munitions 
to address future threats. Upgrades to the F-22 program and the 
procurement of the F-35A will also provide required capabilities to 
help ensure freedom of movement in contested environments. Continued 
upgrades to 4th generation platforms, such as the Joint Air-to-Surface 
Standoff Missile Extended Range for the F-16, are also necessary to 
ensure sustained viability in the future. These added capabilities will 
ensure the Air Force is prepared to survive today and meet tomorrow's 
challenges for control of the air.
    America's freedom to operate effectively across the spectrum of 
conflict also includes its ability to exploit space. Every day joint, 
interagency, and coalition forces depend on Air Force space operations 
to perform their missions on every continent, in the air, on the land, 
and at sea. In CY13, the Air Force launched 8 National Security Space 
(NSS) missions totaling 68 consecutive successful Evolved Expendable 
Launch Vehicle launches to date and 98 consecutive successful NSS 
missions. In fiscal year 2015, the Air Force will acquire three launch 
services and plans to launch 10 NSS missions. The Air Force will also 
continue the evaluation and certification of potential new entrants.
    The space environment is more congested, contested, and competitive 
than ever, requiring the Air Force to focus on Space Situational 
Awareness (SSA). Our SSA modernization efforts include: moving forward 
with acquisition of the Space Fence (near-Earth SSA capability); 
defining the Space-Based Space Surveillance follow-on system; fielding 
the Geosynchronous Space Situational Awareness Program; continuing work 
with our Australian partners to field an advanced space surveillance 
telescope (deep-space SSA capabilities); and fielding the Joint Space 
Operations Center mission system (SSA command and control and data 
integration and exploitation).
    The Air Force remains fully committed to the long-term goal of 
fostering international relationships and supporting ongoing security 
efforts with partner nations around the globe. Teaming with allies and 
partners not only helps cost and risk-sharing, it also increases 
capability and capacity to support contingency operations. Space is an 
area in which we have made significant progress in building 
partnerships.
    Underpinning all of these capabilities is our ability to 
effectively operate in and through cyberspace. The advantages of 
effective cyberspace operations in speed, ubiquity, access, stealth, 
surprise, real-time battlespace awareness and information exchange, and 
command and control are manifest in every Air Force mission area and 
nearly every mission area has come to depend on them. Global strike; 
fused intelligence, surveillance, and reconnaissance; force and 
personnel movement; telemedicine; global logistics; financial systems; 
joint aerial network linkages; space control; remotely piloted aircraft 
and vehicle command and control; target deconfliction; fires 
coordination; and even aspects of national strategic (including 
nuclear) command and control, rely on cyberspace superiority. Despite 
the strategic risk this dependence introduces, the advantages to those 
mission areas are too great to forego, so the Air Force must continue 
to lead and leverage the advantages of cyberspace superiority.
            Intelligence, Surveillance, and Reconnaissance . . . 
                    Delivering Decision Advantage
    Air Force globally integrated ISR provides commanders at every 
level with the knowledge they need to prevent strategic surprise, make 
decisions, command forces, and employ weapons. Our ISR Airmen identify 
and assess adversary targets and vulnerabilities from hideouts to 
bunkers to mobile launchers with greater accuracy than ever seen in the 
history of warfare. In 2013 alone, Airmen flew over 27,000 ISR 
missions, enabled the removal of 1,500 enemy combatants from the fight, 
provided critical adversary awareness and targeting intelligence to 
U.S. and coalition forces in over 350 troops-in-contact engagements, 
enhanced battlespace awareness through 630,000 hours of sustained 
overwatch of tactical forces and communication lines, and identified 
over 350 weapons caches and explosive devices that would have otherwise 
targeted American and partner forces. ISR reduces uncertainty about our 
adversaries and their capabilities, strengthens deterrence, prompts 
adversaries to act more cautiously, provides intelligence that allows 
commanders a decisionmaking advantage, and delivers real-time 
information on which troops rely to fight effectively and win.
    In recent years, the development of Air Force ISR capabilities has 
focused mainly on meeting the needs of permissive combat environments. 
In more contested future environments, gaining and maintaining an ISR 
advantage will become increasingly difficult and even more important. 
Therefore, the Air Force will focus primarily on enhancing ISR 
capabilities for operations in contested environments. Accomplishing 
this will require updating the current mix of ISR assets, while also 
giving significant and sustained attention to modernizing Air Force ISR 
systems, capabilities, and analytical capacity.
            Rapid Global Mobility . . . Delivery on Demand
    The Air Force's rapid global mobility capability is truly unique. 
There is no other force in the world that would have the confidence to 
place its fighting men and women at the end of an 8,000 mile logistical 
train. The fact that we are able to reliably supply a military force of 
100,000 \3\ troops in a landlocked country half a world away during an 
active fight is simply amazing.
---------------------------------------------------------------------------
    \3\ At their peak, U.S. military forces in Afghanistan consisted of 
100,000 military members and over 112,000 contractors. Source: CRS 2011 
report ``DOD Contractors in Afghanistan and Iraq''.
---------------------------------------------------------------------------
    On any given day, Airmen deliver critical personnel and cargo and 
provide airdrop of time-sensitive supplies, food, and ammunition on a 
global scale. Averaging one take-off or landing every two minutes, 
every day of the year, America's mobility fleet provides a capability 
unmatched by any air force across the globe. Whether it is sustaining 
the warfighter in any environment or delivering hope with humanitarian 
assistance, our Airmen ensure that the whole of government and 
international partners are strengthened with this unique capability to 
get assets to the fight quickly, remain in the fight, and return home 
safely.
    In CY13, Airmen flew 26,000 airlift missions, and over the course 
of 345 airdrops, the Air Force dropped 11 million pounds of combat-
enabling sustainment to coalition forces on the ground in Afghanistan. 
As the linchpin to power projection at intercontinental distances, Air 
Force tanker crews flew 31,700 missions and aeromedical evacuation 
crews airlifted 5,163 wounded Soldiers, Sailors, Airmen, Marines, and 
injured civilians around the globe. Since 9/11, America's tanker fleet 
has offloaded over 2.69 billion gallons of fuel to joint and coalition 
air forces, and the Air Force has logged an astounding 194,300 patient 
movements.
    To ensure global reach, the Air Force will continue to protect this 
vital mission by recapitalizing our aging aerial tanker fleet with the 
KC-46A, modernizing the inter-theater airlift fleet, and continue 
supporting the C-130J multiyear procurement contract that will extend 
beyond fiscal year 2018.
            Global Strike . . . Any Target, Any Time
    The Air Force's nuclear and conventional precision strike forces 
can credibly threaten and effectively hold any target on the planet at 
risk and, if necessary, disable or destroy it promptly--even from bases 
in the continental United States. These forces possess the unique 
ability to achieve tactical, operational, and strategic effects all in 
the course of a single combat mission. Whether employed from forward 
bases or enabled by in-flight refueling, global strike missions include 
a wide range of crisis response and escalation control options, such as 
providing close air support to troops at risk, interdicting enemy 
forces, supporting special operations forces, and targeting an 
adversary's vital centers. These capabilities, unmatched by any other 
Nation's air force, will be of growing importance as America rebalances 
its force structure and faces potential adversaries that are 
modernizing their militaries to deny access to our forces.
    In CY13, the Air Force flew 21,785 close air support sorties in 
Operation Enduring Freedom, including over 1,400 sorties with at least 
one weapons release. In the rebalance to the Pacific, the Air Force 
rotated five fighter squadrons and three bomber squadrons to forward 
locations in Guam, Japan, and Korea to project power and reassure our 
regional partners and flew over 43,000 missions bolstering theater 
security and stability. We continue to invest in the Pacific theater to 
ensure viability of our Air Force bases through a combination of 
hardening, dispersal, and active defenses.
    The Air Force will focus future efforts on modernizing global 
strike assets to ensure that American forces are prepared to act when, 
where, and how they are needed. The multirole F-35A is the centerpiece 
of the Air Force's future precision attack capability, designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
Procuring the F-35A aircraft remains a top priority, and we plan to 
achieve initial operational capability in 2016.
    The backbone of America's nuclear deterrence is the ICBM fleet. To 
ensure the ICBM's viability through 2030, the Air Force will invest in 
updated warhead fuzes, as well as beginning guidance and propulsion 
modernization programs and modernization of launch facilities and 
communication centers. While the LRS-B is the bomber of the future, the 
Air Force will continue to modernize current B-2 and B-52 aircraft to 
keep these nuclear capabilities viable. The Air Force will ensure we 
are able to maintain the flexibility to deploy nuclear forces in a 
manner that best serves our national security interests.
            Command and Control . . . Total Flexibility
    Air Force command and control systems provide commanders the 
ability to conduct highly coordinated joint operations on an unequaled 
scale. Getting the right information to the right person at the right 
time is essential to the American way of war. The capability to deliver 
airpower is also intimately dependent on the ability to operate 
effectively in cyberspace, a domain in and through which we conduct all 
of our core missions and which is critical to our command and control. 
Operations in cyberspace magnify military effects by increasing the 
efficiency and effectiveness of air and space operations and by 
integrating capabilities across all domains. However, the Nation's 
advantage in command and control is under constant attack with new and 
more capable threats emerging daily in the areas of cyber weapons, 
anti-satellite systems, and electromagnetic jamming. Our adversaries 
are making advances by electronically linking their own combat 
capabilities, which create new military challenges.
    To counter these challenges, the Air Force will prioritize 
development and fielding of advanced command and control systems that 
are highly capable, reliable, resilient, and interoperable, while 
retaining the minimum command and control capacity to meet national 
defense requirements. More importantly, we will recruit and train 
innovative Airmen with the expertise to build, manage, secure, and 
advance our complex and diverse command and control systems.
                               conclusion
    Ultimately, our job is to fight and win the Nation's wars. While, 
the Air Force's fiscal year 2015 budget submission remains strategy-
based, it is also shaped by the fiscal environment. At the levels 
requested in the President's budget, the Air Force protects the 
capabilities required to prevail in the more demanding operational 
environment in years to come. By making tough choices today we set 
ourselves on a path to produce a ready and modernized Air Force that is 
smaller, yet still lethal against potential adversaries in the future. 
Regardless of the strategic tradeoffs made, at sequestration-levels it 
is not possible to budget for an Air Force that is capable of 
simultaneously performing all of the missions our Nation expects. We 
would end up with a force that is less ready, less capable, less viable 
and unable to fully execute the defense strategy. While we would still 
have the world's finest Air Force able to deter adversaries, we would 
also expect to suffer greater losses in scenarios against more modern 
threats.
    Airpower . . . because without it, you lose!

    Senator Durbin. Thanks, Madam Secretary.
    I would say, to the remaining members of the panel, your 
written statements will be part of the record. If you would 
like to highlight it for a moment or two, we would really like 
to get to questions. We have a lot of them.
    General Welsh, you are first up.
STATEMENT OF GENERAL MARK A. WELSH, III, CHIEF OF STAFF
    General Welsh. Thank you, Mr. Chairman, Vice Chairman 
Cochran, Senators, thank you so much. It is always an honor to 
be here. And I will keep this very brief, in accordance with 
your desire, sir.
    Let me just say that your Air Force is the finest in the 
world, and we need to keep it that way. We built this budget to 
ensure that Air Force combat power remains unequaled, but that 
does not mean that it will remain unaffected.
    Every major decision reflected in our fiscal year 2015 
budget proposal hurts. There are simply no easy choices left. 
Every option reduces capability that our combatant commanders 
would love to have and believe they need, and we simply cannot 
ignore the fact that the law as currently written returns us to 
the sequestered funding levels the Secretary mentioned in 
fiscal year 2016. And to prepare for that, we must cut people 
and force structure now to create a balanced Air Force that we 
can afford to train and operate in fiscal year 2016 and beyond.
    We also have to look at where must we recapitalize to be 
viable against a threat 10 years from now, where can we 
modernize with the remaining forces, and what is the impact 
that has on everything else.
    That summarizes everything we have done in the budget, sir, 
and we look forward to your questions.
    Senator Durbin. General Grass.
STATEMENT OF GENERAL FRANK J. GRASS, CHIEF, NATIONAL 
            GUARD BUREAU
    General Grass. Chairman Durbin, Vice Chairman Cochran, 
members of the subcommittee, it is an honor and a privilege to 
be here today.
    First, I want to share my gratitude for the great working 
relationship we have with the Air Force today. The relationship 
comes directly from the leadership of General Welsh and 
Secretary James.
    I want to start by saying that the National Guard does 
three things well: Fighting our Nation's wars, defending the 
homeland, and building partnership capacity overseas.
    These missions have come to us both for the Army and Air 
Guard, and we support the COCOMs (combatant commands) in every 
one of those missions. We want to maintain the same types of 
equipment, the same types of training and structure that the 
Air Force has today.
    Our equipment training structure and unique dual skills 
enable us to provide a cost-effective force that furthers our 
national security. During the past 12 years, we have deployed 
Guardsmen overseas 760,000 times. Domestically, these soldiers 
and airmen responded to emergencies in all 10 FEMA (Federal 
Emergency Management Agency) regions during fiscal year 2013.
    Today, the soldier and airmen of Washington National Guard 
are demonstrating that capability with over 140 soldiers and 
airmen deployed around the world, and over 232 responding to 
the tragic mudslides in their States, assisted by the State of 
Colorado.
    Fiscal challenges will continue to shape us in the future. 
I know that the Budget Control Act and sequestration is the 
law, so we are looking to the future to figure out what 
capabilities the National Guard will need both for the 
Governors as well as overseas.
    One of the areas we are looking at in very great detail 
with the Air Force and the Army is looking at cyber, and we 
feel that cyber is an area for the National Guard to look into 
in the future.
    Sir, I will defer my time to my director of the Air 
National Guard, General Clarke.
    Senator Durbin. General Clarke, if you would like to 
summarize your remarks, please?
STATEMENT OF LIEUTENANT GENERAL STANLEY E. CLARKE, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Clarke. Chairman and Vice Chairman, thank you for 
the opportunity to testify. I will parallel what General Grass 
just said, and also the Secretary and Chief of Staff, in that 
the total force is a healthy total force. I have been on the 
job for a year now. I have had a chance to observe it at many 
levels here in Washington, but more importantly, out in the 
field and watch the amazing stories of people as they return 
home from their opportunities to serve overseas, side-by-side 
with regular Air Force, if you will, airmen and members of Air 
Force Reserve, a seamless total force.
    Credit for that goes to the United States Air Force senior 
leadership, both current and previous, who designed the Air 
Force the way it is. And we operate in a way that you can't 
tell the difference between the airmen and what they do. Behind 
that is the fact that we have challenges. We want to continue 
to modernize, recap on par with the regular Air Force. We plan 
to do that in the 2015 POM (Program Objective Memorandum) and 
beyond. But the opportunity to continue to serve operationally 
side-by-side with regular airmen of the Air Force and the Air 
Force Reserve is paramount to what we do.

                           PREPARED STATEMENT

    So our balanced strategy going forward in the future is to 
first make sure that we can be the first choice for homeland 
operations. We will continue to be a proven choice for 
warfighting operations. And we will be an enduring choice for 
security cooperation.
    Thank you for the opportunity.
    [The statement follows:]
     Prepared Statement of Lieutenant General Stanley E. Clarke III
                            opening remarks
    Chairman Durbin, Vice Chairman Cochran, distinguished members of 
the subcommittee: I am honored to appear before you today representing 
the men and women of the Air National Guard.
    The Air National Guard, as both a reserve component of the U.S. Air 
Force and the air component of the National Guard, has seen both 
successes and challenges this past year. Our successes can be 
attributed to the hard work of the men and women of the Air Guard, who 
continue to exhibit the professionalism and dedication upon which the 
Air National Guard is built. The challenges of sexual assault and 
suicide prevention are being addressed and will eventually lead to a 
stronger Air National Guard; however, rapidly declining and shifting 
funding levels are having primary and secondary affects upon the future 
of the Air Force and the Air National Guard.
    This presentation provides an overview of the past year, focusing 
primarily on the Air National Guard's contribution to the national 
defense strategy, followed by a look into the future, including areas 
where we solicit your continued support.
    The National Guard, including the Air National Guard, is unique in 
its contribution to the three pillars of the defense strategy--Protect 
the Homeland, Project Power and Win Decisively, and Build Security 
Globally. The inherent characteristics of the National Guard are 
foundational for its responsibilities to local, State, territorial, and 
Federal authorities. Its cost-effective citizen Airmen and Soldier 
construct, underpin the unique qualities the National Guard brings to 
the table with its Balanced Strategy--The First Choice for Homeland 
Operations, A Proven Choice for the Warfight, and An Enduring Choice 
for Security Cooperation.
                the first choice for homeland operations
    The National Guard has always been the State and territorial 
Governors' first choice in disaster response. This is equally true of 
both the Army National Guard and the Air National Guard. The Air 
National Guard's contribution is founded in its dual-use of airpower 
capabilities, for while Guard Airmen are quite capable of helping with 
such labor-intense tasks as filling sandbags, they are more likely to 
leverage the unique contributions of airpower and our Guard Airmen's 
extensive training for tasks such as airlifting essential supplies to 
the disaster area; setting up and operating emergency communications 
centers; transporting, erecting, and manning emergency medical 
facilities; or providing aircraft and/or satellite imagery and analysis 
essential for effective consequence management. The following are 
examples from last year:
      Boston Marathon Bombing (April 2013).--The Massachusetts Air 
        National Guard transported, set up, and manned an emergency 
        communications center, while Air Guard Security Forces cordoned 
        the crime scene and assisted the Massachusetts Transit Police 
        in securing subway stations with armed and professionally 
        trained Guard Airmen from the local community. These Guard 
        Airmen provided order and security to a chaotic event, freeing 
        local authorities to concentrate on securing the area and 
        finding the bombing suspects. Additionally, Air Guard Religious 
        Support Teams provided counseling and comfort to both private 
        citizens and first responders.
      California Wildfires (August 2013).--Air Guard C-130s specially 
        modified with Modular Aerial Fire Fighting Systems dropped over 
        211,000 gallons of fire suppressant, and the California Air 
        National Guard's 234th Intelligence Squadron flew MQ-1 Predator 
        remotely piloted aircraft over the fire area providing real-
        time, full-motion video and data analysis that was used to help 
        direct and plan firefighting efforts.
      Southwest Border Operations.--The Arkansas Air National Guard's 
        123rd Intelligence Squadron provided analysis of full-motion 
        video from Air Guard RC-26 aircraft supporting U.S. Customs & 
        Border Protection, Texas Rangers, and other civil authorities 
        protecting our Southwest borders. This joint effort led to the 
        seizure of over 53,000 lbs. of marijuana, 200+ lbs. of cocaine, 
        and over 30,000 illegal individual border crossings.
      Eagle Vision.--Alabama, California, Hawaii, and South Carolina 
        Air National Guard units collected and analyzed unclassified 
        commercial satellite images providing near real-time assistance 
        to emergency management agencies coordinating firefighting, 
        flood, hurricane, tornado, and other relief efforts throughout 
        the western U.S. and overseas including Typhoon Haiyan.
                    a proven choice for the warfight
    National Guard Airmen have participated in every American conflict 
since the Mexican border emergency of 1916, but when the Guard members 
of the Alabama Air National Guard's 117th Tactical Reconnaissance Wing 
volunteered in August 1990 to deploy to Bahrain in support of support 
Operation Desert Shield, little did they know they were on the vanguard 
of redefining the Air National Guard. Since then, the Air National 
Guard has evolved from a strategic reserve, called upon primarily 
during national emergencies, to an essential partner in the daily 
operations of the Total Air Force in all five core missions: Air and 
space superiority; intelligence, surveillance, and reconnaissance; 
rapid global mobility; global strike, and command and control.
    Last year, over 39,895 Air National Guard men and women deployed to 
48 countries as part of the Total Air Force defense of U.S. national 
security interests. Additionally, Guard Airmen defended the skies over 
our homeland and supported their deployed brethren through U.S.-based 
``reach-back'' capabilities including remotely piloted aircraft 
operations and intelligence analysis.
              an enduring choice for security cooperation
    The men and women of our Air National Guard also contribute to the 
third pillar of the national defense strategy--Building Security 
Globally. Over the past 20 years, the National Guard has evolved into 
an in-demand, low cost, high impact security cooperation partner of 
choice for the Department of Defense with participation in such 
activities as the State Partnership Program, Foreign Military Sales 
training, and training exercises that assist in shaping our 
international environment and build partner capacity.
    State Partnership Program. The National Guard State Partnership 
Program is Department of Defense program executed at the State level 
using both Army and Air National Guard expertise. The program is based 
upon each Combatant Commanders' security cooperation objectives for the 
individual countries within their areas of responsibility. Today, 49 
States, 2 territories, and the District of Columbia are partnered with 
74 countries around the world. The specific objectives of each country 
program are a joint decision between the Combatant Commander, the 
partner nation, and the State National Guard; however, in general, the 
National Guard provides a consistent and enduring relationship with the 
partner nation, reinforcing deterrence, building capacity of U.S. and 
partner countries for internal and external defense, and strengthening 
cooperation between countries. The program partners engage in training, 
assessments, and exercises in a broad range of security cooperation 
activities to include host nation homeland defense, disaster response, 
crisis management, interagency cooperation, and border/port/airport 
security.
    The Soldiers and Airmen of the National Guard are uniquely 
qualified for this program for a number of reasons. First, because 
Guard members often spend their entire military careers in the same 
unit or State, they are able to build long-term personal relationships 
with their partner country counterparts and provide program continuity. 
Second, the civilian and military skills of our citizen Soldiers and 
Airmen afford training opportunities outside the usual military defense 
training. For example, Air Guard members are also experienced in air 
security, constabulary operations, crisis management, disaster 
response, and a myriad of other civil support missions. Finally, Guard 
members exemplify civil-military relations and the role of the military 
in a democracy. Our citizen Soldiers and Airmen offer strong examples 
of a co-dependent, supportive relationship between the Nation's 
political structures, civil society, and the military.
  --Last year Guard Airmen worked 7,054 man-days, on 42 partnership 
        engagements, in 13 countries including Uganda, Morocco, Jordan, 
        Poland, India, South Korea, Thailand, Indonesia, Trinidad, 
        Uruguay, Mexico, Honduras, and Colombia. Men and women of the 
        Air National Guard helped our Allies and partners improve their 
        flying skills, equipment maintenance, aerial port operations, 
        imagery analysis, and search and rescue techniques.
  --The partnership between the State of South Dakota and Suriname, 
        which began in 2006, is a great example of what our Air Guard 
        men and women bring to the table in security cooperation. In 
        2013, led by one of our outstanding Air Guard chief master 
        sergeants, the South Dakota Army and Air National Guard women 
        participated in a ``Women in the Military'' workshop with 
        members of the Surinamese armed force. The goal was to promote 
        awareness, equality, and future opportunities for women in the 
        military. As the partnership moves forward, they are broadening 
        and deepening leadership and development while bolstering new 
        opportunities for training and learning.
    Foreign Military Training. In addition to the State Partnership 
Program, Air Guard members conduct flight training for foreign military 
aircrews through both formal schools at U.S. bases and Air Guard 
visits/exercises overseas. Guard Airmen trained 124 aircrew members 
last year from Lithuania, Norway, The Netherlands, Sweden, Iraq, 
Singapore, Denmark, Australia, Romania, India, Japan, Belgium, and 
Germany in C-130, F-16, and C-17 flight operations and maintenance.
                   sustaining the air national guard
    The men and women of our Air National Guard have accomplished great 
things since 1990 and Operation Desert Shield. Their transformation 
from a cold war-era surge force to a 21st century force capable of 
maintaining a long-term rotational combat operations tempo has been 
unprecedented and would not have been possible without the support of 
the Air Force and Congress. We must ensure this capability is not lost; 
that we do not condemn the next generation of Airmen to relearn the 
lessons of past post-war drawdowns. We must sustain the Air National 
Guard capabilities within the National Guard's Balanced Strategy 
through the dedicated efforts of each Guard Airmen in concert with the 
U.S. Air Force, the Department of Defense, and Congress.
                               personnel
    Our Airmen are our most valuable and treasured assets upon which 
our success depends. Our Airmen, together with their families and 
employers, remain our first priority, especially in times of turmoil.
    Recruiting and Retention. Some predicted that the move from a 
strategic reserve to an operational reserve would adversely affect our 
ability to recruit and retain quality people; however, the Air National 
Guard exceeded its authorized fiscal year 2013 end-strength of 105,700 
by eight Airmen (105,708) through judicious personnel management. Last 
year, however, retention was disappointing as losses exceeded 
expectations by 15 percent (planned 9,072, actual 10,437). According to 
exit interviews, the greatest challenge to retention was not repeated 
mobilizations but mission turmoil, i.e., the uncertainty caused when a 
unit loses its mission without a clear plan for the future. We have 
found the most effective counter to this challenge is the personal 
touch--making a concerted effort to ensure every member of the Guard 
family knows that we appreciate and value their contributions, and that 
the Air National Guard and U.S. Air Force leadership are working 
together to backfill their unit with a new mission.
    To compensate for the unplanned increase in retirements and other 
departures, Air Guard Recruiters exceeded their recruiting goals by 4.5 
percent, including an increase of 8 percent of prior-service personnel. 
But, as we move forward, the Air National Guard faces both significant 
opportunities and some challenges with its recruiting program. The 
opportunities come from the drawdown of Regular Air Force and other 
Services' manpower. In fiscal year 2015, the Regular Air Force end-
strength will decline by approximately 16,700 Airmen. The Air Force 
will rely on a bevy of force management programs that include 
incentivizing early departure from active duty and releasing AFROTC 
cadets from their commitments. The Air National Guard is working with 
the Air Force to capitalize on these programs for possible Air Guard 
accessions. The challenge for the Air National Guard is that it too 
will be reducing its end-strength to meet budget targets. If the Air 
Guard is to help the Nation sustain combat capability and retain access 
to the highly-trained personnel in which our Nation has made 
significant financial investment, the Air National Guard will need some 
flexibility in end-strength, at least temporarily.
    Sexual Assault Prevention and Response Program (SAPR). Every sexual 
assault incident taints our Core Values and destroys unit morale--it 
must be eliminated. The Air National Guard's SAPR Program is composed 
of five parts: prevention, advocacy, investigation, accountability, and 
assessment.
  --Prevention.--Acknowledging the problem and educating everyone in 
        the organization of the problem is the first step. In January 
        2010, the Air Force launched an extensive education program to 
        ensure every Airman understands the problem and knows what is 
        expected of him or her as Air National Guard professionals.
  --Advocacy.--In January 2013, the Air National Guard implemented a 
        Special Victim's Counsel Program. This Program provides advice 
        to victims on the investigative and military justice processes, 
        victims' rights protections, and empowers victims by removing 
        barriers to their full participation in the military justice 
        process.
  --Investigation.--The Air Force Office of Special Investigation 
        (AFOSI) is charged with investigating all sexual assaults that 
        occur in a Federal or Title 10 status regardless of the 
        severity of the allegations. For incidents that occur in non-
        Federalized duty status, Air Guard commanders must report the 
        assault to the local law enforcement agency. In addition, the 
        National Guard has opened an Office of Complex Investigations 
        composed of Guard members with previous criminal investigation 
        training and special sexual assault investigation training, to 
        step-in when local law enforcement agencies decline to 
        investigate.
  --Accountability.--In July, the Air Force established minimum 
        administrative discharge procedures for any Airman (officer or 
        enlisted) who commits or attempts to commit a sexual assault or 
        engages in an unprofessional relationship while serving in 
        positions of special trust, e.g., recruiters, commanders, or 
        training officers and non-commissioned officers.
  --Assessment.--The Department of Defense has established common 
        metrics and reporting procedures to collect and track 
        statistics on sexual assault. These tools will provide the 
        feedback necessary for early identification of adverse trends 
        and areas for additional action.
    Suicide Prevention. The Air National Guard continues to struggle 
with the tragedy of suicide within its ranks. In 2013, the Air Guard 
experienced 13 suicides, down from 22 in 2012, but still well above our 
ultimate goal of zero. There is tangible evidence that the addition of 
Wing Directors of Psychological Health in 2010 and implementation of 
the Air Force Suicide Prevention Program have had positive impacts; 
however, our team of medical personnel, chaplains, Airmen & Family 
Readiness Program Managers, safety personnel, Transition Assistance 
Advisors, and Military OneSource counselors, together with Air Guard 
supervisors and leaders at all levels, continue to address this 
important issue.
                  fiscal year 2015 president's budget
    Fiscal uncertainty is nothing new to the Air Guard, but this year, 
with the Budget Control Act, Continuing Resolution, Sequestration, and 
the Bipartisan Budget Act, it felt like we were stuck in ``stop-n-go'' 
traffic. The resulting cash flow challenges, Government shutdown, and 
furloughs damaged morale and delayed Weapon System Sustainment 
programs, but the Air Guard was able to maintain its flying training 
schedule, meet operational commitments, and mitigate the impact upon 
its readiness.
    The President's fiscal year 2015 budget increases the number of Air 
National Guard F-16 fighter wings, adds eight KC-135 aerial refueling 
tanker aircraft, and eight C-130J tactical airlift aircraft to the Air 
Guard inventory. The budget proposal, however, reduces Air National 
Guard end strength by 400 personnel in 2015 and retires 27 F-15C 
Eagles, the entire fleet of A-10 Warthog fighter aircraft, and six E-8 
Joint Surveillance and Target Attack Radar System (J-STARS) aircraft. 
While the Bipartisan Budget Act provided welcomed relief, the steep 
glideslope of the defense budget combined with increasing personnel and 
equipment acquisition costs is forcing the U.S. Air Force to make very 
difficult tradeoffs between capability, capacity, and readiness.
    No one wants to give up aircraft or people, but in order to ensure 
we have the best Air Force ready to defend this Nation at home and 
abroad within fiscal constraints, tough choices must be made. The Air 
National Guard worked closely with the Air Force leadership to mitigate 
the impact upon our Guard Airmen and develop a budget that complies 
with the Bipartisan Budget Act, lays the ground work to restoring Air 
Force readiness while preparing to meet future national security 
challenges, and ensures the Air National Guard remains a combat ready 
operational force.
    Equipment. Secretary of the Air Force Deborah Lee James explained 
the Air Force strategy in building the fiscal year 2015 budget, ``we 
attempted to strike the delicate balance of a ready force today and a 
modern force tomorrow, while working to ensure the world's best Air 
Force is the most capable at the lowest possible cost to the 
taxpayer.'' The Air Force is sacrificing modernization of equipment 
(upgrading current equipment) and divesting older equipment to acquire 
the capabilities needed to defend against future challenges to U.S. 
national security interests. The ANG, as the operator of much of that 
older or legacy equipment, has a slightly different challenge: we must 
make sure the older equipment lasts long enough to be traded in; not 
only lasts, but is capable of successfully accomplishing the mission if 
called upon in the intervening years. The Air Guard is not looking to 
make a Cadillac out of our old Fords, but we simply want to make sure 
our old Fords are up to the tasks of responding to international and 
domestic emergencies. For example, there are currently 139 H-model C-
130s in the ANG inventory that do not have the air traffic control 
systems required to operate in much of U.S. and European airspace by 
2020. If we do nothing, these aircraft will sit on the ramp, 
essentially useless, when there is an emergency requiring rapid 
airlift.
    Military Construction (MILCON) Projects. The Air National Guard 
budget proposal for fiscal year 2015 includes $94,600,000 for military 
construction projects. The Air Guard gave priority to MILCON projects 
supporting new missions and Air Force directed mission re-alignments; 
in fact, all the major MILCON projects in the fiscal year 2015 budget, 
$78.6 million, support new missions. While this policy has caused 
current missions to suffer, the Air Guard is working to address 
functional space deficiencies by consolidating functions and 
recapitalizing aging infrastructure, especially those with safety 
deficiencies.
    National Guard & Reserve Equipment Account (NGREA). NGREA funding 
is supporting Air National Guard force structure management and 
domestic capability response. The program begins at the unit level as 
operators from each weapon system meet to identify weapon system 
requirements to improve the Air National Guard's capability to respond 
to Combatant Commanders' needs. The Air National Guard fiscal year 2014 
NGREA funding strategy directed 70 percent towards modernization 
projects on legacy major weapon systems and 30 percent towards 
improving domestic response capabilities.
building tomorrow's air national guard--four pillars of the total force
    The U.S. is unique in its ability monitor world events and to shape 
those events through global power projection. This ability is dependent 
upon airpower and its inherent domains of air, space, and cyber. 
Whether showing resolve by flying through self-proclaimed controlled 
airspace, or supporting friends with reconnaissance and surveillance of 
potential enemy movements, or delivering critical relief supplies to 
disaster areas, our Nation requires an Air Force that is ready now to 
go anywhere and succeed at whatever is asked of it. We must ensure our 
Air Force does not fall victim to post-war apathy even as it struggles 
with the near-term challenges of sustaining readiness against declining 
budgets, weighed against the need to continually improve the 
capabilities to provide Global Vigilance, Global Reach, and Global 
Power. To face these challenges, I believe the Total Air Force must 
continue to invest and focus its efforts on what I refer to as the Four 
Pillars of the Total Force--Standards; Inspections; Operational 
Engagements; and Resources.
    The men and women of the Total Air Force must continue to maintain 
the highest personal and professional standards centered on our Core 
Values: Integrity First, Service Before Self; and Excellence In All We 
Do. Standards are not simply the rules by which we do our jobs, but how 
we act everyday--the pride with which we wear our uniforms, the way we 
treat others. The men and women in the U.S. armed services must be held 
to a higher standard than our fellow citizens because the trust our 
Nation places upon us is considerably greater. It is our duty to 
sustain that trust by maintaining higher personal and professional 
standards, on and off duty. Put simply: We must do the right thing all 
the time.
    Inspections, the second of Four Pillars of the Total Force, are 
critical to Total Air Force readiness. Inspections are designed to 
measure how well we perform our missions. They improve teamwork and 
unit cohesion. They allow us to measure ourselves and provide the 
feedback necessary for constant improvement. Inspections are also an 
opportunity to evaluate the rules, processes, and procedures we use to 
accomplish our missions. Finally, by ensuring all components of the 
Total Air Force use common language and procedures, inspections are the 
link between Standards and the third element of the four pillars: 
Operational Engagements.
    All three components of the Total Air Force must continue to 
participate in Operational Engagements, be they exercises, routine 
deployments, or crisis responses. Operational Engagements help us to 
ensure the three air components continue to operate as One Air Force--
ensuring we all speak the same language, maintain the same standards, 
and operate with the same procedures. Total Air Force Operational 
Engagements alone are not enough; however, we must continue to hone our 
capabilities to operate with our sister services, allies, and friendly 
forces. Finally, ``Operational Engagements'' are a mindset. It is 
continuing to think as the warriors we have become. It is the 
realization that every time we go to work, we are preparing ourselves 
and our units to successfully answer our Nation's call.
    Resources, the fourth Pillar, are fundamental in everything we do. 
We must have the necessary Resources to succeed, be it funding, 
manpower, equipment, or spare parts. While others may be responsible 
for appropriating and allocating the necessary Resources for us to 
maintain Standards, conduct Inspections, and participate in Operational 
Engagements, it is every Airman's responsibility to ensure the 
Resources are used effectively and efficiently. Therefore, it is only 
proper that the Air Guard recapitalize on par with the Active Air 
Force.
                               conclusion
    Managing a declining budget is one of the most challenging things 
the Department of Defense ever does. For the U.S. Air Force, it comes 
down to making difficult decisions between capability, capacity, 
readiness, and modernization. The Total Air Force decided to take 
increased risk in the near-term to ensure its future warfighting 
capability. It also decided to increase reliance on the Air Reserve 
Components by cutting their end-strength and force structure 
proportionally less than the reductions in the Active Component. These 
decisions, while agreed to, create challenges for the Air National 
Guard primarily in the area of near-term risk management. Because much 
of the older or legacy systems are operated by the Air Guard, we have 
the responsibility to ensure that the Total Air Force can meet today's 
defense commitments while waiting for tomorrow's capabilities.

    Senator Durbin. Thank you.
    General Jackson.
STATEMENT OF LIEUTENANT GENERAL JAMES F. JACKSON, 
            CHIEF, AIR FORCE RESERVE
    General Jackson. Chairman Durbin, Vice Chairman Cochran, 
distinguished members of the committee, thank you very much for 
the opportunity to testify. I will do the same and keep my 
remarks very brief.
    Your Air Force Reserve is a combat-ready force stationed 
locally and serving globally in support of every combatant 
command in air, space, and cyberspace.
    One of the key strengths of our Air Force Reserve is the 
flexibility of your force. In my eyes, and we have heard this 
mentioned before, we are no longer a strategic Reserve; we are 
daily an operational Reserve. But instead of using those terms, 
I like to use operational capability that your Air Force 
Reserve brings to the Nation every day, the strategic depth, 
and the surge capacity, all three of those bins are how we 
provide our Nation's defense.
    We have wide-ranging operational capability in every 
combatant command. Today, over 4,000 Air Force Reserve members 
are doing exactly that. And, of course, we do it in every 
mission set. Global capability deployed at home, such as space, 
cyberspace, and ISR (intelligence, surveillance, and 
reconnaissance); not to mention support of homeland, with 
capabilities as aerial firefighting, aerial spray, and a shared 
mission with the Air National Guard in firefighting; and 
weather reconnaissance, known as the Hurricane Hunters.
    The strategic depth we provide is the 70,000 selected 
Reserve members that make up your Air Force Reserve, most of 
which, 75 percent of those are part time. This includes our 
individual reservists on all combatant commander tasks and 
major commands available for your leadership and support at 
every level of conflict.
    And then the surge capacity, which we saw during operations 
Tomodachi and Odyssey Dawn and other recent events, allow us to 
serve, train, and integrate every single day with the Active 
Duty, as General Clarke mentioned. And the majority of our 
reservists are alongside our Active Duty members since the 
preponderance of associations are within your Air Force 
Reserve.
    Integrating through association delivers significant 
taxpayer value both in cost savings and improved mission 
effectiveness.

                           PREPARED STATEMENT

    Lastly, committee members, I would like to thank you for 
your support of the NGREA (National Guard and Reserve Equipment 
Appropriation). Without it, your continued support there, we 
cannot continue to transform the Air Force Reserve and 
modernize it, which is critical.
    Thank you very much, and I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General James F. Jackson
                              introduction
    Mr. Chairman and distinguished members of the subcommittee: Thank 
you for the opportunity to appear before you. I'm honored to represent 
America's Citizen Airmen as the Chief of the Air Force Reserve and 
Commander, Air Force Reserve Command (AFRC). The Air Force Reserve is a 
combat-ready force, composed of more than 70,000 Citizen Airmen, 
stationed locally at over 60 locations throughout the United States and 
serving globally for every Combatant Command in air, space and 
cyberspace.
    Today's Air Force Reserve is a cost-efficient and mission-effective 
force, providing the Nation with operational capability, strategic 
depth and surge capacity, both overseas and here at home. The inherent 
flexibility of the Air Force Reserve is further enhanced by being an 
integrated Total Force partner in every Air Force core mission: Air and 
Space Superiority; Global Strike; Rapid Global Mobility; Intelligence, 
Surveillance, and Reconnaissance (ISR); and Command and Control. By 
building upon over six decades of history, especially from the past two 
decades of sustained combat operations, the Air Force Reserve is 
incorporating the lessons learned from yesteryear to be ready for 
today's joint fight, while preparing for tomorrow's.
    In my statement, I will discuss today's Air Force Reserve and its 
direction for the future. However, first I would like to briefly 
revisit our history in order to address a recent report to the 
President and Congress by the National Commission on the Structure of 
the Air Force (NCSAF). Specifically, I wish to address the Commission's 
recommendation to ``disestablish Air Force Reserve Command'' and 
``inactivate the Reserve Numbered Air Forces, wings, and squadrons.'' 
\1\
---------------------------------------------------------------------------
    \1\ National Commission on the Structure of the Air Force. Report 
to the President and Congress of the United States. Washington, DC, 
January 30, 2014, 32.
---------------------------------------------------------------------------
                         historical perspective
    In recent history, after almost every major period of conflict, a 
defense budget drawdown has occurred. Many times, this coincided with a 
change to the Air Force Reserve to cost-effectively help preserve our 
Nation's combat capability. In each subsequent conflict, our Nation 
reaped the benefits of these thoughtful changes and deliberate 
investments in the Air Force Reserve.
    Following WWII, Government spending was cut from a high of 44 
percent of the Gross National Product in 1944 to less than 8 percent in 
1947. This historic shift marked a strategic turning point and led to 
the formal establishment of the Air Force Reserve in 1948 by President 
Harry Truman.\2\ Veterans had training and experience that could be 
captured and organized in a Reserve unit, for a relatively small cost, 
thus generating a greater return on taxpayer investment. Two years 
later, this investment paid off when 146,000 Air Force Reservists were 
called to duty in support of the Korean War.
---------------------------------------------------------------------------
    \2\ Gerald T. Cantwell, Citizen Airman: A History of the Air Force 
Reserve, 1946-1994, (Air Force History and Museums Program, 1997), 67.
---------------------------------------------------------------------------
    During the Cold War, we witnessed the 1961 Berlin Crisis and the 
Cuban Missile Crisis during which President Kennedy mobilized the Air 
Force Reserve. Congress, recognizing the importance of Reserve 
contributions, passed the Reserve Forces Bill of Rights and 
Vitalization Act (Public Law 90-168), which established the Office of 
the Air Force Reserve in 1968, led by the Chief of the Air Force 
Reserve.\3\
---------------------------------------------------------------------------
    \3\ Ibid, 238.
---------------------------------------------------------------------------
    The Air Force Reserve participated in the Vietnam War from January 
1965 when it extended transpacific missions for the Military Airlift 
Command through June 1975 when the Reserve flew thousands of sorties 
supporting the Indochina Refugee Airlift. The end of the Vietnam War 
resulted in the adoption of the Total Force concept, further validating 
the value of the Reserve Component. As then Secretary of Defense Melvin 
Laird recognized in the August 21, 1970 ``Support for Guard and Reserve 
Forces'' memorandum, ``Application of the [Total Force] concept will be 
geared to recognition that in many instances the lower peacetime 
sustaining costs of reserve force units, compared to similar active 
units, can result in a larger total force for a given budget or the 
same size force for a lesser budget.'' \4\ The Total Force concept 
further ensured the combat capacity required by our Nation.
    The 1990s marked another defense budget drawdown, and in 
conjunction, an increased operational tempo for the Air Force Reserve. 
Reserve forces deployed for the 1990 Gulf War, with more than 38,000 
Air Force Reservists serving. Recognizing the increased reliance on the 
Reserve Components, and the need to effectively organize, train and 
equip this critical force structure, Congress directed the Secretary of 
the Air Force to establish an Air Force Reserve Command with the 1997 
National Defense Authorization Act.
    Formalizing the functions to organize, train, equip, command and 
control under Air Force Reserve Command would pay off throughout the 
next decade. In the hours after the September 11, 2001 attack, the Air 
Force Reserve helped patrol the skies over America. In the opening 
hours of Operation Enduring Freedom, Air Force Reservists flew the 
first fixed-wing aircraft into Afghan airspace in direct support of 
special operations forces, demonstrating our high level of readiness 
and, once again, our ability to answer the Nation's call.
---------------------------------------------------------------------------
    \4\ Ibid, 412 (Reprint in Appendix).
---------------------------------------------------------------------------
      national commission on the structure of the air force report
    This brief historical perspective is provided to demonstrate how, 
over time, Congress and the Nation's leadership have improved the Air 
Force Reserve's organizational structure, resulting in increased 
operational readiness levels of both our Citizen Airmen and equipment, 
such that today's Air Force Reserve is a cost-efficient and mission-
effective force for our Nation. While the NCSAF report proposed 
numerous recommendations for the betterment of the Air Force, some of 
which were previously proposed and are currently being implemented, the 
notion of disestablishing Air Force Reserve Command and inactivating 
the Numbered Air Forces, wings and squadrons would, in my opinion, undo 
six decades of lessons learned and result in an unsustainable Air Force 
Reserve.
  today's air force reserve--operational capability, strategic depth, 
                             surge capacity
    A key strength of today's Air Force Reserve is the flexibility of 
the force, which in my eyes, is no longer defined as an ``operational'' 
or ``strategic'' reserve, but instead by the operational capability, 
strategic depth and surge capacity we bring to the Nation. On any given 
day in 2013, approximately 5,000 Air Force Reservists were actively 
serving in support of deployments, contingency taskings, exercises and 
operational missions. For instance, this past year, the Air Force 
Reserve's Force Generation Center (FGC) successfully filled over 4,000 
Air Expeditionary Force (AEF) requirements, or approximately 8 percent 
of the Air Force's total forces supporting AEF missions, making AFRC 
the fourth largest Major Command contributor.
    The FGC is the ``one-stop shop'' offering access to Air Force 
Reserve forces to fill Combatant Commander requirements. The FGC 
executes requests for capability from force providers, monitors current 
Combatant Commander support, and tracks the individuals and units who 
volunteer or are mobilized. The FGC provides simplified and streamlined 
access to Title 10, Air Force Reserve forces and is foundational to the 
administrative control of the force.
Operational Capability
    Over the past two decades, and especially since 9/11, the Air Force 
Reserve has served as a critical Total Force partner in delivering 
Global Vigilance, Global Reach and Global Power. The Air Force 
Reserve's wide-ranging operational capability serves the diverse needs 
of every Combatant Commander, whose requirements are as varied as the 
geographic and functional areas they support. We operate in an 
expansive environment including a global air domain, a vast space 
domain, and an ever-evolving cyberspace domain. In some cases, the Air 
Force Reserve provides our global capability while ``deployed at 
home,'' such as for space, cyberspace and ISR.
    Besides the Air Force Reserve's global responsibilities, we also 
routinely support the homeland with unique missions, such as 100 
percent of the Air Force's weather reconnaissance (better known as the 
``Hurricane Hunters'') and aerial spray missions, along with a shared 
mission of aerial firefighting with the Air National Guard. Our 
relationship with other Federal agencies, including the National 
Weather Service and U.S. Forest Service, demonstrates how Federal 
military and civilian organizations can work together to support the 
entire Nation. Dual-use capabilities such as airlift, aeromedical 
evacuation and personnel recovery are especially valuable, both in-
theater and for homeland support. Additionally, the new mobilization 
authority commonly known as ``12304a'' guarantees access to the Federal 
Reserve Component, which can be mobilized to respond to a national 
emergency or major disaster. Finally, the Air Force Reserve supports 
with volunteers first, not necessarily requiring mobilization, as we 
did for last year's Colorado wildfires when we demonstrated, once 
again, our Citizen Airmen continue to raise their hand and serve when 
the Nation calls.
    Below is a chart outlining the Air Force Reserve's support to all 
of the Air Force Core Functions, an indicator of how the Air Force 
values the taxpayer dollar, by putting a diverse portfolio of 
capability in the cost-efficient Air Force Reserve to take care of the 
Nation's needs.

        AIR FORCE RESERVE SUPPORT TO THE AIR FORCE CORE FUNCTIONS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 Air Superiority & Global Precision Attack        Global Integrated
--Air Superiority: F-22                     Intelligence, Surveillance &
--Bomber: B-52                                      Reconnaissance
--Close Air Support: A-10                   --Acquisition Intelligence
--Precision Attack: F-16                    --Airborne Crypto-Linguist
                                            --Distributed Common Ground
                                             System
                                            --HUMINT, SIGINT, GEOINT/
                                             MASINT
                                            --Remotely Piloted Aircraft:
                                             MQ-1, MQ-9, RQ-4
                                            --Targeting
------------------------------------------------------------------------
           Rapid Global Mobility                Agile Combat Support
--Aeromedical Evacuation                    --Acquisitions, Contracting
--Aerial Port                                & Finance
--Aerial Firefighting: C-130H MAFFS         --Civil Engineering & RED
--Aerial Spray: C-130H 2MASS                 HORSE
--Air Refueling: KC-10, KC-135R             --Force Support
--Contingency Response Mobile C2            --Law, Chaplain Corps &
--Hurricane Hunters: WC-130J                 Historian
--Operational Support Aircraft: C-40C       --Logistics, Fuels, &
--Strategic Airlift: C-5, C-17A              Maintenance
--Tactical Airlift: C-130H, C-130J          --Medical, Nursing & Dental
                                            --OSI & Security Forces
                                            --Public Affairs & Combat
                                             Camera
                                            --Safety
                                            --Test & Evaluation
------------------------------------------------------------------------
            Special Operations                   Personnel Recovery
--C-145A, U-28                              --HC-130N/P, HH-60G &
                                             Guardian Angel
------------------------------------------------------------------------
             Space Superiority                 Cyberspace Superiority
--GPS                                       --Cyberspace Command &
--Joint Space Operations Center              Control
--Missile Warning                           --Cyberspace Defense--Active
--Space Control                              and Passive
--Space Professional Education              --Cyber Protection Teams
--Weather                                   --Extend the Net (Combat
                                             Communications)
                                            --Information Network
                                             Operations
------------------------------------------------------------------------
       Nuclear Deterrence Operations             Command and Control
--Air Refueling: KC-135R                    --Air & Space Operations
--Bomber: B-52                               Center
                                            --AWACS: E-3
------------------------------------------------------------------------
           Education & Training                 Building Partnerships
--Aeromedical Evacuation Training           --Combatant Commander Staffs
--AF Academy Flying and Jump Programs       --Security Cooperation &
--Basic Military Training                    Exercises
--Flight Training: T-1, T-6, T-38, AT-38,   --Special Operations
 F-15E, F-16, A-10, B-52, C-5, C-17, C-
 130, KC-135, KC-10, MQ-1, MQ-9, RQ-4, C-
 145A
------------------------------------------------------------------------

Strategic Depth
    The Air Force Reserve's strategic depth is found in the more than 
70,000 who make up the Selected Reserve. Additionally, in a time of 
crisis, the President and Secretary of Defense have the ability to call 
upon an additional 790,000 Airmen from the Individual Ready Reserve, 
Standby Reserve, Retired Reserve and Retired Active Duty. Over 75 
percent of our Citizen Airmen serve part-time, making us an exceedingly 
cost-efficient force, even more so when factoring in the intrinsic 
value derived from the dual-experience gained from a civilian and 
military career.
    Additionally, approximately 10 percent of the Air Force Reserve 
serves as individual reservists throughout the Department of Defense. 
These Citizen Airmen serve on over 50 staffs, including the Office of 
the Secretary of Defense, the Joint Staff, the Air Staff, Combatant 
Commands, Air Force Major Commands, and Intelligence and Defense 
Agencies. Integrating individual reservists throughout the DOD provides 
valuable experience and staff continuity. Collectively, the Citizen 
Airmen of the Air Force Reserve support the decisionmakers, joint 
warfighters and force providers at the tactical, operational and 
strategic levels of conflict.
Surge Capacity
    The surge capacity of the Air Force Reserve is derived from our 
readiness, training and integration with the Active Duty. First, the 
Air Force Reserve is a Tier 1 ready force, capable of responding within 
72 hours to ``fight tonight.'' This is critical as speed is a decisive 
factor when crisis erupts. By maintaining daily operational readiness, 
and by training and being inspected to the same standard as the Active 
Duty, the Air Force Reserve can quickly respond to Combatant Commander 
requirements.
    The majority of Air Force Reservists serve alongside our Active 
Duty counterparts in association constructs. Approximately two-thirds 
of the Air Force's Total Force Integration (TFI) associations are with 
the Air Force Reserve, a relationship first forged in 1968, with the 
number of TFIs accelerating after the Base Closure and Realignment 
Commission of 2005. Associations between the Active Component and 
Reserve Component represent significant taxpayer value, both in cost 
savings and improved mission effectiveness, through the sharing of 
facilities, equipment and aircraft. Integrating with the Active Duty in 
this way yields numerous synergistic benefits and adds to the Air 
Force's strength, including an improved ability to respond with surge 
capacity at a moment's notice.
                      tomorrow's air force reserve
    The Air Force Reserve is an integral partner of our three-component 
Air Force, always evolving to provide our Nation the world's premier 
air, space and cyberspace force. To maintain our readiness and posture, 
the Air Force Reserve continues to transform itself in four key areas: 
Mission, manpower, modernization and military construction.
Mission
    In 2013, the Air Force Reserve had several ``firsts,'' 
demonstrating our support not only for today's joint fight, but how we 
continue to evolve for the joint fight of tomorrow.
    Warfighters around the globe are constantly in need of more 
intelligence, surveillance and reconnaissance support. This past year, 
the Air Force Reserve activated the 655th ISR Group at Wright-Patterson 
AFB, Ohio to support ever-evolving combatant commander requirements. 
The 655th ISR Group now has units covering the full spectrum of 
intelligence support, from tactical, full-motion video and signals 
intelligence exploitation to strategic, higher level analysis and 
reporting functions.
    Also in 2013, the Air Force Reserve helped establish the Air Force 
Special Operations Air Warfare Center at Hurlburt Field, Florida. This 
newly created center brings together more than 500 Active Duty and 
Reserve Airmen for the special operations mission. The synergistic 
benefit of this new organization will pay huge dividends for the Nation 
and serves as another valuable example of integrating the Total Force 
team.
    Another one of our successes last year involved the cyberspace 
mission area. The 960th Cyberspace Operations Group at Joint Base San 
Antonio-Lackland, Texas stood up as the ``center of gravity'' for 
cyberspace operations in the Air Force Reserve. Cyberspace is a manmade 
domain where the rules and technology continually change at a rapid 
pace. In this realm, our highly experienced Citizen Airmen leverage 
their civilian cyberspace knowledge and military experience to stay on 
the cutting edge.
    Finally, a significant milestone is the 307th Bomb Wing at 
Barksdale AFB, Louisiana, became the first Reserve unit in Air Force 
history to be nuclear certified, after they excelled during their 
initial nuclear surety inspection. Our Citizen Airmen, in close 
partnership with the Active Duty, demonstrated their expertise and 
strong Total Force experience in becoming qualified to perform the Air 
Force nuclear mission.
    These are just a few examples of what the Air Force Reserve 
provides our Nation every day. As the Air Force Reserve looks to the 
future, we are guided by our Strategic Planning Process, which is an 
in-depth analysis of missions to best support the Defense Strategic 
Guidance, as well as other planning and strategic guidance. In today's 
fiscal environment, there continues to be more Combatant Commander 
requirements than the Air Force can provide. Our Strategic Planning 
Process aids in determining the best missions to grow and where to 
divest, within our end strength. ``Top-tier'' missions for potential 
growth include rapidly evolving mission areas such as Space, Cyberspace 
and ISR, as well as more traditional mission sets including Rapid 
Global Mobility and Global Precision Attack. A significant part of our 
analysis also includes how to best leverage our core strengths, 
primarily that of our people.
Manpower
    The Citizen Airmen of the Air Force Reserve are our greatest 
strength. Their Air Force ``service before self'' attitude is 
unwavering. More than three-fourths of our Citizen Airmen joined the 
Air Force Reserve since 9/11, demonstrating their desire to serve in 
today's fast-paced operational environment. Our average retention rate 
over the past 7 years is close to 90 percent. Approximately half of our 
Citizen Airmen served in the military prior to 9/11, most as Active 
Duty members, indicating not just their experience, but also their 
long-term commitment as ``Airmen for Life.''
    As we look to the future, the Air Force Reserve will strive to 
capture the experience and training costs incurred during a member's 
Active Duty service. Our ability to leverage civilian experience from a 
variety of career fields, from pilots and nurses to space and 
cyberspace professionals, also adds to the Air Force Reserve's 
intrinsic value. Retaining pilot experience remains a priority, but we 
must also remember the combat-tested warriors across many disciplines 
and career fields. Lower lifecycle costs further add to our value and 
are an important consideration when determining component end strength. 
With sufficient end strength, the Air Force Reserve can retain the 
years of experience and the Nation's investment in separating Active 
Duty Airmen.
    I wish to highlight to the subcommittee a manpower cost simulation 
tool called ICAM (Individual Cost Assessment Model) that is used to 
estimate burdened lifecycle and annual manpower cost for each component 
of the Air Force. The Air Force Reserve teamed with the Air National 
Guard and the Headquarters Air Force staff to develop this tool, which 
was formally adopted by the Air Force. Additionally, ICAM was 
highlighted in the NCSAF report for its ability to model ``individual 
Airmen over time along the myriad possible career paths beginning with 
accession and ending at separation from the Air Force (prior to earning 
retirement benefits) or death.'' ICAM's potential lies not in just its 
modeling capability, but in the ability to move toward a ``common 
ground'' on manpower costs, allowing for more focused effort on the 
subjective factors, such as capacity and capability, in determining the 
Air Force's future force structure.
    To best utilize our current manpower, Congressional authority to 
mobilize up to 60,000 members of the Reserve Components for preplanned 
and budgeted missions in support of Combatant Commands (known as 
12304b) will be an important factor in the future use of the Air Force 
Reserve. By utilizing 12304b authority and receiving adequate Military 
Personnel Appropriation (MPA or ``man-day'') funding, predictability 
can be increased for the Reserve Component, which is important for 
Combatant Commanders, Reservists, and their families and employers. 
This is why we would like to see a separate budget activity code or 
specific funding line in MPA for ``operational support by the Air 
Reserve Component'' as recommended by the NCSAF.
Modernization
    Continually transforming the Reserve Component through 
modernization is critical to ensuring we are a mission-effective and 
combat-ready partner across the spectrum of conflict. The Air Force 
Reserve requires on-going equipment modernization and uses the National 
Guard and Reserve Equipment Appropriation (NGREA) to maintain leading-
edge combat capability on aging equipment. This appropriation enables 
modernization of critical equipment for our force.
    The current top Air Force Reserve procurement priorities are:
            1. Defensive Systems
    Air Force Reserve aircraft require self-protection suites that are 
effective against modern anti-aircraft systems. Large Aircraft Infrared 
Countermeasures (LAIRCM), Aircraft Defensive Systems (ADS) and Missile 
Warning Systems (MWS) greatly enhance protection and survivability 
rates for aircraft while conducting operations in high-threat areas.
            2. Data Link and Secure Communications (Battlefield 
                    Situational Awareness)
    The information demands of modern warfare require a fully 
integrated data link network. A robust, persistent airborne gateway 
system and secure line-of-sight (SLOS)/beyond line-of-sight (BLOS) 
voice and data communications systems support that integrated data link 
requirement. NGREA funds are being used to install SLOS/BLOS 
communications in all Air Force Reserve combat-coded aircraft.
Military Construction (MILCON)
    MILCON is also a critical component in the Air Force Reserve's 
ability to be combat ready for tomorrow's joint fight. The Air Force 
Reserve is a tenant at over 50 installations, where we maximize 
taxpayer value by sharing facilities whenever possible. Nevertheless, 
the Air Force Reserve is in need of MILCON to modernize and consolidate 
existing infrastructure, as well as accommodate growth into new mission 
areas. We currently face a validated $1.4 billion backlog of unfunded 
MILCON requirements. For fiscal year 2015, there are three Air Force 
Reserve MILCON projects:
  --AFRC Consolidated Mission Complex at Robins Air Force Base, 
        Georgia.
  --Tanker Apron Expansion at Seymour Johnson Air Force Base, North 
        Carolina.
  --Explosive Ordinance Disposal Training Facility at Naval Air Station 
        Joint Reserve Base, Fort Worth, Texas.
    The Air Force Reserve, like the Active Duty, is counterbalancing 
some risk in military construction through operation and maintenance 
facility sustainment, restoration, and modernization funding. We are 
recapitalizing aging facilities, promoting consolidation, and 
demolishing unnecessary, resource-draining facilities to make the best 
use of our facility footprint.
                citizen airmen--our most valued resource
    The men and women of the Air Force Reserve are our most valued 
resource. Our Citizen Airmen have consistently demonstrated their 
commitment to answer our Nation's call. The Air Force Reserve remains 
committed to these dedicated Airmen, with a constant focus on their 
well-being and continued success.
    We ask America's Citizen Airmen to maintain a unique ``reserve-
work-life balance'' between their Air Force duties, their civilian 
employer and their families. Maintaining this balance can sometimes be 
a challenge. Programs such as the Employer Support of the Guard and 
Reserve (ESGR) and ``Hero2Hired.jobs'' are critical in helping our 
Airmen deal with life-changing events such as deploying and 
transitioning to or from the civilian workforce.
    The importance of the Yellow Ribbon Program for our deploying 
members was demonstrated last fiscal year as 2,273 Air Force Reserve 
members attended 57 events, along with 3,685 family members. Our member 
satisfaction rate of 92 percent is a testament to the value of the 
Yellow Ribbon Program in supporting our Citizen Airmen, their families 
and employers throughout the deployment cycle. In 2013, the Air Force 
Reserve's Yellow Ribbon Program was the first to begin using a scanner 
system to track events and their attendees. Coupled with pre- and post-
event surveys, this provides Yellow Ribbon administrators information 
to build more effective future events. The result is better programming 
for breakout sessions and more efficient use of taxpayer dollars.
    Additionally, the Air Force Reserve is leveraging today's 
technology to further support our reserve-work-life balance by offering 
the Wingman Toolkit, found at http://AFRC.WingmanToolkit.org/. The 
Wingman Toolkit is our online resource designed around comprehensive 
fitness and the four areas of physical, mental, spiritual and social 
wellbeing. Resources include articles, videos, website links, 
resiliency training, a mobile phone app, a sexual assault resource 
page, and a ``Get Help'' bell with the National Suicide Prevention 
Lifeline for those that may need immediate help. The Wingman Toolkit is 
one of many efforts to ensure our Citizen Airmen's comprehensive 
fitness, by building a strong Wingman culture of Airmen proactively 
taking care of themselves and each other.
    In addition to the Wingman Toolkit, the Air Force Reserve provides 
the Psychological Health Advocacy Program (PHAP) to aid Airmen and 
families. PHAP assists our members and their families by locating 
appropriate resources through free and confidential regional teams, 
available 24/7. Our Nurse Case Facilitators offer resource referrals 
for any life stressor, from family counseling and deployment support to 
suicide prevention and substance abuse. In fiscal year 2013, only the 
second year of the program, the cases increased by 91 percent to more 
than 1,100, and the number of mental health cases increased by 142 
percent to over 300. These increases are a result of more members 
taking advantage of this important service, which is making a direct 
impact on our member's lives. Our Citizen Airmen have come to 
appreciate the PHAP motto that ``you and your family are not alone.''
    Finally, a continual focus of the Air Force Reserve is to 
``strengthen the team'' and give people the tools to succeed. 
Professional force development, in both officer and senior enlisted 
ranks, is vital to growing leaders for the Air Force and our Nation. 
The Air Force Reserve team is working diligently to increase 
opportunities and options for those seeking to be considered as 
potential senior leaders, while preserving the Citizen Airmen culture 
of being stationed locally and serving globally. This is another reason 
why, in my opinion, I disagree with the recommendation from the 
National Commission on the Structure of the Air Force report to 
disestablish Air Force Reserve Command and inactivate the Reserve 
Numbered Air Forces, wings, and squadrons. If enacted, the 
recommendation would eliminate leadership pathways to develop our 
Citizen Airmen, especially for our Air Reserve Technicians and 
Traditional Reservists.
                               conclusion
    The Air Force Reserve is a proud and indispensable member of the 
three-component Air Force team, dedicated to mission accomplishment for 
Combatant Commanders and our Nation. I sincerely appreciate the 
enduring support of this subcommittee and all you do for America's 
Citizen Airmen. I look forward to working with each of you to ensure 
that your Air Force Reserve remains postured and ready to serve in 
today's and tomorrow's joint fight.

    Senator Durbin. Thanks, General.
    We will have 7-minute rounds, and I will start.
    Madam Secretary, it is no secret that we have had some 
differences with Russia in the last few months. Some have even 
suggested our relationship is getting colder. And yet in at 
least one important area, we are still dependent on Russia in 
terms of our American national defense, which might come as a 
surprise to many people. The United Launch Alliance (ULA) uses 
Russian-made RD-180 engines in its Atlas V Launch Vehicles. ULA 
has told this committee it has 2 years' worth of engines, so I 
shouldn't be concerned. But a recent article in Bloomberg 
magazine stated that Pentagon officials have asked the Air 
Force to review whether the use of Russian engines on rockets 
creates a national security risk.
    Another article in Aviation Week points out that U.S. 
coproduction of the RD-180 engine would cost $1 billion over 5 
years to accomplish. If we decided to produce this engine 
domestically, clearly, we have a big bill to pay.
    I would like to ask you what your take is on this potential 
challenge, something we need to at least look ahead and 
anticipate in the hopes it never happens.
    Ms. James. Mr. Chairman, my take is I, too, find it 
worrisome. I, too, have read these reports. I have talked to my 
own people just in the first couple of months here.
    We did, as you mentioned, initiate a review, which is due 
at the end of May, so it is a fairly quick review, to get to 
the bottom of some of these questions and, more importantly, to 
provide some answers that if we did have it shut off, what 
would it mean.
    Again, I, too, have heard 2 years of supply. I have learned 
spare parts are very important, so that is a question that the 
review is also going to look at: Do we have spare parts for the 
2 years?
    I will tell you that if anything would go wrong in the 
immediate future, we could also go to the Delta option, so we 
have that as a fallback in the immediate future. But I, too, am 
interested in what the domestic production would look like, and 
the costs. So we are studying it. We are studying it quickly. 
We hope to have some more answers shortly.
    Senator Durbin. Well, it is no secret that we have 
anticipated a competition, which will engage another company in 
this process. And I believe the President's budget diminishes 
that competition in years to come, which seems to be moving in 
the opposite direction, really putting most of our faith in the 
ULA project to continue despite the question mark about Russian 
sources.
    Ms. James. So here is the way I would describe the EELV 
(Evolved Expendable Launch Vehicle) program: It is comprised 
of, to use very simple language, heavy launches and lighter 
launches. So we want competition for all of the launches. And 
by 2017, under the process that has been laid out, we expect 
that we will have new entrants to compete for all of it.
    By the end of this year, we hope to have people qualified--
other companies qualified--to compete for the light launches. 
So there are heavies, and there are lights.
    So what you are referring to is the fact that in terms of 
the light launches, some of those launches have gotten deferred 
beyond the 5-year plan. Why? The answer is: Those launches 
involve Global Positioning System (GPS) satellites, and it 
turns out that the existing GPS satellites are lasting longer 
than we originally anticipated. Therefore, we don't need to 
launch them as quickly.
    Now with that said, we anticipate eight of these launches 
to occur over the 5-year period of the light ones, and seven of 
the eight will be competitive, assuming the new entrants 
qualify, and everything I am hearing tells me they will.
    Senator Durbin. General Welsh, I would like to ask you 
about two specific decisions that are part of this budget. The 
first decision calls on the Air Force Guard to give up the 
Apache helicopters, to transfer those to the Active Air Force.
    It is my understanding that the Air Force Guard has now 
taken those helicopters into combat and has combat-hardened 
crews that are currently serving and protecting our Nation. The 
future of those crews may be in jeopardy if we trade the Apache 
for the Black Hawk.
    I would like to ask you why, since it is only a small 
portion of the Apache helicopter fleet, you would want to 
eliminate the Air Guard commitment in that area?
    Secondly, I may have mentioned this to you, I think I did, 
reading an article when it came to an aircraft that you are 
familiar with, the Warthog, the A-10. It was a Harper's article 
that talked about actual battlefield decisions being made by A-
10 pilots who were close in, viewing a potential target, and 
then transferred to a B-1 bomber at high altitude that made a 
different decision, which turned out to be a fatally wrong 
decision.
    So the notion of retiring the A-10 fleet, the Warthogs, at 
this point, I would like to ask you if you have taken into 
consideration the versatility and capability of that aircraft 
that might be sacrificed in this change.
    General Welsh. Thank you, Chairman.
    On the first issue, the Apaches are probably a better topic 
for General Grass to address.
    Senator Durbin. I said Air Force Guard. I am corrected. It 
is the Army Guard.
    General Welsh. But on the A-10 side of the house, the 
discussion for us, really, is about the mission of close air 
support, not specifically about platforms that fly it.
    We are making choices, as I mentioned in my brief opening 
comments, that are no fun for any of us. Everything is 
affecting capability now. We are going to affect our mission 
areas with any decision we make in this budget.
    The combatant commanders, the service chiefs, are all part 
of this conversation. The Air Force provides a series of things 
to a ground force commander and a combatant commander, not just 
close air support. And our attempt, in our recommendations in 
this budget, is to balance those mission areas.
    There are terrible stories about mistakes that are made in 
combat in every platform we fly, every one of them. The 
specific article you are referring to, sir, I would love to 
walk through the article with you. There are some things in 
there that I don't believe are completely factual, or there is 
more to the story that the reporter just didn't have access to. 
I would love to talk in detail about this topic with you and 
explain that analysis. For example, we looked at options on the 
operational side of divesting the A-10 fleet, divesting the B-1 
fleet, divesting X number of F-16s, probably 350 or so, to make 
the same amount of savings as the A-10 fleet. We looked at an 
option of divesting the F-15Es to a certain level to pay that 
same bill. We looked at the deferring more F-35s outside the 
FYDP (Future Years Defense Plan). We looked at grounding 
current squadrons and giving up readiness in order to pay the 
bill to keep the A-10 fleet active. So we looked at a number of 
different ways to create the $4 billion or so of savings in 
budget, and then we did a very detailed operational analysis 
against the standard DOD scenarios that we are required to 
prepare for. And the operational result was that the best 
operational military answer was to divest the A-10 fleet.
    I would love to have that discussion in detail. It is 
probably not the forum for it. But, sir, this is about much 
more than a particular airplane. The A-10 is a great airplane. 
We have many other airplanes that fly close air support (CAS) 
very, very well and have been doing it for a long time. This is 
a much broader discussion than that, because it is a balance, 
and what an Air Force brings to the theater.
    Senator Durbin. I look forward to that discussion.
    General Grass, if you could clarify, I made a mistake 
earlier, in reference to the Apache. But if you would clarify 
that?
    General Grass. Chairman Durbin, we have been working 
closely with the Army to try to find a solution. The Army has 
some major issues they have to deal with right now in rotary 
wing aircraft, both the training aircraft, as well as the scout 
vehicle.
    We agree with the Army divesting of those two platforms. 
What we are concerned about though is taking all of the Apaches 
from the Guard and putting them on Active Duty. We have units 
with thousands of flying hours in combat. We also provide an 
opportunity for Active pilots coming off to come into the Guard 
to maintain that capability.
    At the same time, our proposal would actually put some of 
our Apaches back into the Active side to pay part of the bill. 
So we have a proposal on the table we are waiting for a 
response to, to see if we can come up with a solution with the 
Army.
    Senator Durbin. Thanks, General.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    My thanks to the panel for being here today to discuss the 
Air Force budget request.
    We are concerned about the situation in our State at 
Keesler Air Force Base, which is one of the sources of pride we 
have in our close connection with military training activities. 
Keesler is well-known throughout the Air Force and, certainly, 
throughout our State as a wonderful place to work and to live, 
to raise a family and to serve.
    We are concerned that we keep getting mixed signals about 
exactly what the budget request contains for funding of the 
training mission at Keesler, and any other needs for funding 
that exist and are not reflected in the submission to the 
committee.
    So I direct my question to Secretary James and General 
Jackson. I am concerned about the justifications that we find 
in the Total Air Force plan for 2015. Included in the proposal 
is an indication that there will be a relocation of 10 C-130Js 
from Keesler Air Force Base to some other location.
    It seems to be inconsistent with comments that we have had 
in the past. General Jackson, I appreciate your briefing us 
yesterday on your plan, but we haven't heard any real 
justification for this decision.
    And I would like to have some update from the panel, either 
in writing or later, or any comments that you care to make now, 
to clarify what the intentions are and what the budget request 
contains with respect to Keesler Air Force Base.
    Ms. James. So, Senator, maybe I could just begin and then 
General Jackson could provide some additional details.
    Senator Cochran. That is fine.
    Ms. James. From sort of the big picture perspective, as we 
put the budget together and we look at the strategy and we look 
at what the requirements are, we have too many C-130s in the 
inventory vis-a-vis the requirements. So that is kind of the 
big picture first point. So we are looking to reduce some C-
130s, trying to keep the newer ones in the inventory, retire 
the older ones, and so things are moving around as a result.
    Now as to what is moving where and why, there is--where I 
think General Jackson would be better to answer that.
    Senator Cochran. Okay. General.
    General Jackson. Thank you, ma'am.
    Senator Cochran, thank you for the opportunity to comment 
on the C-130s. As we discussed yesterday, this is a 
comprehensive C-130 plan that we had to put together with the 
Air Force in concert with the Air National Guard and Active 
Duty on where we are going to put a C-130 fleet.
    The Air Force Reserve part of that discussion was to bring 
to the table the 11 locations that we currently operate C-130s 
and have the discussion on where we should try to consolidate 
to achieve the savings that we need to achieve for the Air 
Force.
    The Air Force Reserve has currently lost approximately from 
104 down to 66 C-130s, and we need to make sure those are 
located at exactly the locations where we can get the most 
benefit for the Air Force and the Total Force.
    Little Rock Air Force Base, Arkansas is the location that 
we have determined that would be a good place to go ahead and 
take and try to consolidate that C-130 schoolhouse, the two 
Active Duty squadrons, the Air Force Reserve squadron, and, of 
course, the C-130J and, of course, the C-130H schoolhouse at 
that location, because it allows us to provide backshop 
synergy. We have some manpower savings from that location, 
change also through reduction in North Carolina at Pope Field. 
And that is what we are seeking to achieve, is to go ahead and 
pay the bill that we need to pay when it comes to that 
airframe, sir.
    Senator Cochran. One of the missions of that facility is 
the so-called Hurricane Hunters. Who is going to end up being 
responsible for providing information to the people who live in 
the Gulf of Mexico area with respect to the hurricanes that 
sometimes come up through the gulf? And isn't Keesler located 
in ground zero and probably the best place to have vigilance 
missions flown from there rather than going inland some several 
hundred miles to Little Rock to get you out of the picture? You 
might be going to the coast and a hurricane will be over, and 
everybody has lost everything by the time the planes get to the 
gulf.
    What is your reaction to that? Does that make sense? It 
doesn't sound like it makes good sense to me.
    General Jackson. Senator, there is absolutely no intention 
of removing the 403rd Wing or the Hurricane Hunters mission 
from Keesler Air Force Base, Mississippi. As you are probably 
aware, we currently have 10 C-130Js that are part of the 403rd 
that do that mission and the other 10 C-130Js that the Air 
Force Reserve has assigned to them are the ones that we would 
be looking to move to Little Rock to achieve the synergy that 
we want to achieve, and the savings we would like to achieve.
    We have looked at it really hard to make sure that the 
403rd and Frank Amodeo, the wing commander, has everything he 
needs to continue to conduct that mission for the Nation. And I 
do not see any adverse impact to the mission at all.
    Senator Cochran. Very good. Thank you for that explanation.
    Thank you very much.
    Senator Durbin. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. The chairman asked 
a couple questions I was thinking about, on the Apache and 
others, so I won't repeat that.
    But I think we all know we have to not only rethink our 
approach to security because of the changes in the world and 
our fiscal policy, but it is probably something that we should 
do all the time anyway.
    I remember 2 years ago when the Air Force proposed some 
changes that were found unacceptable to both parties here on 
the Hill. It turned into a real battle between the Active and 
Reserve components. Now 2 years later, the Air Force is a model 
for cooperation. General Welsh and Secretary James, I talked 
with both of you about this. And I just wanted to compliment 
you publicly for that. It is a great change in tone, and 
cooperation is so rare sometimes to see around here. I am 
delighted to see it.
    I know, General Grass, that the Army is going through some 
questions on that. I am sure Senator Graham and I will probably 
have further questions, because I am concerned that as we draw 
down dramatically our Guard and Reserves, that if we try to 
bring them back up because of an emergency, there is not going 
to be any there. If we are going to be able to do the kind of 
recruiting they need to do, I hope there will be an 
understanding that sometimes these cuts are pennywise and pound 
foolish. And I hope you would agree with me.
    I don't mean to put you on the spot. But I just want you to 
know how I feel about it.
    The Commission on the Structure of the Air Force showed the 
right destination for a Total Force and how we should get it 
done.
    Secretary, will you continue to make use of the expertise 
of the commissioners and their staff?
    Ms. James. So, Senator, I think they delivered just a fine, 
fine body of work overall, so I would like to just say that 
publicly. And I know many of the commissioners, and I am 
certain that we are going to continue to call upon their 
expertise in the future. And there is an awful lot about that 
report that we absolutely agree with. There are a couple points 
of disagreement, which we can talk about if you would like. But 
overall, it is an excellent report.
    Senator Leahy. I look at our Active association with our 
fighter wing in Vermont. Nobody would ever be parochial in 
their questions from this panel, so I will not break that. But 
I don't think it is as active as would be possible.
    I hear from Active pilots their concerns about careers 
after service with the National Guard, so we should look at 
increasing the number of airmen in Active associations and the 
incentives about serving a tour in a different component.
    Ms. James. So going forward, in perpetuity, I will say, we 
in the Air Force have what we call our Total Force Continuum 
teams. So this is a team of Active, Guard, and Reserve officers 
who are forever now going to be helping us move forward in 
terms of looking at: Can we rely more and more on the Guard and 
Reserve?
    And the area of association has been a great success story 
for us over all. I think we now have more than 100 different 
types of associations in the Air Force, and I think the key 
next step there is to capture the lessons learned from those 
associations. So as we take it forward in the future, we can 
apply those lessons learned and do an even better job of it.
    Senator Leahy. Well, as you work for Total Force 
integration, it means that you have to make some tough 
decisions, and I am confident that you will. But I would hope 
that as you go on some of those, and it is going back and 
forth, don't ever hesitate to call us up here on the Hill. You 
have a lot of people in both parties who care greatly about 
where we are not only today, but where we are going to be 10 
years from now. And you continuously have to plan for that 10 
years from now.
    If I have further questions, I will submit them for the 
record, Mr. Chairman.
    Senator Durbin. Thank you, Senator Leahy.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Leahy and I will be getting back with the Active 
Duty and Guard to see if we can help you come together. And I 
would suggest you take us up on it.
    Now, General Welsh, if you took the United States out of 
NATO (North Atlantic Treaty Organization), in terms of airlift 
capability for NATO troops, what would we have left?
    General Welsh. It would be dramatically reduced, sir, with 
limited capability in a few countries. And there is a 
consortium that does support NATO occasionally and the 
strategic airlift wing in Hungary, not just NATO countries, 
NATO----
    Senator Graham. Would you lose like 90 percent of the 
capability?
    General Welsh. Sir, I don't know the number. A lot of the 
capability.
    Senator Graham. Yes. A vast majority?
    General Welsh. In the strategic airlift, we would. In the 
tactical airlift with A-400 acquisition by a number of the 
countries, they are actually improving their capabilities. But 
it is a large number, Senator.
    Senator Graham. A large number. So the NATO countries 
outside the United States, are they ramping up their defense 
spending or not?
    General Welsh. No, sir, they are not.
    Senator Graham. Okay. So when you look out over the next 10 
years, would you say that our allies are going to be spending 
less money, not more, on defense?
    General Welsh. There are a lot of allies, sir.
    Senator Graham. NATO.
    General Welsh. I know the general trend is down in Europe. 
There are a few exceptions where percentage GDP (gross domestic 
product) on defense spending is actually going up, but there 
are a very few numbers of those countries.
    Senator Graham. How many countries in NATO spend more than 
2 percent of GDP on defense?
    General Welsh. The last I can accurately tell you is 18 
months ago was the last time I looked, and there were four.
    Senator Graham. Four. Okay.
    I just want the committee to know that we are entering into 
a world where we have less capable allies. I am sure it is 
budget-driven, too.
    Secretary James, Madam Secretary, I want to applaud you and 
General Welsh and the whole Air Force team for taking the 
sexual assault issue head on. And I understand that our pilot 
project in the Air Force is spreading to the other services, 
where a sexual assault victim would be assigned an individual 
judge advocate. Is that correct?
    Ms. James. That is correct.
    Senator Graham. Do you have the money you need in this 
budget to continue the progress you are making in terms of 
dealing with the sexual assault problem?
    Ms. James. I believe that we do, yes. And as you said, we 
are on it, and it requires constant vigilance and leadership, 
and we are committed to it.
    Senator Graham. To our Reserve components, at the height of 
the Afghan-Iraq conflict, what percentage of C-17s and C-130s 
missions were being flown by either Air Guard or Air 
reservists? Do you know?
    Let's start with the C-17.
    General Clarke. Sir, I don't have the numbers. I would have 
to get back to you with the actual numbers.
    [The information follows:]

    The Air Force Reserve deployed individuals to the Afghan-Iraq 
conflict 15,524 times in support of C-17 and C-130 operations, 
compiling a total of 713,855 Active Duty man-days served from 2003-
2013.
    The Air Force has not calculated the specific percentage of C-17 or 
C-130 missions flown by Air National Guard or Air Force Reserve members 
at the height of the Afghan-Iraq conflict since no one central office 
tracks this data or adjudicates the credit for missions flown. The data 
requested is embedded in archived databases and requires a significant 
amount of time to recall, sort, filter, analyze and adjudicate to 
present in the format requested.
    In addition, for the United States Transportation Command missions, 
some sorties may have contained a crew complement of both Regular Air 
Force and Air Force Reserve aircrew members.

    General Jackson. Senator, I have to report back on the 
Reserve piece of that also. But I will tell you that progress 
is being made to actually capture all of that data.
    [The information follows:]

                            tactical airlift
    The Air Reserve Component as a whole flew the following during 
calendar year 2011:

------------------------------------------------------------------------
                                                    Percentage
                                         -------------------------------
                                            Air Reserve     Active Duty
                                          Component flew       flew
------------------------------------------------------------------------
C-5.....................................              53              47
C-17....................................              23              77
C-130...................................              49              51
KC-135..................................              53              47
KC-10...................................              15              85
------------------------------------------------------------------------


    General Jackson. One of the things we are doing is to do an 
electronic capability to look at every single member and each 
component to capture that data.
    Senator Graham. And the reason that is important, because I 
think it is over 50 percent, over half the aircrews during the 
height of the war were reservists and Guard members.
    General Welsh, does that sound about right?
    General Welsh. Senator, it does. Just from the perspective 
of well over 50 percent of our airlift fleet of C-130s are in 
the Reserve component.
    Senator Graham. Okay. Is there a statutory cap on how long 
you can bring somebody onto Active Duty? Is there a time limit?
    General Jackson. If I may, sir, currently, the 1,095 
limitation is if you have someone on Active Duty and MPA 
(military personnel appropriation) status, Reserve or Guard 
members, that is one of the first milestones, if you achieve 
that. Now we have the capability to go past that two other 
numbers, but there is a limitation as to how long you can keep 
a member on.
    Senator Graham. Is it 2 years?
    General Clarke. Yes, sir. It is 1,095 days consecutive that 
would be counted against you as a part of the end strength. But 
there are some places where you can change that number a little 
bit. But that is the basic number.
    Senator Graham. How many people crossed that number, but 
decided to serve anyway?
    General Clarke. Sir, I would have to get back to you with 
the numbers. I don't have those.
    [The information follows:]
                  statutory cap on active duty service
    From the beginning of October 2011 through the end of September 
2013, there were a total of 1,965 Air Force Reserve members who crossed 
the 1,095 day threshold and continued to serve in support of 
operational missions.
                  statutory cap on active duty service

          FISCAL YEAR 2008-2014 APPROVAL/DISAPPROVAL STATISTICS
------------------------------------------------------------------------
           Fiscal Year              Processed     Approved   Disapproved
------------------------------------------------------------------------
2008.............................          186          181            5
2009.............................          182          169           13
2010.............................          385          354           31
2011.............................           30           30            0
2012.............................           25           23            2
2013.............................           23           18            5
2014.............................            4            2            2
                                  --------------------------------------
      Overall Totals.............          835          777           58
------------------------------------------------------------------------


    Senator Graham. It is a lot.
    So the point is, if they all decided that I am tired, I 
don't go back, I think we need to look at that, because if 
half, at least half, of the missions being flown are Guard and 
reservists, and you have a statutory limit on how long they can 
serve, we need to make sure--do you agree that could be a 
conflict?
    General Clarke. I can just tell you in my time in the Air 
Guard, it has changed quite a bit. In the Air Guard I joined, 
people built their Guard life basically around their civilian 
life. And I noticed over time that people have built their 
civilian life around their Guard life.
    Senator Graham. I think that is well-said. And that is a 
fundamental shift, and we need to address that and understand 
that this is a fundamental shift in the way people serve.
    Back to our favorite subject, the A-10, the idea of losing 
the A-10, General Grass, is that a good thing or bad thing from 
your point of view?
    General Grass. Senator, as a ground forces guy, it is bad. 
But General Welsh and I have worked through this and he has 
explained why and I totally support his answer.
    Senator Graham. And I understand, General Welsh, the 
dilemma you face. I mean, we created this problem, not you. You 
didn't pass sequestration; we did.
    I believe that what Senator Durbin was saying, that the A-
10 is unique. The F-15 and F-16 are great airplanes, no doubt 
about that, but the ability to get back on the target is 
faster. The ability to survive in a close air support 
environment is at least equal if not superior. And it will be 
2021 before we have any large numbers of F-35s; is that 
correct, General Welsh?
    General Welsh. That is when a full operational capability 
is reached.
    Senator Graham. If everything goes well.
    General Welsh. Yes, sir.
    Senator Graham. Okay. So for about $3.5 billion over the 
next 5 years, if we could find the money, you could afford to 
keep the A-10 on board; is that correct, if you have the money?
    General Welsh. Sir, this will probably inflame you a bit, I 
don't think that is the issue.
    Senator Graham. No, I understand.
    General Welsh. The issue is what Air Force do you want at 
the end of sequestration. Is it the Air Force you need against 
the threat and the scenarios at----
    Senator Graham. Are you retiring the A-10 because it is no 
longer relevant to the fight, or because of budget problems?
    General Welsh. No, sir. Because of budget problems, 
clearly.
    Senator Graham. All right.
    General Welsh. But we have other airplanes that can do 
close air support. There other things that if you give up those 
airplanes, you cannot do with an A-10. That is the balance that 
I am referring to.
    Senator Graham. I got it. But if you think that airplane is 
a good fit for the Army for the next few years to come, and the 
reason you are retiring the airplane is because of budget 
problems, what if we fix the budget problem? Would you keep the 
airplane?
    General Welsh. Sir, as I mentioned, I think it is a bigger 
issue. The pilots, for example, from the A-10, will help 
populate other systems like the emerging of F-35 squadrons. The 
maintenance folks from the----
    Senator Graham. But if you use the squadron, it doesn't 
exist. A-10s exist. F-35s are not around. So it is hard to 
deploy a squadron you don't have.
    The last question about space launch vehicles, the Evolved 
Expendable Launch Vehicle, the Air Force was directed to open 
that up to more competition. It is my understanding that in 
2015, the Air Force is not going to allow any competition. And 
between 2015 and 2017, instead of 14 launches subject to 
competition, you are going down to 7. Is that true, Secretary 
James?
    Ms. James. So the numbers that you quoted, Senator, in 
terms of the decrease, it is because those 14 launches now some 
of them are beyond the 5-year plan. So we are still projecting 
them, but we have pushed them out because it turns out those 
particular launches are for GPS satellites, and those 
satellites are lasting longer than anticipated, so we don't 
need to do those launches as early on as possible.
    Senator Graham. So I am confident that the Air Force is not 
reducing competition. We are just having fewer launches because 
of the lack of need; is that right?
    Ms. James. Absolutely not reducing competition. We are in 
favor of it. And the quicker----
    Senator Graham. Senator Durbin and I are going to make sure 
that withstands scrutiny, because that is the right answer.
    Thank you.
    Senator Durbin. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I want to take up where you left off on the United Launch 
Alliance.
    I was first visited by them on May 23, 2012, and they told 
me about the fact that two big American defense companies were 
going to come together, and instead of competing, that they 
could lower costs through this alliance.
    Well, it turned out that year, they couldn't. The cost went 
up 60 percent. At the end of that year, Frank Kendall wrote a 
memorandum, which I ask be included in the record, which 
essentially said that these launches would be competed. And 
since then, costs have continued to go up.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
        

    Senator Feinstein. The GAO (Government Accountability 
Office) pointing out enormous cost increases, and the budget 
document points out how costs actually have increased. And I 
gather on a per core basis, the price has increased about $186 
million from 1 year to the next.
    Candidly, I find that unacceptable. If I understand what 
you told the committee through Senator Durbin's question, the 
Air Force was directed to compete up to 14 cores with an 
initial contract award as early as 2015. Today, you are saying 
that is eight.
    The thing of it is: You are still allowing 35 cores to ULA 
with only 8 competed. And so it seems to me that what Frank 
Kendall wanted, opening the program to competition, is really 
not happening. You are really reducing the ability for 
competition.
    And I recognize that outside companies may be looked at 
differently than two big huge defense companies, but the cost 
just continues to go up.
    So I have a very difficult time understanding the Air 
Force's resistance to say anticipated costs, which have gone 
up, we are going to really compete these cores and allow for 
free and open competition for just as many as people qualify 
for.
    Ms. James. So, if I may: First of all, I agree with 
everything you said in terms of the desire for competition. And 
I tell you that is absolutely what I want.
    Now, this particular contract I think that you are talking 
about, which was the so-called sole-source to ULA, which locks 
in, I believe it is 36 cores----
    Senator Feinstein. Rather than 35, okay.
    Ms. James. Or it might be 35. So let me come back on the 
record on that. But that is about the order of magnitude.
    [The information follows:]
                              engine cores
    The Launch Vehicle Production Services contract with the United 
Launch Alliance is for 35 cores out of the 36 cores used in pricing the 
deal. The other core was procured in fiscal year 2012 using the 
previous contract.

    Ms. James. That was signed in December actually before I 
got there. But I am told that that particular contract locked 
in cost savings of $1.2 billion to the taxpayers, as compared 
to what the ``should cost'' analysis said.
    So in other words, your information is a little bit 
different from my information. It sounds to me like the costs 
are getting better.
    But with that said, there is no doubt in my mind that even 
the threat of competition probably helped those numbers come 
down.
    So the quicker we can get other companies qualified to 
compete, the better, as far as I am concerned.
    And again, by the end of 2014, I believe they will be 
qualified to compete for the lights. And by 2017, they will be 
able to compete for the heavies as well, which means the whole 
thing would be opened up to competition.
    Senator Feinstein. Well, let me just quote a sentence from 
the GAO report of last week: ``The program is estimated to cost 
over $70 billion through 2030. EELV program officials are 
currently conducting activities to certify new launch providers 
and signed a contract modification to procure additional EELV 
launches.''
    Now, if those launches are almost 3-to-1 in cost to a 
competitor, why would this make sense?
    Ms. James. Well, I have to believe the $70 billion is their 
extrapolation taking the data of today and simply going to 
2030. And if we can't do better than that, then shame on us. 
And I am convinced that competition will help us as we move 
forward, and as we get these new competitors qualified to be 
part of that competition.
    Senator Feinstein. Well, I have watched this now for some 
time. Six of us are sending a letter to the Secretary of 
Defense, and asking him to take a look at this program. I am 
very worried that the costs are not going to be lower in any 
way, shape, or form. Over time, of course, costs go up. But I 
am worried about the costs going up exponentially.
    And what this has said to me, that when you put two big 
defense contracts together, it is a problem. The costs don't 
drop.
    And, as you know, there was a huge upfront payment to them, 
as I understand it, as well. And so my view is that there 
should be full and free competition, and additionally, the main 
competitor, let's put it on the table, is SpaceX. It is all an 
American rocket. That has a great deal of attraction, I think, 
to the American people.
    If it can come in competitively, what this says about 
American ability is enormous.
    So to lock them out by reducing the number of launches that 
they can qualify for, which is my understanding of what has 
just been done, I don't think it is the right thing.
    Ms. James. And I totally agree with you on competition, and 
that is absolutely the way I want to move as well. And I am 
going to be pressing for that.
    The launches that are reduced, they are not reduced in the 
absolute. They are just delayed, and the reason for that delay 
was because we don't need them as quickly because the existing 
satellites are lasting longer. It had nothing to do with 
locking someone out of competition. That is the absolute last 
thing that it related to.
    Senator Feinstein. Well, when will the first competitive 
launches begin? And how many launches, for the record, will be 
competitive at that time?
    Ms. James. So may I come back to you on the record for 
that? But my understanding is, in terms of the overall numbers, 
there are eight in that light category over the next 5 years; 
seven of those eight will be competitive.
    Senator Feinstein. Beginning when?
    Ms. James. That is what I need to come back to you on, 
please.
    [The information follows:]
                          competitive launches
    Seven of the eight light missions will be competed in the next 3 
years beginning in fiscal year 2015. One competitive launch service 
opportunity will be procured in fiscal year 2015 for launch in 2017, 
assuming that the SpaceX Falcon 9 v 1.1 is certified before the planned 
award of National Reconnaissance Office Launch-79 in December 2014. 
There are six more competitive launch opportunities spread across 
fiscal years 2016 and 2017.

    Senator Feinstein. Okay. Fair enough. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Welcome to all of you.
    General Welsh, I want to give a special thank you for your 
leadership and decision as it related to the F-16 Aggressor 
Squadron there at Eielson. I think I speak for the entire 
Alaska community in thanking you for that decision.
    I want to address my comments this morning to you, though, 
as it relates to the F-35s and basing in the Pacific. It is my 
understanding that PACAF is going to be the second operational 
location for the F-35s.
    I, certainly, see that benefit. We have had this 
conversation before. But I would like you to just briefly 
explain to the subcommittee why it is so important to expedite 
placement of this fifth-generation fighter into the Pacific.
    And then if you can also address this concern: We were told 
at the briefing, the USG staff briefing, that if sequestration 
funding levels continue, we might see the F-35 buys reduced by 
17 aircraft. What, if anything, would that do to the Air Force 
basing strategy in the Pacific?
    General Welsh. Senator, the importance of the F-35 in both 
the Pacific and European theaters, number one, we have partners 
in both theaters who are going to buy airplane as well, and 
being able to work and train with them side-by-side develops 
greater coalition warfighting capabilities for the future, so 
that the U.S. doesn't have to do as much on their own. We can 
get support from partners in contingency operations in the 
future.
    It also promotes other kinds of understanding and 
cooperation between nations.
    The F-35's technical and warfighting abilities are also 
very well-suited for a very highly technical threat in that 
part of the world, and it will be important for us to train in 
that environment.
    The actual basing process, this summer, we should announce 
the preferred and alternative choices for the Pacific beddown. 
As you know, the site surveys are ongoing now for the bases 
that were nominated by the Pacific air forces to be included 
for the Pacific beddown. And so we should have the next 
decision point this summer.
    Senator Murkowski. And, of course, you know that I will 
continue to maintain that when we are talking about the 
proximity to the Pacific theater, the polar considerations, 
that Alaska and particularly Eielson is the ideal location for 
the F-35s there when it comes to the PACAF basing. So we will 
await the outcome of the site surveys the summer.
    General Grass, I wanted to ask you, again, some sensitive 
issues as it relates to sexual misconduct and allegations 
involving our Alaska National Guard.
    Last week, our Governor asked the National Guard Bureau to 
initiate an investigation into sexual misconduct allegations. 
Unfortunately, this isn't new. This was revealed in our State's 
largest newspaper last fall. I spoke about this on the Senate 
floor. These were, in fact, the same allegations that my office 
forwarded to the Department of Defense Inspector General on 
June 19 of last year.
    This, of course, is a great concern. The issues that we 
have been debating here in the United States Senate is to the 
process and how we move forward with the chain of command.
    From Alaska's perspective, and what we have seen and the 
failure to find closure with respect to these allegations, 
really leaves a cloud out there. The question to you this 
morning is whether or not the National Guard Bureau is 
coordinating its investigation with others who may also be 
conducting investigations at this time? What is the status of 
these investigations? When will we know something? And will the 
outcomes be transparent, because I think that is absolutely 
critical along the way?
    General Grass. Yes, Senator. About 2 years ago, we stood up 
an office of complex investigations with trained investigators, 
trained out of Fort Leonard Wood, Missouri. And what we have 
done at request from the State is sent up an investigation team 
about 3 weeks ago. That was the first visit.
    We are looking at a broad brush of complaints, and we will 
do the analysis. I am free to come and brief you in more detail 
on where we are in that and how much time it might take.
    Senator Murkowski. I would appreciate that. But I would 
also like assurance that when the investigation is concluded, 
that there again be a level of transparency with reports with 
the outcomes.
    General Grass. Yes, ma'am. And the reason we did stand up 
the office of complex investigation was exactly for that 
reason, that we could bring someone from the outside the State 
and provide a report back to the Governor.
    Senator Murkowski. I appreciate that. Thank you.
    Secretary James, in your opening remarks, you confirmed 
that a return to sequestration in fiscal year 2016 could 
potentially kill the Combat Rescue Helicopter.
    As you know, in Alaska, we have amazing men and women 
within our Air National Guard Rescue Squadrons. They do some 
amazing rescues in some pretty incredible places. Last year 
alone, they saved 101 lives; over 2,000 lives saved since 1991. 
What they do is, again, just amazing.
    But in order to do amazing things, they need to have 
equipment. They need to have helicopters that are state-of-the-
art.
    We are told through our adjutant general, he says that the 
HH-60s with all the punishment that it takes up North and on 
the battlefields, he figures they have about 3 years left in 
them. And they are stretching this even with great maintenance 
and all that they do. But the mission capable rate is falling.
    So with the decision to move forward with the Combat Rescue 
Helicopter, know how much I support this and think that this is 
the right step. I think it is great that the Air Force is 
moving forward with the program, but you have this gap in 
funding across the Future Years Defense Plan. Assuming that we 
can fix the burden of sequestration, what are your plans to 
cover this gap and ensure the program remains on track going 
forward?
    Ms. James. So we estimate that we will need to shift about 
$430 million or so within the 5-year defense plan. So we are 
talking about options for doing just that.
    Of course, there are monies beyond the 5-year defense plan 
that will also be coming due eventually, but what we need to do 
is figure out in the fairly near term that $430 million bill.
    And if I could just say, I agree with everything you just 
said about the Combat Rescue Helicopter. And to me, having to 
reopen that and all of these other decisions that we would have 
to be faced with, if we return to sequestration levels, would 
just be really bad. And I really, really hope that we don't 
come to that.
    Senator Murkowski. Well, we need to work with you, of 
course, on that.
    But what I am hearing you say, though, is that you are 
preparing as to how you would address this gap if we are able 
to address the sequestration issue.
    Ms. James. Yes. That is correct.
    Senator Murkowski. Good. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. And thank you for 
your leadership on this.
    General Welsh, let me start with you and say thank you for 
coming to Fort Smith, Arkansas, whenever that was, to look at 
the 188th down there and the A-10 situation. We appreciate your 
efforts on that.
    And just as a refresher, the A-10s--the last two A-10s--we 
think, will leave around June 2014, and the MQ-9 doesn't hit 
that fully operational capability status until sometime in 
fiscal year 2020. So that is a pretty big gap there. And, of 
course, I have some concerns there about personnel and what the 
folks in Fort Smith and the 188th will be doing in the interim.
    Can you walk me through that gap and tell me about 
personnel and just the capabilities they have there, during 
that gap period?
    General Welsh. Senator, as you know, we delayed the 
departure of the A-10s to make it a little slower departure and 
transition for the unit. We built the timeline based on that 
desire. And so we do have crews that have already gone through 
some of initial training in the new platform.
    They are actually operating on a TDY basis with other 
units, so they are building their experience level. We 
anticipate these folks will be the instructor cadre at Fort 
Smith as we do the full transition.
    It will take a couple years to go from initial operating 
ability to full operating capability as hardware, software, and 
people are trained and arrive.
    But the game plan right now, as far as I know it--I will 
check with General Clarke here to confirm it--is on track. It 
is on the schedule we built a year ago and ran by you.
    Senator Pryor. Great. I know that in the fiscal year 2014 
defense appropriations bill, we had some report language about 
beginning the RSO training and whatnot in that 2014 timeframe. 
Just a quick status report on that, are you happy with where 
that is? Do you think that is progressing as it should be?
    General Welsh. Senator, let me defer briefly to General 
Clarke on the specifics, but, yes, I got that we are on track.
    Senator Pryor. Great. General Clarke.
    General Clarke. Yes, Senator, Arkansas guardsmen are 
remarkably resilient going through this mission change, and 
that takes really good leadership to make sure that happens, 
giving the people a picture of what the future looks like and 
where they are going, and they are doing a good job of that.
    All of the different parts that you are talking about, what 
is key to that is that they get the appropriate training and 
opportunity to do the tech schools, and a little bit of 
flexibility built into the system to ensure that when they hit 
the ground, they hit the ground running.
    That is one thing we do in Air National Guard very well. 
When we are given a new mission, we take it on with a lot of 
gusto and we do a great job of picking it up. And I know the 
Arkansas Guardsmen will do the same thing.
    Senator Pryor. I think ``resilient'' is a good word, 
because they just went through that F-16 to A-10 transition, 
and now they are going from A-10 to the RSO transition. So I 
think they are very resilient. And they have a lot of pride 
about what they do down there.
    General Clarke. Yes, sir.
    Senator Pryor. So that whole community is very, very 
committed to making sure this gets done. And it is something 
they are very proud of.
    Now, one other question, and I don't know General Clarke, 
if you are the best one, or General Welsh, I am not quite sure. 
But just one of the local matters we have there with losing the 
A-10s is our crash and rescue there at the airport. It is the 
Fort Smith Municipal Airport.
    Now, that may be a little bit below your pay grade, but it 
is not below my pay grade to worry about things like that.
    So do we know when we might anticipate that those funds, if 
they do dry up, when they might dry up for the crash and 
rescue? Do we know that?
    General Clarke. Sir, typically, after the mission goes 
away, where it requires the crash and rescue personnel, there 
is a transition period built in there. And whenever that date 
is set, we will give them an opportunity to transition.
    Our concern remains that for years we provided that 
capability there for the local airport. It is one of our great 
partnerships that we have around all of the communities that we 
serve. What we hope is that there is a good transition. And 
oftentimes, we find the equipment to allow the locals to 
transfer the equipment, if you will, for them to use and 
continue to sustain that, but they use different personnel, 
obviously, to do that mission.
    Senator Pryor. Yes, I would like to work with you on that. 
So we will circle back around after this to talk through some 
of that. So thank you for that. We will see if we can find the 
best landing spot for everybody there.
    And let me also, General Welsh, while I have you here, let 
me change gears and talk about the Little Rock Air Force Base. 
I know that Senator Cochran a few moments ago made a mention of 
the C-130s down in Mississippi, and some of the J models are 
coming to Little Rock. Certainly, we are proud of that. But we 
are also losing some H models.
    Let me just say this while I am thinking about it. The 
leadership at Little Rock Air Force Base is top notch. They are 
great. There are a number of folks there who are in leadership 
positions. I was with Colonel Brewer this weekend and I mean, 
just really just top-notch, well-motivated. Everybody on that 
base is really great. And again, the whole community supports 
that.
    But let me ask about that sort of change there, where we 
are getting 10 new C-130Js. We are losing, I believe, it is 12 
C-130Hs. I know there is always going to be some change and 
transition there.
    My understanding is we are losing some personnel there as 
part of this. Do you have a sense of what those numbers are and 
what that timetable is like?
    General Welsh. Sir, we can get you the exact numbers of 
people who are affected by this. It is not a very large number. 
JJ will probably know in the Reserve unit because he was 
looking at this yesterday, so let me let him answer that.
    General Jackson. Thank you, Chief.
    Senator Pryor, it is approximately 60 positions, most of 
those are part-time positions. Sixty positions total at Little 
Rock from the Air Force Reserve footprint that we currently 
have there, as Archie Frye, Colonel Frye, transitions from the 
Field Training Unit (FTU) into the combat-coded 
responsibilities there.
    Senator Pryor. So does that mean that all the loss will be 
in the Reserve component? Or will there be some Active Duty 
loss?
    General Jackson. Well, sir, currently, we are taking 60 out 
of the Air Force Reserve component. We are working with the 
Active Duty side, because that association is outstanding, like 
you mentioned.
    We have an Active association that is tied to that Active 
Air Force Reserve unit equipped squadron and group there. So as 
we work through that part of that, we are looking for the 
synergy to find where we can go ahead and take the backshop and 
whether it has to be a full-time or can be a part-time type of 
situation, and how we integrate every level of that, so we are 
still working through that.
    Sir, I will have to get you any answer on the Active Duty 
manpower numbers.
    [The information follows:]
                          competitive launches
    The Active Component at Little Rock AFB, Arkansas will reduce by 
-70 positions as the Active Association converts to C-130Js.

    Senator Pryor. That would be great.
    General Welsh. Senator, I would offer that Little Rock is 
the home of tactical airlift for us. It is one of the gems of 
the United States Air Force.
    What we are trying to do is make it more efficient, in ways 
that we can, not figure out how to get rid of anything in 
Little Rock.
    Senator Pryor. No, I recognize that, and I recognize your 
commitment to Little Rock Air Force Base and the important role 
it plays for you. So don't take that as a complaint.
    But, of course, the community reaches out to me and says 
what should we expect here? What is this we hear? Those types 
of things. So I thought I would ask you about that directly. 
And again, we will follow up afterward.
    But again, thank you for all of your service to this great 
country and just thank you for what you do. Thank you.
    Senator Durbin. Thanks, Senator Pryor.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you to the panel, Secretary James, and the general 
officers who have joined us today. We will have some questions 
in writing, which I know you are really familiar with, in the 
hopes that you can respond on a timely basis. We will add those 
to the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Deborah Lee James
             Question Submitted by Senator Patrick J. Leahy
         national commission on the structure of the air force
    Question. Secretary James, will you provide a list of the 
recommendations of the National Commission on the Structure of the Air 
Force that you have already implemented or are planning to implement, 
and how you have or will do so? Will you also provide a list of other 
initiatives you have already implemented or are planning to implement 
to pursue Total Force Integration?
    Answer. The Air Force believes the Total Force cannot succeed 
without all three components--the Active, Guard and Reserve--each 
providing its unique value to the Nation. Each component is equally 
represented within the Total Force--Continuum (TF-C) working group, in 
its efforts to address two lines of effort (LOE) initially established 
by the Total Force Task Force (TF2). Through these LOEs the TF-C will 
strive to develop recommendations that maximize the contributions of 
the Total Force, eliminate cultural and organizational barriers to 
effectiveness, and provide cost-savings opportunities that minimizing 
risk to Air Force capability.
    The TF-C identified 10 National Commission on the Structure of the 
Air Force (NCSAF) recommendations as initiatives currently being 
implemented, or planned for implementation. These recommendations are:
    1-Cost Approach (DOD tasking).--The Department of Defense (DOD) 
should formally adopt the ``fully burdened cost'' approach to 
calculating military personnel costs, and it should apply analytic 
methods that focus on appropriate outputs along with life-cycle costs.
    6-Staff Integration.--The Air Force should integrate the existing 
staffs of Headquarters Air Force, the Air Force Reserve, and the Air 
National Guard.
    8-Full-Time and Part-Time mix.--The combination of full-time and 
part-time positions should be determined for each unit depending on 
weapon system requirements, deployment, and rotation schedule based on 
optimum matching of the needs of the Air Force, family, and employers.
    18-TF Competency Standards.--Commander, Air Education and Training 
Command (AETC) in coordination with the Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs and AF/A1, should develop a 
Total Force competency standard for officers, non-commissioned 
officers, and enlisted Airmen across all specialties and career fields 
before the end of fiscal year 2016.
    19-Access to Non-Residence Education.--Commander, AETC should 
ensure that revised curriculum and competency standards are achievable 
by appropriately structured non-resident education programs equally 
accessible to personnel of all components.
    23-Non-Disclosure Agreements.--The Secretary of the Air Force 
should discontinue use of Non-Disclosure Agreements in the corporate 
process.
    34-Integrated Personnel Management.--The Air Force should unify 
personnel management for all three components under a single integrated 
organization (A1) in the Headquarters Air Staff.
    35-Integrated Pay/Personnel.--The Air Force should accelerate the 
development of an Integrated Pay and Personnel System.
    39-Continuum of Service.--Implement a pilot project of Continuum of 
Service that demonstrates the ability of an Airman to transition more 
seamlessly among the three components.
    40-Active Duty Service Commitment.--The Air Force should revise the 
rules for current Active Duty Service Commitments to enable members to 
meet the commitment in some combination of Active, Reserve, and Guard 
service.
    The Air Force is committed to a comprehensive assessment of NCSAF 
recommendations, sensible application where it makes sense, and 
enduring focus on leveraging the Total Force.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
         national commission on the structure of the air force
    Question. As I reviewed the report and recommendations of the 
National Commission on the Structure of the Air Force, I was struck by 
the Commission's thoughts on the proper balance of force and 
capabilities between the active and reserve components. While I 
understand that their end strength recommendations came too late for 
the Air Force to review before it submitted its budget, I was struck by 
how the Air Force could maintain its overall end strength, overall 
capabilities, and its strategic depth, as well as save the taxpayer 
money by shifting more personnel and capabilities into the reserve 
components.
    As the Air Force is reviewing its force balance in light of new 
missions, new priorities, new strategies, and new budget constraints, 
has the Air Force studied and examined ways in which it could implement 
a major rebalancing of its force? If so, how did the Air Force's 
findings concur with or differ from the Commission's recommendations?
    Answer. The Air Force is undertaking a comprehensive review of 
every mission area to determine the optimum Active and Reserve 
Component balance. The foundational data and analytical approach 
applied is highly consistent with what was used by the National 
Commission on the Structure of the Air Force (NCSAF). We strengthen 
this analysis with a recently developed High Velocity Analysis model 
that uses more highly refined data and analysis to arrive at a more 
precise Active/Reserve Component mix recommendation. This enhanced 
precision comes through modeling that better accounts for rotational 
and non-rotational force analyses and the impacts of Active/Reserve 
component rebalancing choices on defense planning scenarios that 
include homeland defense requirements; our initial assessment of all 42 
NCSAF recommendations is highly positive. We expect to have 80 percent 
of the force assessed using the High Velocity Analysis model in time to 
deliver the fiscal year 2016 President's Budget request.
                        air logistics complexes
    Question. As you know, the commercial aircraft industry has 
developed and deployed a variety of new alloys, components, and 
manufacturing processes in recent years that enable the fabrication of 
components and subsystems providing equal or superior performance, with 
dramatically increased reliability, at reduced cost. I was pleased to 
learn that the Air Force Research Laboratory (AFRL), the Air Force Life 
Cycle Management Center (AFLCMC), and private sector industry are 
working closely to develop and certify component parts for legacy 
aircraft, including the KC-135, C-130, B-52, F-15, and C-5 aircraft. 
These initiatives combine private sector research and development with 
commercial materials and manufacturing processes to offer low-risk, 
low-cost methods to address the need for parts that are no longer in 
production. This type of partnership appears to offer a potential 
framework that could in the future be scaled up to support Air Force 
life cycle weapons systems management, depot maintenance, and supply 
chain management objectives.
    Could you provide the subcommittee with an update on these 
collaborations between the Air Force Research Laboratory (AFRL), Air 
Force Life Cycle Management Center (AFLCMC), and the private sector, 
along with the Air Force's plans to implement resulting component 
solutions at the Air Logistics Centers in order to address these 
readiness and sustainment challenges?
    Answer. This response provides an update on these collaborations 
between the Air Force Research Laboratory (AFRL), Air Force Life Cycle 
Management Center (AFLCMC), and the private sector, along with the Air 
Force's plans to implement resulting component solutions at the Air 
Logistics Centers in order to address these readiness and sustainment 
challenges. The Air Force initiated an HH-60 pilot program utilizing 
fiscal year 2013 National Defense Authorization Act (NDAA), Section 332 
authority. This act authorized appropriations and expenditures for the 
Air Force to utilize working capital funds for product improvement 
covered by a pilot program. Partnering with the Army and Goodrich 
Corporation, the Air Force introduced a joint program to expand the HH-
60 integrated vehicle health management system. We are striving towards 
full implementation with expectations of improvements in system 
maintenance, reliability, and safety. Further, we are identifying 
additional weapon system sustainment technology needs which fall within 
fiscal year 2013 NDAA criteria such as cadmium and other corrosion 
prevention coatings for the A-10. As we continue to work such 
initiatives, Air Force Materiel Command (AFMC) will be equipped to 
identify and recommend further changes to enable even greater 
efficiencies for weapon systems support.
    Additionally, AFRL and Alcoa have collaborated through the Legacy 
Aircraft Structures Modernization Opportunity (LASMO) Program providing 
support to several depot-maintained weapon systems. As a result of the 
collaborative effort, the C-5, C-130, F-15, KC-135 and B-52 program 
offices identified and provided prioritized lists of problematic 
aluminum parts. From those efforts, LASMO-developed technology is now 
incorporated into the C-5 and KC-135 with on-going evaluations underway 
for the C-130 and other remaining platforms. Our successful KC-135 
implementation approved multiple stringers, spar chords and wing skins 
for production using commercially available modern alloys with superior 
mechanical and corrosion performance. Also, our successful C-5 
implementation approved the C-5 Batman fitting which is now 
incorporated into the C-5 program, and likewise benefits from superior 
material performance.
    The Aerospace Systems Directorate (AFRL/RQ) via LASMO has 
identified numerous technology options for our weapon systems and 
provided material substitution analysis for priority implementation. 
The technology developed under LASMO is commercialized and readily 
available, enhancing the aluminum material options for future 
investment and contract opportunities.
    The AFSC also works closely with AFLCMC, AFRL, and industry to 
employ new techniques and technologies as the cutting edge of 
manufacturing evolves. AFSC has initiated, within the Air Logistics 
Centers, industry partnerships for rapid incorporation of repair 
technologies. One such partnership will enable us to repair component 
cases and housings utilizing proven additive repair technology. 
Additionally, 3-D printing technology is being employed to support cost 
effective rapid manufacture of maintenance tooling and fixtures. Within 
the supply chain, efforts are underway to qualify non-structural 
aircraft components, such as plastic blower fans, that can be produced 
utilizing 3-D printers at significantly reduced cost.
    Current Air Force acquisition and sustainment processes allow 
opportunities for cooperation with industry and academia to transition 
commercial technologies into Air Force systems. We work closely with 
industry through many collaborative venues such as hosting Industry 
Days and interfacing with industry trade organizations. Furthermore, 
techniques and processes like analyses of alternatives for future 
acquisition programs equip the Air Force to evaluate concepts to best 
meet future requirements. Our industry partners communicate these ideas 
using our Concept Characterization and Technical Description process. 
Additionally, AFMC leverages the Sustainment Technology Process to 
provide visibility and strategic direction to the research, 
development, transition, and implementation of cross-cutting 
sustainment technologies. This process provides a systematic and 
repeatable method for identifying sustainment needs and matching 
existing commercial technologies.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                            launch schedule
    Question. Please list the missions that will launch on the launch 
vehicle cores the Air Force has already ordered from ULA in fiscal year 
2013 and fiscal year 2014.
    Answer. The Air Force has already ordered a total of 14 cores in 
fiscal year 2013 and fiscal year 2014 supporting 12 National Security 
Space missions. Cores already ordered in fiscal year 2013 support Air 
Force Space Command (AFSPC-5), Wideband Global SATCOM (WGS-7), Space-
based Infrared System (SBIRS GEO-3), Global Positioning System (GPS 
III-1), and National Reconnaissance Office Launch missions (NROL-35, 
NROL-45, and NROL-55). Cores already ordered in fiscal year 2014 
support AFSPC-6, AFSPC-7, AFSPC-11, WGS-8, and NROL-37 missions.
                          launch capabilities
    Question. During Secretary James' testimony before the SAC-D, she 
indicated that some missions that were sole-sourced to ULA and/or 
previously planned for competitive procurement could not be lifted by 
new entrants. Please specify which missions set to launch from fiscal 
years 2017-2019 the Air Force believes SpaceX's Falcon 9 1.1 is not 
capable of lifting. Please provide the analysis behind such a 
determination.
    Answer. MUOS-5, AEHF-4, AEHF-5, AEHF-6, WGS-8, WGS-9, WGS-10 and 
NROL-42 satellite mass to orbit exceeds the Falcon 9 v1.1 lift 
capability.
    NROL -44, NROL -68 and NROL-71 require the Delta IV Heavy to 
launch. These missions' mass to orbit far exceeds the Falcon 9 v1.1 
lift capability.
    The AFSPC-8 mission is under development and we now understand is 
outside the Falcon 9 v1.1's planned certified launch capability. Two 
classified mission satellites (NROL-52 and -61) are already on fixed-
price contracts that include provisions for an Atlas V launch vehicle 
provided as government furnished equipment. Additionally, subsequent 
analysis determined that these two missions are beyond the SpaceX 
Falcon 9v.1.1 lift capabilities.
    The planned competitive launch procurements in fiscal years 2015-
2017 for launch in fiscal years 2017-2019 were based upon assessment of 
New Entrant provided schedule and capabilities data. A New Entrant is 
defined as: any launch services provider other than the current 
provider of evolved expendable launch services (United Launch Alliance) 
that wished to compete for EELV-class NSS missions.
    We would be happy to brief you or your staff on more detailed 
analysis, if that would be helpful.
                                gps iii
    Question. At what point, specifically, did the Air Force know that 
launches for the GPS III-2 and GPS III-3 satellites would be slipping 
beyond 2017? Please provide specific documentation.
    Answer. As of the fiscal year 2015 President's Budget request, both 
GPS III-2 and III-3 are planned for launch in 2017. In the fiscal year 
2014 President's Budget request, GPS III-2 was scheduled for a fiscal 
year 2016 launch and GPS III-3 was scheduled for a fiscal year 2017 
launch. The GPS III-2 move from fiscal year 2016 to fiscal year 2017 
was driven by changes in satellite launch requirements.
                       launch capability payments
    Question. The Department of Defense pays the incumbent provider in 
the EELV program upwards of $1 billion per year for launch capability. 
With the imminent introduction of competition into the program, how, 
and when, does the Air Force plan to phase out launch capability 
payments to the United Launch Alliance?
    Answer. The current Launch Vehicle Production Services & Capability 
contract with United Launch Alliance (ULA) funds the capability to lift 
only the missions procured from ULA plus previously ordered missions. 
The Department of Defense is currently in the process of determining 
the best strategy going forward in Phase 2 of the new EELV acquisition 
strategy for a full and open competition between all certified EELV 
providers. We will ensure a best value competition that is in the best 
interest of the American taxpayer and meets the government's 
requirements including readiness to successfully launch national 
security payloads on time to the required orbit.
    Question. Has the Air Force developed a plan to require United 
Launch Alliance to account for these Capability payments when offering 
a price for a launch service in a head-to-head competition with new 
entrants? If so, what is that plan?
    Answer. Both Section 134 of the fiscal year 2014 Consolidated 
Appropriations Act and Section 145 of the fiscal year 2014 National 
Defense Authorization Act direct the Secretary of the Air Force to 
provide the Evolved Expendable Launch Vehicle Acquisition Strategy 
Implementation Plan for Phase 1A competition in a report to the 
congressional defense committees. That plan, currently in the Air Force 
review and approval process, will describe our approach to create 
equitable competition for Phase 1A missions.
                                 rd-180
    Question. Does the United States currently have the approval and 
licensing authority from the Russian Federation and the Russian 
manufacturer, NPO Energomash, to manufacture the RD-180 in the United 
States? If so, how much would this cost?
    Answer. RD AMROSS, a United States joint venture between NPO 
Energomash and Pratt Whitney Rocketdyne, which provides the RD-180 
engines for use on the Atlas V vehicle, has all the approval and 
licensing authority from the Russian Federation and the Russian 
manufacturer to manufacture the RD-180 in the United State. No 
additional license, authorities, or approvals are needed to 
domestically produce the RD-180 engine. The license expires in 2022.
    The Air Force does have the cost data for the RD-180 engine. 
However, this information is proprietary. The Air Force can release 
such information to a congressional committee upon written request of 
the committee chair.
    Question. The Air Force mandates that United Launch Alliance must 
comply fully with Government Cost Accounting Standards in an effort to 
determine price reasonableness. Given this insight, does the Air Force 
understand how much each of the RD-180 engines used on the Atlas V 
costs? If so, how much is each engine? Please provide engine costs for 
each RD-180 engine used for the past 3 fiscal years. Approximately how 
much will the Government spend on RD-180 engines, either directly or 
indirectly, in procuring launch services performed on launch vehicles 
using the RD-180 engine from fiscal year 2013-fiscal year 2017? Please 
provide this information on a per engine basis.
    Answer. The Air Force does have the cost data for the RD-180 
engine. However, this information is proprietary. The Air Force can 
release such information to a congressional committee upon written 
request of the committee chair.
                 return of air force 3-star to shaw afb
    Question. In July of 2012, we discussed the return of the USAF 3-
star Combined Force Air Component Commander (CFACC) to Shaw AFB and you 
projected, along with General Mattis, that the summer of calendar year 
2015 was a viable option. However, you also stated you would re-examine 
and reassess the operational environment in the spring of calendar year 
2014 to determine if this ``change of construct'' will support 
projected operations in calendar year 2015. Given our drawdown in 
Afghanistan, where are we in this process? Are we still looking at 
calendar year 2015 for its return?
    Answer. We continue to support General Austin, Commander, U.S. 
Central Command, and his desire to not return the Air Force 3-star 
CFACC to Shaw at this time. CENTCOM relies on the forward presence of 
the CFACC to deal with security concerns emanating from areas beyond 
just Afghanistan, such as Iran, Syria, Iraq, and Yemen. Forward CFACC 
presence also provides a critical platform from which to support 
security cooperation initiatives with Gulf Cooperation Council nation 
air forces and other regional partners. This presence and the influence 
of the CFACC is of particular importance in reassuring our regional 
partners and allies facing threats from Iran and serves as a counter to 
concerns over our intended shift to the Pacific and the false 
impression that we are abandoning our security partners in the Middle 
East.
    Regarding the drawdown in Afghanistan, the trajectory of the total 
regional security environment remains ambiguous. Once the post-
International Security Assistance Force (ISAF) security situation comes 
into greater focus, U.S. Central Command will have a better idea of 
their long-term footprint and will reassess future positioning of the 
CFACC and timing of a potential return to Shaw AFB.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
                             sexual assault
    Question. Secretary James, I appreciate your leadership in 
addressing military sexual assault. While the Air Force has taken steps 
to increase reporting and assist victims, more must be done to protect 
our men and women in uniform. Can you elaborate on what efforts the Air 
Force is undertaking on the prevention side? Are there ways to prevent 
offenders from entering the military in the first place?
    Answer. Our goal is to eliminate sexual assault in our Air Force; 
therefore, prevention is the cornerstone of our Sexual Assault 
Prevention and Response (SAPR) program. The key elements of prevention 
are the creation of command climates of dignity and respect where the 
contributions of each Airman are valued, where wingmen intervene when 
they see inappropriate behavior and where perpetrators are held 
accountable. To create that culture, we have tasked leadership across 
the Air Force to step forward and deliver that message in person. 
During our on-going force-wide SAPR training, commanders are 
introducing the material and delivering our vision for a respectful 
culture. Initial feedback has been extremely positive.
    The Air Force prohibits the enlistment or commissioning of 
personnel in the active duty Air Force, Air National Guard, and the Air 
Force Reserve when the person has a qualifying conviction for a crime 
or sexual assault. No waivers to this policy are authorized. In 
addition, the Air Force is exploring the idea of an evidence-based 
screening tool for new accessions to identify those with a proclivity 
towards predatory sexual behavior. Our initial review of materials on 
screening options indicates that this is an area in need of further 
study.
    The Air Force is committed to combating sexual assault and will 
continue leadership attention. Even one assault is too many.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                        long range strike bomber
    Question. Secretary James, your prepared testimony indicates that 
the Air Force is developing a new long-range, penetrating bomber with a 
focus on affordability. Our experience with the B-1 and B-2 bomber 
programs resulted in very high development and production costs for 
relatively few aircraft. Can you share with the Committee in further 
detail how the Air Force plans to meet requirements while controlling 
costs and maintaining schedule on this new bomber program?
    Answer. The Air Force is developing the program cost estimate, to 
include research and development, production and operation and 
sustainment, as part of the process to support major program decision 
points. The cost estimate is informed by several components including, 
but not limited to, costs from similar programs and contractor 
proposals.
    Additional details pertaining to specifics on the Long Range Strike 
Bomber (LRS-B) program are protected by enhanced security measures. We 
would be happy to provide additional detail at a higher classification 
level.
    The average procurement unit cost (APUC) requirement for LRS-B 
remains $550 million (base-year 2010) for 100 aircraft. By definition, 
the APUC only includes the production costs, and does not include 
research, development or inflation impacts. This target APUC reflects 
the stable requirements that have already been set for the program to 
ensure sufficient production and a sustainable inventory of 80-100 
aircraft. The Air Force is committed to maintaining requirements 
discipline to keep LRS-B on a projected developmental production plan 
that should deliver the program within affordability targets.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                           launch capability
    Question. Secretary James, the Air Force recently announced plans 
to compete seven fewer launches than previously expected, although 
still in keeping with Under Secretary Kendall's competition directive 
which called for competition of ``up to 14 missions.'' I am concerned 
about efforts to pressure the Air Force to open to competition some of 
the launches allocated to the incumbent--which will only increase costs 
to the government because it would require breaking the recently 
negotiated block buy contract.
    How much would it cost the government in termination or other 
liability if the Air Force breaks the block buy contract?
    Answer. If the Evolved Expendable Launch Vehicle (EELV) Phase I 
contract with United Launch Alliance (ULA) is broken through a 
termination or breach of contract by the Government the total magnitude 
of cost liability is unknown and dependent on the circumstances. The 
total liabilities are not prescribed in the contact through a special 
contract clause. If the ULA contract is terminated, in whole or part, 
the contractor would submit a termination proposal in accordance with 
the standard Federal Acquisition Regulation termination for convenience 
clause. The termination settlement would be reached following 
negotiations with the contractor.
    In addition to termination liabilities discussed below, if the 
Phase I contract with the ULA is broken, the Government can expect ULA 
to re-price the cores, potentially eliminating much, if not all, of the 
$4.4 billion in savings resulting from this strategy. The ``level unit 
pricing'' for launch services on this contract is based on the 36-core 
deal, and a change would necessitate a re-negotiation of unit prices 
most likely resulting in schedule and cost impacts.
    At a minimum, the contractor would be entitled to a reasonable 
settlement for the work done and the preparations made for the 
terminated portion of the contract, including a reasonable allowance 
for profit for the Launch Capability component of the contract only. We 
expect ULA would seek payment for termination liability of 
approximately $370 million as reported in their March Contract Funds 
Status Report. Due to interdependencies, National Aeronautical and 
Space Administration contracts may also be impacted.
    From a program impact standpoint, and assuming the Phase I contract 
with ULA is terminated for convenience in its entirety on October 1, 
2014, ULA would not be able to complete its launch services for 
National Security Space missions (at least 15) procured under 
previously awarded contracts. This is due to an Interdependency Clause 
associated with Launch Services (i.e., the launch vehicle) previously 
procured through ULA prior to fiscal year 2013 that requires the EELV 
Launch Capability contract line item number be in place to deliver 
launch services. On the date of termination, ULA would stop production 
and launch of rockets in support of national security space 
requirements. This would significantly delay launches for those 15 
missions already on contract, potentially adding substantial storage 
costs to the satellite programs, and delaying critical national space 
capability to the warfighter.
                             launch prices
    Question. Secretary James, the 2015 total Air Force budget request 
for the Evolved Expendable Launch Vehicle (EELV) remains essentially 
flat, but the number of launch vehicles being procured is reduced from 
5 in fiscal year 2014 to 3 in 2015. This has led some to mistakenly 
conclude that the price per launch is increasing because they 
incorrectly divide the total request by the number of launches procured 
in 2015. Since we know from the Air Force that the block buy has 
reduced launch prices, can you explain why this way of trying to 
calculate the launch price is not accurate? This inaccurate calculation 
also assumes that all of the EELV money is going to the incumbent 
provider, but isn't a portion of the request intended for new entrants 
as well?
    Answer. Trying to calculate the price per launch by using the total 
request divided by the number of launches is not accurate. Primarily 
this is because the price of the individual launch services can vary by 
more than $100 million depending on the specific configuration of the 
launch vehicle required to lift the payload to the required orbit.
    A portion of the request is intended for new entrants as well. 
Evolved Expendable Launch Vehicles' (EELV) mission support activities 
are budgeted in the Launch Services Budget Program Activity Code 
(BPAC). There are no specific entries in the fiscal year 2015 P-docs 
for new entrant. The only new entrant related items in the budget 
justification are ``early integration activities'' which are estimated 
at $14.9 million in fiscal year 2015.
    In fiscal year 2015, additional costs have been budgeted in the 
Launch Services BPAC, such as new entrant mission assurance and new 
entrant early integration studies. The cost of the continued surge in 
new entrant mission support activities in the launch services BPAC is 
estimated as:
    Post Mission Analysis: $3.0 million;
    Mission Assurance: $31.9 million;
    Systems Engineering and Integration: $6.6 million.
                                 rd-180
    Question. Any time we have problems with the Russians I hear 
concerns that the Russians may ban exports of the RD-180 engine we use 
in the Atlas rocket, yet that has not happened. Would it make any sense 
for the United States to institute our own ban on using the RD-180? 
Wouldn't that only increase costs to the U.S. Government and threaten 
our national security, both by jeopardizing our launches and 
incentivizing the Russians to sell the engine to someone else?
    Answer. It would not make sense from a cost and schedule standpoint 
to institute our own ban on using the RD-180. Such a ban would 
significantly increase national security space launch costs, cause 
schedule delays and disruption of the launch manifest. The Atlas V 
launch vehicle, which uses the RD-180, is the workhorse of the Evolved 
Expendable Launch Vehicle fleet, providing critical support to the 
Department of Defense, National Reconnaissance Office, and National 
Aeronautics and Space Administration. A United States ban would 
effectively negate the significant cost savings already achieved by 
altering the implementation of the current contract strategy. The 
Secretary of Defense directed the Air Force to conduct a review of the 
RD-180 to identify short-term and long-term actions we can take to 
reduce reliance on the RD-180. However, enacting a ban on the use of 
the RD-180 would severely constrain the options available to the 
Department of Defense.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                                  f-35
    Question. Secretary James, I understand that the unit recurring 
flyaway cost in fiscal year 2012 dollars for the F-35A is predicted to 
be $75 million by 2018 if the current production profile remains in 
place. That is roughly the same price as today's 4th generation 
aircraft, but with 5th generation capabilities. Getting to a full 
production rate is critical in order to meet affordability targets. Can 
you speak to the production cost trends on the F-35 program?
    Answer. The price of an F-35 aircraft is decreasing with each lot 
and we expect that trend to continue into the 2020s. This is welcome 
news for U.S. warfighters and tax payers as well as our international 
partners. The program office has set a target price of $80 million for 
an F-35A aircraft purchased in fiscal year 2019. This target price 
includes both the airframe and the engine. The Air Force will continue 
to work with the Joint Program Office and other stakeholders to keep 
this critical program on track.
    Question. Secretary James, can you speak about the potential cost 
savings by streamlining spare pools, supply chains and infrastructure 
that comes with replacing multiple classes of aircraft with the F-35?
    Answer. Neither the Air Force or the Office of the Secretary of 
Defense has done an in-depth analysis to determine how much, if any, 
savings would accrue through streamlining spare pools, supply chains 
and infrastructure required for the multiple types of aircraft that the 
F-35 will replace.
    Question. Secretary James, if the draconian cuts associated with 
sequestration are allowed to return in fiscal year 2016 and beyond, it 
would be devastating to our national security and defense industrial 
base. We could end up paying more per unit and buy less of the critical 
technologies this country needs to combat a high tech adversary in the 
future. What would be the impact on the F-35 program if sequestration 
returns in fiscal year 2016 and beyond?
    Answer. If sequestration remains in fiscal year 2016 and beyond, 
the Air Force currently plans to defer 15 F-35A aircraft to outside the 
future years defense program. If the force structure and cost reduction 
proposals in the fiscal year 2015 President's Budget submission are not 
approved, that number could grow substantially as the Air Force is 
compelled to close a multi-billion dollar funding gap.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                             c-130j basing
    Question. The Alaska Air National Guard flies the C-130H model. The 
Air Force is moving to eliminate the C-130H from its fleet and will 
replace the H model with the J model. Moreover, the Air Force has what 
I understand to be firm plans to close down the C-130H training 
facility at Little Rock. What do these developments mean for Air 
National Guard wings that fly the H model? Can Alaska expect to see its 
H models replaced with J models? Or is some other plan in the works?
    Answer. Per the fiscal year 2015 President's Budget request, the 
Air Force plans to have 194 C-130Hs in the inventory by fiscal year 
2019. Additionally, there are no plans to close down the current C-130H 
training facility at Little Rock Air Force Base, Arkansas.
    The Air Force will continue to evaluate options to right-size and 
recapitalize the C-130H fleet beyond the currently-planned 134 C-130Js. 
However, funding is expected to remain a challenge, limiting the Air 
Force's ability to aggressively recapitalize. By continuing to 
modernize C-130Hs with the Viability and Airspace Access Program 
increments and center wingbox replacements, the Air Force remains 
committed to modernizing the C-130H fleet. This commitment includes 
those aircraft flown by the Alaska Air National Guard, thereby ensuring 
that fleet remains viable to support the nation's needs.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
                 return of air force 3-star to shaw afb
    Question. In July of 2012, we discussed the return of the USAF 3-
star (CFACC) to Shaw AFB and you projected, along with General Mattis, 
that the summer of calendar year 2015 was a viable option. However, you 
also stated you would re-examine and reassess the operational 
environment in the spring of calendar year 2014 to determine if this 
``change of construct'' will support projected operations in calendar 
year 2015. Given our drawdown in Afghanistan, where are we in this 
process? Are we still looking at calendar year 2015 for its return?
    Answer. We continue to support General Austin, Commander, U.S. 
Central Command, and his desire to not return the Air Force 3-star 
CFACC to Shaw at this time. CENTCOM relies on the forward presence of 
the CFACC to deal with security concerns emanating from areas beyond 
just Afghanistan, such as Iran, Syria, Iraq, and Yemen. Forward CFACC 
presence also provides a critical platform from which to support 
security cooperation initiatives with Gulf Cooperation Council nation 
air forces and other regional partners. This presence and the influence 
of the CFACC is of particular importance in reassuring our regional 
partners and allies facing threats from Iran and serves as a counter to 
concerns over our intended shift to the Pacific and the false 
impression that we are abandoning our security partners in the Middle 
East.
    Regarding the drawdown in Afghanistan, the trajectory of the total 
regional security environment remains ambiguous. Once the post-ISAF 
security situation comes into greater focus, U.S. Central Command will 
have a better idea of their long-term footprint and will reassess 
future positioning of the CFACC and timing of a potential return to 
Shaw AFB.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
                  f-16 service life extension program
    Question. In the recent divestiture decision on the A-10 mission, 
you made announcements that some of the A-10 Fighter Wings will convert 
to the F-16 Block 40 in the future. Do you plan on upgrading these F-16 
aircraft to include service life extensions as necessary to ensure 
these fighter wings have the life necessary to compete for the Joint 
Strike Fighter in the future?
    Answer. The intent is for the three A-10 units that would be 
replaced by F-16s to receive aircraft that are modified with the 
Service Life Extension Program or would have sufficient service life 
for sustained peacetime and combat operations.
                              f-35 basing
    Question. I feel the JSF ranking given by the Air Force to the 
122nd Fighter Wing needs to be revisited and I'm sure other bases feel 
the same way. When will the basing panel solicit feedback to allow 
units to provide updates to improve their rankings? Also, when will the 
next Air National Guard JSF base be chosen?
    Answer. The next round of F-35A basing will begin in 2016 or 2017 
unless changes to the program of record require a later start. The Air 
Force's strategic basing process uses criteria-based analysis and links 
missions and combatant commander requirements to installation 
attributes, cost considerations and professional military judgment to 
completely inform the decision maker.
    The process begins with the development of basing criteria specific 
to the basing action. For the next round of F-35A basing, the criteria 
used in previous rounds will be reviewed and updated as required. 
Installations are then scored against the criteria, resulting in a 
rank-ordered list of bases. From this list, the Secretary (SecAF) and 
Chief of Staff of the Air Force (CSAF) select candidate bases. Site 
surveys are then conducted at each candidate base, examining a range of 
operational and infrastructure requirements. The results of the site 
surveys are presented to the SecAF and CSAF, who select preferred and 
reasonable alternatives.
    At the conclusion of the Environmental Impact Analysis Process 
(EIAP)--which runs in parallel with the Air Force strategic basing 
process--the SecAF and CSAF make their final basing decision from 
amongst the preferred and reasonable alternatives.
    While there are opportunities for public comment during the EIAP 
process, the Air Force's strategic basing process does not solicit 
feedback or advocacy from installations or units.
                           air force history
    Question. The field of U.S. Air Force History is vast. 
Opportunities for work on unexamined or understudied aspects in U.S. 
Air Force history are as unlimited as the historian's imagination and 
curiosity. What are the specific gaps you have identified in Air Force 
history literature that you would like to see filled particularly as it 
relates to issues of concern to the Air Force today or because they 
relate to things that historians think the Air Force should know about 
itself?
    Answer. With historians assigned at wings, numbered air forces, 
major commands, and Headquarters Air Force, we get most of the raw data 
needed to produce analytical histories, but this often is not true for 
special access programs. Security concerns, classification levels, and 
need-to-know strictly limit the number of people who have access to 
such information. These restrictions are vital, but they make it 
difficult to record the history of these programs, even after they have 
been declassified and dissemination restrictions have been eased.
    In addition to capturing special access program information, 
documentation for our recent operations overseas remains important. 
Throughout its existence, the U.S. Air Force has produced comprehensive 
official histories of major wars, conflicts, and operations. We now 
need to begin producing an official history of Air Force operations in 
Iraq since the beginning of Operation IRAQI FREEDOM up through the 
conclusion of Operation NEW DAWN. Since we are moving closer to 
withdrawal from Afghanistan, work on a comprehensive official history 
of Operation ENDURING FREEDOM is also vital. Unfortunately, due to 
funding restrictions, there is a shortage of historians who can 
dedicate their efforts to this work, which impedes our capability to 
conduct a robust oral history.
    In addition to official histories of specific wars, the Air Force 
has published topical histories, with a practically unlimited menu of 
products. Our newest ``domain'' of combat--that of cyberspace--will 
provide an opportunity to produce topical histories in the same way 
that traditional air and space operations have in the past. If there is 
any broad topical area that seems to be noticeably missing from the 
literature, it is an analytical history of Air Force logistical 
support. The record of how air logistics has evolved to meet changing 
requirements can provide important insight as the U.S. Air Force 
continues its mission of defending our nation and its interests while 
facing drastically reduced funding.
                                 ______
                                 
           Questions Submitted to General Mark A. Welsh, III
            Questions Submitted by Senator Patrick J. Leahy
                              mission sets
    Question. General Welsh, can you provide a list of the stress level 
of the mission sets in the U.S. Air Force? Which of those mission sets 
provide opportunities for a greater role for the Air National Guard and 
the Air Force Reserves?
    Answer. We have a number of mission sets that are stressed, as 
indicated by a steady decline in readiness over the past 13-plus years 
of sustained combat operations. In terms of our service core functions, 
the mission sets most exhibiting a decline in readiness include: Air 
Superiority; Global Precision Attack; Personnel Recovery; Command and 
Control; Intelligence, Surveillance, and Reconnaissance; and Special 
Operations.
    We continue to assess which missions are best suited for an 
increased reserve component role. The National Commission on the 
Structure of the Air Force made a number of recommendations related to 
striking the right active/reserve component mix across specific mission 
sets, and we have a full-time office, the Total Force Continuum, 
assessing these options. We will take action where it is operationally 
and fiscally prudent. As we make the assessments, current and 
anticipated deployment rates will be a primary consideration as well as 
the ability to relieve stressed mission sets within fiscal constraints.
                    concurrent fielding of equipment
    Question. General Welsh, you have said the U.S. Air Force is 
committed to fielding new or modified equipment and air frames across 
all components in order to ensure interoperability. Will you pursue 
concurrent fielding of equipment and platforms in all components? If 
equipment or platforms are fielded in the components at different 
rates, what determine those rates?
    Answer. Yes, the Air Force is pursuing concurrent fielding of 
equipment and platforms across all components. For example, the current 
F-35 Continental United States basing plan begins with Hill Air Force 
Base (Active), Luke Air Force Base (Active and Reserve) followed by 
Burlington Air National Guard Base (Guard). Additionally, as the Air 
Force begins to take delivery of the new KC-46s, we have developed a 
plan to distribute them across all components. Announced locations 
already include Active and Guard bases (Altus Air Force Base, McConnell 
Air Force Base, and Pease Air National Guard Base). Classic 
Associations with Air Force Reserve Command are also planned for Altus 
Air Force Base and McConnell Air Force Base, while a Reverse 
Association with the Guard is planned for the second major operating 
base location (yet to be determined). Lastly, the Air Force is also 
coordinating a fielding plan with the Guard and Reserve to modernize 
our existing KC-135 fleet with the Block 45 avionics upgrade and to 
ensure an equitable distribution across all three components.
    In general, the Air Force develops its fleet basing strategies 
based on the approved Force Composition Analysis (FCA). The FCAs 
provided the foundational information needed to develop a fielding plan 
that strives to optimize the Active/Reserve component mix by mission 
area.
                              total force
    Question. General Welsh, you spoke of a desire for better 
integration between all three components of the U.S. Air Force, and 
have publically commented about your desire that in the near future 
Chiefs of Staff of the Air Force will have experience serving in each. 
Can you outline further how you intend to pursue an integrated end-
state during the remainder of your tenure, and hand-off a Total Air 
Force with momentum towards that end-state to your eventual successor?
    Answer. The Air Force currently has Active Duty officers serving on 
the staffs of the National Guard Bureau and the Headquarters of the Air 
Force Reserve, as well as many members of the Air Reserve Component 
(ARC) who serve on active duty staffs. We absolutely need to be as 
accomplished at integrating our Total Force at the headquarters level 
as our Airmen are at the operational and tactical levels. Many of those 
Airmen, who have been fighting side by side for years, do not perceive 
a meaningful difference in serving as an active duty, National Guard, 
or Air Force Reserve member. Our three-in-one initiative is currently 
underway; this initiative aims to help us manage the total Active and 
Reserve component Airmen through one personnel system and process. We 
are now beta testing this approach at three bases: one Active, one 
Guard, and one Reserve. Furthermore, we have already integrated senior 
Reserve component officers into key Air Staff positions, active duty 
officers into wing command slots in Guard units, and Reserve component 
officers as vice commanders in active units.
    We are currently evaluating our staffs and units for even greater 
integration opportunities at all levels of staff and unit leadership. 
Ideally, service with an ARC unit, or on an ARC staff, should be part 
of the broader spectrum of experience expected of future Air Force 
senior leaders.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                     powder river training complex
    Question. General Welsh, what is the current status of the proposed 
expansion of the Powder River Training Complex? When does the Air Force 
anticipate issuing a Record of Decision? Will this be issued jointly 
with the Federal Aviation Administration?
    Answer. The Air Force remains committed to and is progressing 
toward completion of the National Environmental Policy Act, National 
Historic Preservation Act (NHPA) and interagency requirements needed to 
finalize and chart the Powder River Training Complex. The Air Force is 
currently nearing completion of consultations under the NHPA Sec. 106 
with the North Dakota, South Dakota, Montana, and Wyoming State 
Historic Preservation Offices, Tribes, the Federal Aviation 
Administration (FAA), and National Park Service. The final adjustments 
to the Environmental Impact Statement (EIS) are underway in preparation 
for the Record of Decision (ROD). The Air Force expects to complete the 
final EIS and ROD this summer, to enable a final charting by the end of 
2014. Once the Air Force signs its ROD, the FAA, as a cooperating 
agency, can adopt the EIS to support its Special Use Airspace 
decisions. Our synchronized efforts have been effective in reducing the 
overall charting timeline. Finalizing this expansion will provide 
enhanced training for our military to improve Air Force mission 
readiness.
                             sexual assault
    Question. General Welsh, I appreciate your leadership in addressing 
military sexual assault. While the Air Force has taken steps to 
increase reporting and assist victims, more must be done to protect our 
men and women in uniform. Can you elaborate on what efforts the Air 
Force is undertaking on the prevention side? Are there ways to prevent 
offenders from entering the military in the first place?
    Answer. Our goal is to eliminate sexual assault in our Air Force; 
therefore, prevention is the cornerstone of our Sexual Assault 
Prevention and Response (SAPR) program. The key elements of prevention 
are the creation of command climates of dignity and respect where the 
contributions of each Airman are valued, where wingmen intervene when 
they see inappropriate behavior and where perpetrators are held 
accountable. To create that culture, we tasked leadership across the 
Air Force to step forward and deliver that message in person. During 
our on-going force-wide SAPR training, commanders are introducing the 
material and delivering our vision for a respectful culture. Initial 
feedback has been extremely positive.
    The Air Force prohibits the enlistment or commissioning of 
personnel in the active duty Air Force, Air National Guard, and the Air 
Force Reserve when the person has a qualifying conviction for a crime 
or sexual assault. No waivers to this policy are authorized. In 
addition, the Air Force is exploring the idea of an evidence-based 
screening tool for new accessions to identify those with a proclivity 
towards predatory sexual behavior. Our initial review of materials on 
screening options indicates that this is an area in need of further 
study.
    The Air Force is committed to combating sexual assault and will 
continue leadership attention. Even one assault is too many.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
             intelligence, surveillance, and reconnaissance
    Question. General Welsh, what is the Air Force's plan for 
Intelligence, Surveillance, and Reconnaissance operations after we 
conclude actions in Afghanistan, and how does your budget support the 
pivot to the Pacific, a transition to non-combat operations and reduced 
budget certainty?
    Answer. Intelligence, Surveillance, and Reconnaissance (ISR) 
capabilities have focused mainly on delivering decisive advantage in 
permissive combat environments. For the duration of Operation ENDURING 
FREEDOM, the air threat has been negligible. We cannot expect this to 
be the case in future conflicts. We recognize that counter-terrorism 
will continue, but we must free resources to fund ISR platforms, 
sensors, and communications paths to operate in contested and highly 
contested environments. To accomplish this, the Air Force accepted 
additional risk in ISR capability in the fiscal year 2015 budget 
request to better meet ISR requirements in 2023 and beyond, as part of 
an overall rebalance to the Asia-Pacific region. The Air Force plans to 
use some of those harvested savings to improve the RQ-4 fleet, which is 
an important platform for future operations.
    To free up near-term resources, the fiscal year 2015 President's 
budget request reduces the planned growth of the MQ-9 combat air 
patrols from 65 to 55, retires the MQ-1 fleet in 2017, and retires the 
U-2 fleet in 2016. In total, the Air Force requested $6.9 billion for 
Global Integrated ISR in fiscal year 2015 to develop, integrate, and 
operate ISR capabilities across the spectrum of military operations. 
Please note that our combatant commanders value ISR, so we are working 
diligently to meet their needs while simultaneously dealing with Budget 
Control Act limits and reduced Overseas Contingency Operations funding.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                                 kc-135
    Question. I was disappointed last May when the Air Force did not 
select Bangor as one of the first three bases at which to station the 
new KC-46A refueling tanker. I am hopeful, however, that Bangor will be 
one of the final ten operational sites selected. Last year Secretary 
Donley testified that ``if we want to modernize the tanker force, we're 
going to have to do more than we're doing in the KC-46 program. We have 
to buy more tankers, and we have to buy them faster.'' This budget 
preserves the KC-46 tanker program as one of the top three 
recapitalization programs for the Air Force, procuring seven aircraft 
this fiscal year. General Welsh, you have emphasized before the 
importance of continuing KC-135 modernization efforts and have stressed 
that those KC-135 aircraft not replaced with the KC-46A will continue 
to fly for the foreseeable future
    Can you explain what KC-135 modernization efforts are included in 
this budget that will ensure the fleet of KC-135 aircraft is available 
to provide continued support for current and future combatant commander 
requirements?
    Answer. The following modernization efforts are being conducted for 
the KC-135 fleet:
    Block 45 is the third and final scheduled major avionics upgrade. 
This modification addresses anticipated airspace restrictions within 
the global CNS/ATM environment and will improve overall reliability, 
availability, maintainability and supportability issues. It replaces 
the analog flight director, auto pilot, radio altimeter, and engine 
instruments with digital instruments.
    Mode 5 will incorporate Identify Friend or Foe Mode 5 capability 
during Air Defense Operations, reducing risk of loss of aircrew and 
aircraft.
    VHF Omnidirectional Radio/Instrument Landing System Antennae 
replaces antennae with commercial off-the-shelf antennae due to 
obsolescence.
    Large Aircraft Infrared Countermeasures provides autonomous 
protection against Man-Portable Air Defense Systems for Air National 
Guard and Air Force Reserve Command aircraft.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                             sequestration
    Question. General Welsh, the Air Force carries on numerous 
significant missions in Alaska including the Red Flag exercises 
involving our allies that launch from Eielson Air Force Base. Last year 
the Air Force was only able to afford one of the Red Flag Alaska 
exercises. I trust that you would agree that this was less than 
satisfactory. I wonder if you would speak to the importance of the Red 
Flag Alaska exercises both from the perspective of our own preparedness 
and that of our allies. How would these exercises fare in the future if 
Congress does not provide sequestration relief?
    Answer. Without sequestration relief, U.S. Pacific Command's 
exercise program will be less robust in frequency and attendance. 
Decreased funding will force difficult prioritization of exercises and 
may result in some RED FLAG-Alaska exercises being curtailed or even 
cancelled. This will have a negative impact on U.S. Air Force readiness 
training in the Pacific, and diminish engagement with key partners and 
allies around the region at a time when we need to be cultivating 
partnerships.
                           military suicides
    Question. General Welsh, lately the majority of attention has been 
focused on the military sexual assault dilemma, and rightly so, but the 
suicide issue has continued to plague our military and veteran 
populations. In the Air Force alone, suicide has taken the lives of 
almost 100 Airmen a year since 2010. This year, there have already been 
over 15 suicides in the first two and a half months, more than double 
the rate over the same period last year. This is extremely alarming and 
something that needs to be addressed now.
    What is the Air Force doing to address this problem and how can we 
help you get this horrible epidemic under control? (Note: Same question 
to General Grass, Lieutenant General Jackson, and Lieutenant General 
Clarke)
    Answer. As you are aware the nation's suicide rate is gradually 
increasing and the Air Force is not exempt from this problem. Our rates 
vary month-by-month and year-by-year, but there is no doubt that after 
a decline several years ago when we first launched our nationally 
recognized and evidence based Air Force Suicide Prevention Program 
(AFSPP), our rates have started to slowly increase again. The Air Force 
lost an average of 95 Total Force Airmen per year since 2010. This 
number includes Active Duty, Air Force Reserve, Air National Guard, and 
Air Force Civilians (4 year average for AD = 49, ARC = 26, and AF Civ = 
21).
    I assure you the Air Force remains vigilant in our suicide 
prevention efforts and determined to prevent as many suicides as 
possible; suicide remains a top priority for the Air Force.
    In conjunction with AFSPP, the Air Force prioritized the 
development of the Comprehensive Airmen Fitness (CAF) program to 
address the high operations tempo, and the potential increased self-
defeating behavior. Through the use of Master Resilience Trainers 
(MRTs) CAF uses a holistic approach to inject resilience 
characteristics and develop morale into our Total Force, enabling 
Airmen to learn coping skills. When Airmen face significant emotional 
events, both positive and negative, these skills can help them 
recognize stress and cope with challenging live events. Given the 
overwhelming support of Air Force leadership towards the program, we 
have committed to increasing the number of MRTs until every squadron 
has one, or units have a minimum of one per 200 Airmen.
    In April we also directed every commander in our Air Force to meet 
with his or her command and discuss current suicide trends, common 
characteristics of at-risk personnel, and best approaches to identify 
those people struggling with personal issues and get them the help they 
need.
    As we move forward, we need a serious national dialogue on this 
issue without giving the public the impression that suicide in the 
military is a runaway problem, because research is clear that the wrong 
message can unintentionally increase suicide rates.
    Thank you for your continued assistance in keeping the focus on 
this terrible problem.
                             sequestration
    Question. General Welsh, I know the Air Force is pleased with the 2 
years of sequestration relief that was provided by this year's budget 
agreement. I think you would agree that this funding was urgently 
needed. It is troubling to me that we would invite our allies to Alaska 
for exercises and then tell them it's cancelled due to budget issues. 
It is troubling to me that our pilots can't fly because money isn't 
available and it's troubling that depot maintenance must be deferred 
because we don't have the money to keep our fleet mission ready. But 
sequestration relief lasts only two fiscal years.
    I wonder if you might tell the subcommittee what relief from 
sequestration you need to meet mission requirements in the coming years 
and what the consequences to our Air Force will be if you do not get 
that relief.
    Answer. An immediate end to the strict funding caps established by 
the Budget Control Act of 2011 is needed. The consequences of not 
getting this relief will be a reduction in tanker and intelligence, 
surveillance, and reconnaissance capacity (e.g., retiring the KC-10 and 
RQ-4 Block 40 fleets), and investment in modernization accounts (e.g., 
KC-46A, F-35A, and MC-130J), reversal of our current preferred 
munitions stockpile recovery effort and readiness recovery, cuts in 
weapon system sustainment and ranges, further erosion of existing 
facilities and infrastructure, and deferral of legacy fighter 
modernization.
                                 ______
                                 
             Questions Submitted to General Frank J. Grass
             Questions Submitted by Senator Lisa Murkowski
               furlough of guard and reserve technicians
    Question. General Grass, one of the things that really pained me 
during last summer's furloughs and the government shutdown that 
followed was that the civilian technicians were not exempted from the 
furlough nor were they as a group deemed essential during the shutdown. 
Earlier this year I had an opportunity to speak with an Alaska Air 
Guard technician who serves as an Operations Officer with the rescue 
squadron. In spite of the importance of his job he was neither exempted 
from furlough nor deemed essential in the early days of the shutdown. 
None of this makes sense to me. It seems to me that the mission 
responsibilities of the technician workforce are so intimately tied to 
the military personnel who work alongside them that the technicians as 
a group should be exempted from furlough and deemed essential in the 
case of a lapse in appropriations.
    Would you disagree with this proposition? (Same question to 
Lieutenant General Jackson)
    Answer. I would not disagree with your assertion about the 
important role that our technicians play in our ability to respond in 
crisis. We believe our military technicians should be treated the same 
as other uniformed personnel. If they are exempted from furlough, 
military technicians should be as well. Furthermore, it has long been 
established Department of Defense policy that the military aspects of 
technician service are paramount over all other concerns. Our military 
technicians are critical to keeping planes in the sky and our people 
properly trained. Military technicians provide day-to-day ground and 
aviation maintenance and training, pay and property accountability, 
personnel action processing, medical administration and readiness, 
sexual assault response capability, suicide prevention, and resiliency 
and education counseling, among other duties. Our National Guard 
military technicians perform those core functions that build and 
maintain the nation's ability to respond to both State and Federal 
missions and emergencies.
                           military suicides
    Question. General Grass, Lately the majority of attention has been 
focused on the military sexual assault dilemma, and rightly so, but the 
suicide issue has continued to plague our military and veteran 
populations. In the Air Force alone, suicide has taken the lives of 
almost 100 Airmen a year since 2010. This year, there have already been 
over 15 suicides in the first two and a half months, more than double 
the rate over the same period last year. Unfortunately, the Reserve 
component has mirrored the active component in this tragic area, with a 
significant number of suicides every year and trending upwards. I have 
heard from numerous Veteran and military support groups in Alaska and 
it sounds like there is a disconnect in suicide awareness and 
prevention efforts between the active component and the Reserve 
Component. Like the active force, your operations tempo has been 
extremely high over the last decade plus of war and our Reserve 
Component forces have answered the call in tremendous fashion. But 
unlike the active force, the Reserve Component has a limited ability to 
reach out to their forces and ensure they are cared for after 
deployments.
    What are you doing to address this horrific problem and where can 
we help you get things under control? (Note: Same question to General 
Welsh, Lieutenant General Jackson, and Lieutenant General Clark)
    Answer. The Air National Guard Psychological Health Program (PHP) 
began in October 2010 to address psychological health needs of Air 
National Guard (ANG) Airmen and their families. The PHP placed a 
licensed behavioral health provider at each of the ANG's 89 wings 
throughout the 54 states, territories, the District of Columbia and 5 
additional licensed behavioral health providers in areas with high 
geographically separated unit populations. The program provides three 
categories of service: leadership advisement and consultation; 
community capacity building; and direct services, including assessment, 
referral, crisis intervention, and case management services that are 
available daily. The wing directors of psychological health are 
available 24/7 to operational leadership and provide services to Air 
National Guard Airmen and their family members regardless of whether 
they are at home or on duty status. In addition, Military OneSource is 
a nonmedical counseling option available to active duty, reserve 
component members and their adult family members.
    There are less than 20 evidence-based ``best practices'' in the 
Suicide Prevention Resource Center national registry, and Air Force 
Suicide Prevention Program (AFSPP) is one of them . . . the only 
military program in the registry. The ANG is implementing the AFSPP.
    In 2007, ANG Safety launched the ANG Suicide Intervention program 
known as the Wingman Project. In 2009, Headquarters Air Force 
designated ANG Wingman Project a Best Practice. Wingman Project will 
sunset shortly and will be rolled into ``Ready54''. Ready54 is a 
collection of web based resilience tools which connects service-members 
and their families to important local resources, as well as provides 
them informative ANG-centric videos and articles to help keep them 
ready and resilient.
    The ANG has partnered with active component to establish a Master 
Resilience Training (MRT) Program. A total of 52 MRTs and 8 MRT 
facilitators have been trained to date.
    The Air Force works collaboratively with the Guard and Reserve 
through the Community Action Information Board (CAIB) and the 
Integrated Delivery System (IDS) at each level of the Air Force 
(Headquarters Air Force, Major Command, and installation). CAIBs are 
cross-functional forums created to identify and resolve or elevate to 
the next appropriate level those community issues that impact readiness 
or affect the quality of life of Air Force members and their families. 
The IDS functions as the action arm of the CAIB and develops a 
comprehensive, coordinated plan for integrating and implementing 
community outreach, prevention, and resiliency programs, such as 
suicide prevention.
    Also, all components of the Air Force (Active Duty, Guard, and 
Reserve) are actively engaged with the Defense Suicide Prevention 
Office (DSPO) in helping shape suicide prevention efforts across the 
Department of Defense through the Suicide Prevention and Risk Reduction 
Committee, the General Officer Steering Committee on Suicide 
Prevention, and other working groups and committees.
    The Yellow Ribbon Program offers resources on behavioral health 
issues and suicide mitigation and is offered to Reserve and Air 
National Guard Airmen and their families pre-deployment, during 
deployment, and post deployment.
    TRICARE Reserve Select is available for Reserve Component Airmen 
and their family members and provides coverage for both outpatient and 
inpatient treatment. Access to military medical care is available to 
service members with duty-related conditions through TRICARE and the 
Department of Veterans Affairs.
    Finally, the Military (or Veterans) Crisis Line, 1-800-273-8255 
(TALK), Press #1, www.militarycrisisline.net, or text to 838255 is 
available 24/7 to all service members and their families. It is a joint 
venture between the Department of Defense and the Department of 
Veterans Affairs' call center, which is associated with Substance Abuse 
and Mental Health Service Administration's National Suicide Prevention 
Lifeline. Resources include an online ``Veteran's Chat'' capability and 
the call center's trained personnel provide crisis intervention for 
those struggling with suicidal thoughts or family members seeking 
support for a Veteran.
    In fiscal year 2012 the ANG implemented PHP during highest death by 
suicide rates in known ANG history (calendar year 2011: 16.1/100K, 
calendar year 2012: 21.1/100K, calendar year 2013: 10.4/100K). The ANG 
reduced it suicides by 37 percent for calendar year 2013 and will 
continue seeking and executing meaningful strategies to driving down 
suicide rates.
                                 ______
                                 
    Questions Submitted to Lieutenant General Stanley E. Clarke III
            Questions Submitted by Senator Patrick J. Leahy
         national commission on the structure of the air force
    Question. Lieutenant General Clarke, will you provide a list of the 
recommendations of the National Commission on the Structure of the Air 
Force that the Air National Guard has already executed the 
implementation of or are planning to execute, and how you have or will 
do so? Will you also provide a list of other initiatives you have 
already executed or are planning to execute to pursue Total Force 
Integration?
    Answer. The Air Force believes the Total Force cannot succeed 
without all three components--the Active, Guard and Reserve--each 
providing its unique value to the nation. Each component is equally 
represented within the Total Force--Continuum (TF-C) working group, in 
its efforts to address two lines of effort (LOE) initially established 
by the Total Force Task Force (TF2). Through these LOEs the TF-C will 
develop recommendations that maximize the contributions of the Total 
Force, eliminate cultural and organizational barriers to effectiveness, 
and provide cost-savings opportunities that minimizing risk to Air 
Force capability.
    The TF-C identified ten National Commission on the Structure of the 
Air Force (NCSAF) recommendations as initiatives currently being 
implemented, or planned for implementation. These recommendations are:
    Cost Approach (DOD tasking).--The Department of Defense should 
formally adopt the ``fully burdened cost'' approach to calculating 
military personnel costs, and it should apply analytic methods that 
focus on appropriate outputs along with life-cycle costs.
    Staff Integration.--The Air Force should integrate the existing 
staffs of Headquarters Air Force, the Air Force Reserve, and the Air 
National Guard.
    Full-Time and Part-Time mix.--The combination of full-time and 
part-time positions should be determined for each unit depending on 
weapon system requirements, deployment, and rotation schedule based on 
optimum matching of the needs of the Air Force, family, and employers.
    TF Competency Standards.--Commander, Air Education and Training 
Command (AETC) in coordination with the Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs and AF/A1, should develop a 
Total Force competency standard for officers, non-commissioned 
officers, and enlisted Airmen across all specialties and career fields 
before the end of fiscal year 2016.
    Access to Non-Residence Education.--Commander, AETC should ensure 
that revised curriculum and competency standards are achievable by 
appropriately structured non-resident education programs equally 
accessible to personnel of all components.
    Non-Disclosure Agreements.--The Secretary of the Air Force should 
discontinue use of Non-Disclosure Agreements in the corporate process.
    Integrated Personnel Management.--The Air Force should unify 
personnel management for all three components under a single integrated 
organization (A1) in the Headquarters Air Staff.
    Integrated Pay/Personnel.--The Air Force should accelerate the 
development of an Integrated Pay and Personnel System.
    Continuum of Service.--Implement a pilot project of Continuum of 
Service that demonstrates the ability of an Airman to transition more 
seamlessly among the three components.
    Active Duty Service Commitment.--The Air Force should revise the 
rules for current Active Duty Service Commitments to enable members to 
meet the commitment in some combination of Active, Reserve, and Guard 
service.
    The Air Force agrees in principle with most of the recommendations 
outlined by the NCSAF. In fact, many of these recommendations closely 
mirror those initially identified for action by the TF2. Others require 
additional study to fully understand feasibility and cost savings or 
they require congressional legal review and changes to the current U.S. 
Code.
    The Air Force is committed to a comprehensive assessment of NCSAF 
recommendations, sensible application where it makes sense, and 
enduring focus on leveraging the Total Force.
                        national guard equipment
    Question. Lieutenant General Clarke, the U.S. Congress has made 
substantial investments in Air National Guard and Air Force Reserves 
equipment to ensure readiness and interoperability. Will you describe 
how you manage that funding so as to achieve maximum value for the 
Total Force, as well as any examples of that value?
    Answer. The National Guard and Reserve Equipment Account (NGREA) is 
managed to maximized innovative, affordable, and technically sound 
capabilities based upon validated Air Force and combatant commander 
requirements. The requirements are vetted through a forum of Reserve 
Component and Active Duty warfighters at our annual weapons and tactics 
conference. Critical requirements derived from the weapons and tactics 
conference are matched against our spend plan to ensure weapon systems 
remain relevant and viable.
    Well managed NGREA funds have resulted in critical capabilities. 
Some examples are:
  --C-130 real time in the cockpit program provides comprehensive 
        networked battlespace awareness
  --KC-135 Large Aircraft Counter Measures provide protection for 
        operations in hostile environment
  --A-10/F-16 Helmet Mounted Integrated Targeting offers rapid target 
        acquisition and improved battlefield situational awareness
  --F-15C Passive Attack Sensor System provides for nighttime visual 
        identification during aerospace control alert missions
  --F-16 center display unit dramatically enhances capability to 
        identify and engage targets
    Bottom line, we value NGREA and the operational benefits resulting 
from innovative, affordable, technically sound initiatives originating 
from NGREA efforts.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                   air national guard airlift future
    Question. General Clarke, I am proud that the Mississippi National 
Guard was the first to stand up a Guard unit containing C-17 transport 
aircraft. The eight aircraft based out of Thompson Field in Jackson 
have airlifted over 58,000 patients and they continue to evacuate 
wounded warriors from the war zone. With the drawdown and budget 
restrictions, what do you see as the future for the Guard's airlift 
force and how will these Guard units be tasked moving forward?
    Answer. In the future, the forces in Jackson, Mississippi and at 
our other strategic airlift bases, will continue their organize, train 
and equip mission, to be ready if called. To maintain the same level of 
experience and expertise in world-wide operations as our Active Duty 
counterparts, we certainly desire for our C-17 crews to continue being 
used as an operational reserve force, but our participation in global 
operations is contingent upon taskings from U.S. Transportation 
Command.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                           military suicides
    Question. Lieutenant General Clarke, lately the majority of 
attention has been focused on the military sexual assault dilemma, and 
rightly so, but the suicide issue has continued to plague our military 
and veteran populations. In the Air Force alone, suicide has taken the 
lives of almost 100 Airmen a year since 2010. This year, there have 
already been over 15 suicides in the first two and a half months, more 
than double the rate over the same period last year. Unfortunately, the 
Reserve component has mirrored the active component in this tragic 
area, with a significant number of suicides every year and trending 
upwards. I have heard from numerous Veteran and military support groups 
in Alaska and it sounds like there is a disconnect in suicide awareness 
and prevention efforts between the active component and the Reserve 
Component. Like the active force, your operations tempo has been 
extremely high over the last decade plus of war and our Reserve 
Component forces have answered the call in tremendous fashion. But 
unlike the active force, the Reserve Component has a limited ability to 
reach out to their forces and ensure they are cared for after 
deployments.
    What are you doing to address this horrific problem and where can 
we help you get things under control? (Same question to General Welsh, 
General Grass, and Lieutenant General Jackson)
    Answer. The Air National Guard Psychological Health Program (PHP) 
began in October 2010 to address psychological health needs of Air 
National Guard (ANG) Airmen and their families. The PHP placed a 
licensed behavioral health provider at each of the ANG's 89 wings 
throughout the 54 States, territories, the District of Columbia and 5 
additional licensed behavioral health providers in areas with high 
geographically separated unit populations. The program provides three 
categories of service: leadership advisement and consultation; 
community capacity building; and direct services, including assessment, 
referral, crisis intervention, and case management services that are 
available daily. The wing directors of psychological health are 
available 24/7 to operational leadership and provide services to Air 
National Guard Airmen and their family members regardless of whether 
they are at home or on duty status. In addition, Military OneSource is 
a nonmedical counseling option available to active duty, reserve 
component members and their adult family members.
    There are less than 20 evidence-based ``best practices'' in the 
Suicide Prevention Resource Center national registry, and Air Force 
Suicide Prevention Program (AFSPP) is one of them . . . the only 
military program in the registry. The ANG is implementing the AFSPP.
    Ready54 is a collection of web based resilience tools which connect 
service-members and their families to important local resources, as 
well as provides then informative ANG-centric videos and articles to 
help keep them ready and resilient.
    The ANG has partnered with the active component to establish a 
Master Resilience Training (MRT) program. A total of 52 MRTs and 8 MRT 
facilitators have been trained to date.
    The Air Force works collaboratively with the Guard and Reserve 
through the Community Action Information Board (CAIB) and the 
Integrated Delivery System (IDS) at each level of the Air Force 
(Headquarters Air Force, Major Command, and installation). CAIBs are 
cross-functional forums created to identify and resolve or elevate to 
the next appropriate level those community issues that impact readiness 
or affect the quality of life of Air Force members and their families. 
The IDS functions as the action arm of the CAIB and develops a 
comprehensive, coordinated plan for integrating and implementing 
community outreach, prevention, and resiliency programs, such as 
suicide prevention.
    Also, all components of the Air Force (Active Duty, Guard, and 
Reserve) are actively engaged with the Defense Suicide Prevention 
Office (DSPO) in helping shape suicide prevention efforts across the 
Department of Defense through the Suicide Prevention and Risk Reduction 
Committee, the General Officer Steering Committee on Suicide 
Prevention, and other working groups and committees.
    The Yellow Ribbon Program offers resources on behavioral health 
issues and suicide mitigation and is offered to Reserve and Air 
National Guard Airmen and their families pre-deployment, during 
deployment, and post deployment.
    TRICARE Reserve Select is available for Reserve Component Airmen 
and their family members and provides coverage for both outpatient and 
inpatient treatment. Access to military medical care is available to 
service members with duty-related conditions through TRICARE and the 
Department of Veterans Affairs.
    Finally, the Military (or Veterans) Crisis Line, 1-800-273-8255 
(TALK), Press #1, www.militarycrisisline.net, or text to 838255 is 
available 24/7 to all service members and their families. It is a joint 
venture between the Department of Defense and the Department of 
Veterans Affairs' call center, which is associated with Substance Abuse 
and Mental Health Service Administration's National Suicide Prevention 
Lifeline. Resources include an online ``Veteran's Chat'' capability and 
the call center's trained personnel provide crisis intervention for 
those struggling with suicidal thoughts or family members seeking 
support for a Veteran.
    In fiscal year 2012 the ANG implemented PHP during highest death by 
suicide rates in known ANG history (calendar year 2011: 16.1/100K, 
calendar year 2012: 21.1/100K, calendar year 2013: 14.7/100K). The ANG 
reduced its suicides by 37 percent for calendar year 2013 and will 
continue seeking and executing meaningful strategies to driving down 
suicide rates.
                                 ______
                                 
       Questions Submitted to Lieutenant General James F. Jackson
             Question Submitted by Senator Patrick J. Leahy
         national commission on the structure of the air force
    Question. Lieutenant General Jackson, will you provide a list of 
the recommendations of the National Commission on the Structure of the 
Air Force that the Air Force Reserve has already executed the 
implementation of or are planning to execute, and how you have or will 
do so? Will you also provide a list of other initiatives you have 
already executed or are planning to execute to pursue Total Force 
Integration? (Same question went to NGB)
    Answer. The Air Force believes the Total Force cannot succeed 
without all three components--the Active, Guard and Reserve--each 
providing its unique value to the nation. Each component is equally 
represented within the Total Force--Continuum (TF-C) working group, in 
its efforts to address two lines of effort (LOE) initially established 
by the Total Force Task Force (TF2). Through these LOEs the TF-C will 
develop recommendations that maximize the contributions of the Total 
Force, eliminate cultural and organizational barriers to effectiveness, 
and provide cost-savings opportunities that minimizing risk to Air 
Force capability.
    The TF-C identified 10 National Commission on the Structure of the 
Air Force (NCSAF) recommendations as initiatives currently being 
implemented, or planned for implementation. These recommendations are:
    1-Cost Approach (DOD tasking).--Department of Defense (DOD) should 
formally adopt the ``fully burdened cost'' approach to calculating 
military personnel costs, and it should apply analytic methods that 
focus on appropriate outputs along with life-cycle costs.
    6-Staff Integration.--The Air Force should integrate the existing 
staffs of Headquarters Air Force, the Air Force Reserve, and the Air 
National Guard.
    8-Full-Time and Part-Time mix.--The combination of full-time and 
part-time positions should be determined for each unit depending on 
weapon system requirements, deployment, and rotation schedule based on 
optimum matching of the needs of the Air Force, family, and employers.
    18-Total Force Competency Standards.--Commander, Air Education and 
Training Command (AETC) in coordination with the Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs and AF/A1, should 
develop a Total Force competency standard for officers, non-
commissioned officers, and enlisted Airmen across all specialties and 
career fields before the end of fiscal year 2016.
    19-Access to Non-Residence Education.--Commander, AETC should 
ensure that revised curriculum and competency standards are achievable 
by appropriately structured non-resident education programs equally 
accessible to personnel of all components.
    23-Non-Disclosure Agreements.--The Secretary of the Air Force 
should discontinue use of Non-Disclosure Agreements in the corporate 
process.
    34-Integrated Personnel Management.--The Air Force should unify 
personnel management for all three components under a single integrated 
organization (A1) in the Headquarters Air Staff.
    35-Integrated Pay/Personnel.--The Air Force should accelerate the 
development of an Integrated Pay and Personnel System.
    39-Continuum of Service.--Implement a pilot project of Continuum of 
Service that demonstrates the ability of an Airman to transition more 
seamlessly among the three components.
    40-Active Duty Service Commitment.--The Air Force should revise the 
rules for current Active Duty Service Commitments to enable members to 
meet the commitment in some combination of Active, Reserve, and Guard 
service.
    The Air Force is committed to a comprehensive assessment of NCSAF 
recommendations, sensible application where it makes sense, and 
enduring focus on leveraging the Total Force.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
            815th tactical airlift squadron, keesler afb, ms
    Question. General Jackson, when force moves are recommended, they 
should be based on solid operational and cost analysis. We are still 
waiting to see such analysis for the 815th Tactical Airlift Squadron at 
Keesler. For the record, please provide the committee with the detailed 
analysis used to formulate your recommendation to disestablish the 
815th and to move the 10 C-130Js to the 913th Airlift Group. A side-by-
side cost comparison between maintaining the aircraft at Keesler and 
the proposed alternative of moving the 10 aircraft to the 913th Airlift 
Group would be appreciated.
    Answer. Decisions regarding C-130 force structure were driven by 
the fact that the Air Force has excess tactical airlift capacity. The 
Mobility Capabilities Assessment-18 published May 1, 2013 determined `` 
. . . there is no surge scenario associated with the current defense 
strategy-even one in which a significant homeland defense event occurs 
concurrently with two warfights requiring a fleet of 358 C-130s. This 
includes accounting for C-130s dedicated to the Army's direct support 
mission.'' In fact, the report finds that the Air Force requires no 
more than 320 C-130s, and as few as 248.
    Framed in this operational context, the fiscal year 2015 
President's budget request proposes retiring 47 C-130Hs and 
redistributing several aircraft and units in an effort to comply with 
the Budget Control Act's fiscal limitations. Inherent in the budget 
request is the Air Force Total Force Proposal (TFP) that directs a 
number of moves, to include actions within the C-130 fleet to 
distribute aircraft and missions across existing Air Force Reserve 
basing infrastructure. The reassignment of 10 Air Force Reserve Command 
(AFRC) owned C-130Js is part of this plan, but is distinct because it 
is a fiscal year 2014 program change notification vice part of the 
fiscal year 2015 President's Budget request. By not moving the 10 C-
130Js to Little Rock Air Force Base (AFB), Arkansas, the AFRC presence 
would go away with the divestment of the 12 C-130Hs and the Air Force 
would lose out on the Total Force benefits of the integration of 
Reserve, Guard, and Active Component Airmen at the ``Home of the 
Herk.''
    The fiscal year 2013 National Defense Authorization Act accepted 
the fiscal year 2013 TFP which included the inactivation of the 815th 
Airlift Squadron at Keesler AFB, Mississippi (10  C-130J), divestment 
or transfer of the 440th Airlift Wing's 12 C-130H aircraft at Pope 
Army Air Field, North Carolina, and transfer of (10  C-130J) aircraft 
from the 815th Airlift Squadron to Pope Army Airfield. In February 
2014, the Air Force notified Congress of its intent to alter the 
destination of the 815th Airlift Squadron's aircraft from Pope Army 
Airfield to Little Rock AFB.
    On April 23, 2014, members of the Air Staff briefed the SAC-D 
Subcommittee staff on the analysis behind the movement of the C-130Js 
from Keesler AFB to Little Rock AFB. The data provided detailed the 
facts and background on the shifting of the C-130s to include the 
overall C-130H/J aircraft flow and cost savings realized through the 
total C-130 Enterprise decisions that have been made.
    We continue to assess our plan in light of fiscal year 2015 
National Defense Authorization Act and Defense Appropriations Bill 
language and stand ready to provide further analysis as needed.
                  81st training wing, keesler afb, ms
    Question. General Welsh and Lieutenant General Jackson, in your 
posture statements, you each stressed the importance of training. I'm 
quite proud of the 81st Training Wing at Keesler Air Force Base, which 
offers cutting-edge technical, cyber, and medical training programs and 
was designated as the Center of Excellence for electronics training. 
Can you comment on the extent to which these programs contribute to air 
and space superiority for our Air Force?
    Answer. The Air Force is very proud of the 81st Training Wing along 
with all of our Air Education and Training Command wings. Every Airman 
gets their start in Air Education and Training Command. In fiscal year 
2013, at Keesler Air Force Base alone, the 81st Training Wing graduated 
over 30,000 students from nearly 300 resident and non-resident courses, 
supporting 60 distinct Air Force Specialty Codes (types of technical 
jobs). Keesler Air Force Base trains the full spectrum of service 
members that both directly and indirectly support the Air and Space 
superiority mission including medical professionals, airfield 
operations and maintenance, Battlefield Airmen, personnel, finance, 
weather, and the entire spectrum of initial skills cyber operations.
    Keesler's role in training and developing Airmen is vital to 
maintaining our superiority over any adversary. All of our weapon 
systems use some form of technology for which the 81st Training Wing 
provides trained Airmen across many disciplines, including trained 
cyber Airmen to maintain and operate these complex systems. The wing's 
training directly contributes to operations. For example, our Keesler-
trained cyber Airmen maintain encryption devices used onboard the F-22 
and F-35 aircraft, our latest generation jet fighters. Without trained 
Airmen from the 81st Training Wing, we could not launch these aircraft 
and maintain our edge in air superiority. More broadly, the 81st 
Training Wing provides the foundational initial cyber skills training 
for producing and establishing the enduring and sustainment portion of 
cyber Airmen required to fill a significant portion of U.S. Cyber 
Command's cyber mission force teams. The on-going standup of the cyber 
mission forces is yet another way we will maintain superiority over our 
adversaries in the future, and the 81st Training Wing is essential to 
training the best Airmen in cyber in how to lead the way.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                           military suicides
    Question. Lieutenant General Jackson, lately the majority of 
attention has been focused on the military sexual assault dilemma, and 
rightly so, but the suicide issue has continued to plague our military 
and veteran populations. In the Air Force alone, suicide has taken the 
lives of almost 100 Airmen a year since 2010. This year, there have 
already been over 15 suicides in the first two and a half months, more 
than double the rate over the same period last year. Unfortunately, the 
Reserve component has mirrored the active component in this tragic 
area, with a significant number of suicides every year and trending 
upwards. I have heard from numerous Veteran and military support groups 
in Alaska and it sounds like there is a disconnect in suicide awareness 
and prevention efforts between the active component and the Reserve 
Component. Like the active force, your operations tempo has been 
extremely high over the last decade plus of war and our Reserve 
Component forces have answered the call in tremendous fashion. But 
unlike the active force, the Reserve Component has a limited ability to 
reach out to their forces and ensure they are cared for after 
deployments.
    What are you doing to address this horrific problem and where can 
we help you get things under control? (Note: Same question to General 
Grass and Lieutenant General Clarke)
    Answer. We are saddened by every loss of life in our Air Force 
Reserve (AFR) family regardless of the circumstances. To combat and 
minimize suicide in the AFR, a tremendous amount of effort has been 
placed into our Air Force Reserve Suicide Prevention Program (AFRSPP). 
AFRSPP is broad-based, multi-faceted and builds on the Air Force's 
Suicide Prevention Program in ways that are specifically designed to 
appeal to Reserve Airmen.
    We ask America's Citizen Airmen to maintain a unique ``reserve-
work-life balance'' between their Air Force duties, their civilian 
employer and their families. Maintaining this balance can sometimes be 
a challenge. Programs such as the Employer Support of the Guard and 
Reserve (ESGR) and ``Hero2Hired.jobs'' are critical in helping our 
Airmen deal with life-changing events such as deploying and 
transitioning to or from the civilian workforce.
    The AFR is leveraging today's technology to further support our 
reserve-work-life balance by offering the Wingman Toolkit, found at 
http://AFRC.Wingman
Toolkit.org/. The Wingman Toolkit is our online resource designed 
around comprehensive fitness and the four areas of physical, mental, 
spiritual and social well-being. Resources include articles, videos, 
Web site links, resiliency training, a mobile phone app, a sexual 
assault resource page, and a ``Get Help'' bell with the National 
Suicide Prevention Lifeline for those that may need immediate help. The 
Wingman Toolkit is one of many efforts to ensure our Citizen Airmen's 
comprehensive fitness, by building a strong Wingman culture of Airmen 
proactively taking care of themselves and each other.
    In addition to the Wingman Toolkit, the AFR provides the 
Psychological Health Advocacy Program (PHAP) to aid Airmen and 
families. PHAP assists our members and their families by locating 
appropriate resources through free and confidential regional teams, 
available 24/7. Our nurse case facilitators offer resource referrals 
for any life stressor, from family counseling and deployment support to 
suicide prevention and substance abuse. In fiscal year 2013, only the 
second year of the program, the cases increased by 91 percent to more 
than 1,100, and the number of mental health cases increased by 142 
percent to over 300. These increases are a result of more members 
taking advantage of this important service, which is making a direct 
impact on our member's lives. Our Citizen Airmen have come to 
appreciate the PHAP motto that ``you and your family are not alone.''
    Taking into account the limited ability to reach out to our Airmen 
compared to our active duty counterparts, we continually strive to 
improve our programs, focusing on getting Reservists the help they need 
before a crisis occurs. We constantly advocate prevention and early 
help-seeking with vital resources such as our Chaplains and medical 
professionals. For the past 2 years, the Air Force Reserve Command 
(AFRC) Chaplain Corps' Suicide Prevention Action Plan (SPAP) has 
provided support for resilience and suicide-prevention through targeted 
Reserve Personnel Appropriation supported funding ($1.2 million in 
fiscal year 2013 and $1.1 million in fiscal year 2014). We currently 
have 19 chaplains and chaplain assistants supporting 11 AFRC units. In 
addition, the AFR funded 29 director of psychological health positions 
across the United States in fiscal year 2013. To date, 13 of the 29 
positions have been filled or have candidates identified, with another 
three in the hiring process. These directors are fully credentialed 
mental health providers who are immediately available to Air Force 
Reserve members at risk.
    We also have developed a very successful Yellow Ribbon Program, 
which promotes the well-being of Airman and the people who support 
them. Furthermore, it connects them to local resources before, during, 
and after deployments. The importance of the Yellow Ribbon Program for 
our deploying members was demonstrated last fiscal year as 2,273 AFR 
members attended 57 events, along with 3,685 family members. Our member 
satisfaction rate of 92 percent is a testament to the value of the 
Yellow Ribbon Program in supporting our Citizen Airmen, their families 
and employers throughout the deployment cycle. In 2013, the AFR's 
Yellow Ribbon Program was the first to begin using a scanner system to 
track events and their attendees. Coupled with pre- and post-event 
surveys, this provides Yellow Ribbon administrators information to 
build more effective future events. The result is better programming 
for breakout sessions and more efficient use of taxpayer dollars.
    We sincerely appreciate your offer to assist with our suicide 
prevention efforts. In addition to your support of the Yellow Ribbon 
Program, one suggested area of focus is on the part-time Airmen who are 
struggling with the stress involved in obtaining full-time civilian 
employment. Anything Congress can do to improve the employment 
situation for Reservists and Guardsmen in need would be welcomed.
               furlough of guard and reserve technicians
    Question. Lieutenant General Jackson, one of the things that really 
pained me during last summer's furloughs and the government shutdown 
that followed was that the civilian technicians were not exempted from 
the furlough nor were they as a group deemed essential during the 
shutdown. Earlier this year I had an opportunity to speak with an 
Alaska Air Guard technician who serves as an Operations Officer with 
the rescue squadron. In spite of the importance of his job he was 
neither exempted from furlough nor deemed essential in the early days 
of the shutdown. None of this makes sense to me. It seems to me that 
the mission responsibilities of the technician workforce are so 
intimately tied to the military personnel who work alongside them that 
the technicians as a group should be exempted from furlough and deemed 
essential in the case of a lapse in appropriations.
    Would you disagree with this proposition? (Note: Same question to 
General Grass)
    Answer. Our Air Force dual status technicians serve in a wide range 
of occupations from engineering and logistics to healthcare and 
personnel support. While in an active duty status, technicians are not 
subject to furlough. While in a civilian status, they are covered by 
Title 5 regulations and, like all other Federal civilian employees, are 
subject to furlough as a result of any lapse in appropriations.
    Federal activities are significantly curtailed during lapse in 
appropriations. As a well settled matter of law, a Federal agency may 
not incur a financial obligation unless (1) it has statutory authority 
to obligate funds in advance of appropriations; (2) such actions are 
necessary to address threats to life, property, or national security; 
or (3) the functions are necessary to discharge the President's 
Constitutional duties and powers. Activities deemed to fall under one 
of these categories are called ``exemptions.'' Additionally, 
undertakings funded through monies not appropriated or by 
appropriations not affected by the lapse may also continue. Failure to 
abide by the rules would constitute an acceptance of voluntary services 
and a potential Antideficiency Act violation.
    In determining exemptions from the 2013 furlough necessitated by 
lapse in appropriations, the Air Force followed the Department of 
Defense (DOD) Contingency Guidance for Continuation of Essential 
Operations in the Absence of Available Appropriations, September 2013. 
This document provided detailed guidance for identifying those missions 
and functions of the Department that may continue to be carried out in 
the absence of available appropriations. According to this guidance, 
DOD appropriated-fund civilian personnel, including military 
technicians serving in a civilian capacity, who are not necessary to 
carry out or support excepted activities, are to be furloughed. Only 
the minimum number of civilian employees necessary to carry out 
excepted activities will be exempt from furlough. To apply these 
provisions, the law requires that an agency look at the activities a 
given employee is performing. In this way, it is the activity that a 
particular employee is performing that is ``excepted,'' not the 
employees themselves. In following this guidance, the Air Force 
determined that not all military technicians were necessary to carry 
out excepted activities. Therefore, dual status technicians serving in 
Operations Officer civilian positions were subject to furlough, on a 
case by case basis, during the 2013 government shutdown.
    The Air Force Reserve (AFR) shares your concerns and seeks to 
ensure dual status military technicians are exempt from furloughs 
during a lapse in appropriations to the greatest degree authorized 
under the law. The AFR is currently staffing a request for the 
Department to reconsider its government shutdown policies in order to 
better manage its dual status technicians during a lapse in 
appropriations.

                          SUBCOMMITTEE RECESS

    Senator Durbin. We will be working closely with you as we 
face the challenge of the next fiscal year budget. Thank you 
very much. This meeting of the subcommittee stands adjourned.
    [Whereupon, at 11:23 a.m., Wednesday, April 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
